<html>
<title> - IRAQ: RECONSTRUCTION</title>
<body><pre>[Senate Hearing 108-53]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-53

                          IRAQ: RECONSTRUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



87-833              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Adams, Dr. Gordon, director of the Security Policy Studies 
  Program, Elliott School of International Affairs, the George 
  Washington University, Washington, DC..........................    17
    Prepared statement...........................................    20
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
Corzine, Hon. Jon, U.S. Senator from New Jersey, statement 
  submitted for the record.......................................    80
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Marr, Dr. Phebe, former senior fellow, National Defense 
  University, Washington, DC.....................................    41
    Prepared statement...........................................    47
Mitchell, Ms. Sandra, vice president of Governmental Relations, 
  International Rescue Committee, Washington, DC.................    30
    Prepared statement...........................................    34
Romero, Ms. Bernice, deputy director of Policy and External 
  Affairs, Oxfam America, statement submitted for the record.....    81
Schwartz, Mr. Eric P., senior fellow and director, Independent 
  Task Force on Post-Conflict Iraq, Council on Foreign Relations, 
  Washington, DC.................................................     9
    Prepared statement...........................................    12
    Executive Summary of Report of an Independent Task Force on 
      Post-Conflict Iraq.........................................    14

                                 (iii)

  

 
                          IRAQ: RECONSTRUCTION

                              ----------                              


                        TUESDAY, MARCH 11, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Brownback, 
Alexander, Coleman, Sununu, Dodd, Feingold, Bill Nelson and 
Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today, the committee continues 
its review of the United States humanitarian and reconstruction 
policy concerning Iraq.
    At our hearing on Iraq exactly 1 month ago, Under Secretary 
of State Marc Grossman and Under Secretary of Defense Doug 
Feith were unable at that time to provide many details about 
United States planning in this area.
    A short time after that hearing, General Jay Garner was 
named Director of the Office of Reconstruction and Humanitarian 
Assistance, a new position at the Pentagon. We invited General 
Garner to appear before the committee today. Unfortunately, we 
have been notified that neither General Garner nor his deputy 
are available to the committee.
    This, in my judgment, is a missed opportunity for the 
administration to communicate its views on Iraq reconstruction, 
not only to Senators, who want to help in meeting potentially 
complex and expensive requirements, but also to the American 
people, whose long-term support of these efforts will be a 
necessity.
    Nevertheless, the committee will continue to concentrate on 
this vital issue. In addition to our hearing today, Assistant 
Secretary of State Bill Burns will testify on policy toward 
Iraq in a closed hearing on Thursday. If General Garner is not 
available to testify, we should hear promptly from responsible 
officials in DOD who are available on that day.
    President Bush has repeatedly stressed the hope of all 
Americans that Saddam Hussein will disarm peacefully. 
Unfortunately, Saddam Hussein has not complied with U.N. 
resolutions. He has not opened his weapons program to U.N. 
inspection teams or accounted for the weapons and materials of 
mass destruction that were known to be in his possession.
    Fully 12 years after Operation Desert Storm, the world 
continues to face the threats posed by Iraq and its ruler. 
Baghdad is in material breach of Resolution 1441, even though 
the United Nations Security Council voted 15 to 0 that such a 
monumental defiance of the United Nations would result in grave 
consequences.
    Later this week, the Security Council will consider a 
resolution proposed by the United States, Great Britain, and 
Spain that would find Iraq in noncompliance with Resolution 
1441. The last major hope for disarmament without military 
action is a united front by the members of the Security Council 
in underlining, again, the requirements imposed upon Iraq by 
the world community.
    Military actions always have humanitarian consequences. 
Decisions to go to war always should be made with the sober 
realization of the human costs.
    But an Iraq armed with weapons of mass destruction and the 
possibility of their transfer to terrorist organizations is 
clearly unacceptable. Our decision is guided by the knowledge 
that failing to act is more dangerous to the future of 
Americans and the Iraqi people than taking action now to disarm 
Iraq.
    President Bush has made it clear that if we are compelled 
to resort to military force, there will be a new government in 
Baghdad. Therefore, it is vital that the United States joins 
with allies and the Iraqi people to reconstruct Iraq once 
Saddam is gone.
    Our humanitarian and reconstruction efforts must reflect 
the considerable interest we have in the health and welfare of 
the Iraqi people. The United States must begin humanitarian 
relief activities immediately upon securing territory in Iraq 
and preparations for reconstruction must move forward with the 
same vigor as military preparations.
    The Foreign Relations Committee already has heard testimony 
from a number of administration officials and private sector 
experts on the challenges that the United States will face. Our 
first goal must be to ensure security by preserving the 
territorial integrity of Iraq while simultaneously finding and 
destroying weapons and materials of mass destruction and their 
means of delivery.
    Security is crucial to the provision of emergency relief, 
safe water, sanitation, food, electricity, and basic public 
health services. The administration must be aggressive in 
encouraging other governments and international organizations 
to be active participants in this process.
    President Bush and his advisors have spent much energy 
trying to assemble the most potent military coalition possible. 
It will be vital that they duplicate this effort in seeking a 
post-conflict reconstruction coalition that expands the talents 
and resources available for Iraqi reconstruction.
    And furthermore, we must reach out and consult with our 
colleagues in the non-governmental organizational community. 
NGO's have a critical role to play in Iraq and we must ensure 
that their efforts are fully coordinated.
    The Iraqi people have suffered for decades at the hands of 
their leaders. We want to contribute to the creation of 
fundamental structures for the people of Iraq to enjoy 
democracy and economic growth. And the American people must 
understand that the United States' military and civilian 
personnel will be in Iraq for an extended period of time.
    Most experts believe that years of public investment and 
expert guidance will be required to establish Iraq as a secure 
and responsible member of the world community. And failure to 
stay the course in Iraq would risk grave damage to the United 
States' credibility, particularly after the last several months 
of fractious diplomacy over the propriety of military force.
    Leaving Iraq prematurely also could lead to regional 
instability, ethnic warfare, failure to eliminate all Iraqi 
weapons of mass destruction, and the establishment of terrorist 
bases on Iraqi territory.
    I understand the administration has assembled a talented 
interagency team to implement reconstruction plans. This 
preparation must be matched by the commitment of the American 
Government. We have an opportunity to secure a path to peace 
and prosperity in Iraq, but we must make a commitment to finish 
that journey. This committee intends to follow the 
administration's progress in the area very closely.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today the Foreign Relations Committee continues its review of U.S. 
humanitarian and reconstruction policy concerning Iraq.
    At our hearing on Iraq exactly one month ago today, Under Secretary 
of State Marc Grossman and Under Secretary of Defense Doug Feith were 
unable to provide many details about U.S. planning in this area. A 
short time after that hearing, General Jay Garner was named Director of 
the Office of Reconstruction and Humanitarian Assistance--a new 
position at the Pentagon. We invited General Garner to appear before 
the committee today. Unfortunately, we have been notified that neither 
General Garner, nor his deputy, are available to the committee. This is 
a missed opportunity for the administration to communicate its views on 
Iraqi reconstruction, not only to Senators who want to help in meeting 
potentially complex and expensive requirements, but also to the 
American people, whose long-term support will be a necessity. 
Nevertheless, the committee will continue to concentrate on this vital 
issue. In addition to our hearing today, Assistant Secretary of State 
Bill Burns will testify on policy toward Iraq in a closed hearing on 
Thursday. If General Garner is not available to testify, we should hear 
promptly from responsible officials in DOD who are available on that 
day.
    President Bush has repeatedly stressed the hope of all Americans 
that Saddam Hussein will disarm peacefully. Unfortunately, Saddam 
Hussein has not complied with U.N. Resolutions. He has not opened his 
weapons programs to U.N. inspection teams or accounted for the weapons 
and materials of mass destruction that were known to be in his 
possession. Fully twelve years after Operation Desert Storm, the world 
continues to face the threats posed by Iraq and its ruler.
    Baghdad is in material breach of Resolution 1441, even though the 
U.N. Security Council voted 15-0 that such a monumental defiance of the 
United Nations would result in grave consequences. Later this week the 
Security Council will consider a resolution proposed by the United 
States, Great Britain, and Spain that would find Iraq in noncompliance 
with Resolution 1441. The last major hope for disarmament without 
military action is a united front by the members of the Security 
Council in underlining again the requirements imposed on Iraq by the 
world community.
    Military actions always have humanitarian consequences. Decisions 
to go to war always should be made with the sober realization of the 
human costs. But an Iraq armed with weapons of mass destruction and the 
possibility of their transfer to terrorist organizations is 
unacceptable. Our decision is guided by the knowledge that failing to 
act is more dangerous to the future of the American and Iraqi people 
than taking action now to disarm Iraq.
    President Bush has made it clear that if we are compelled to resort 
to military force, there will be a new government in Baghdad. It is 
vital that the United States joins with allies and the Iraqi people to 
reconstruct Iraq once Saddam is gone. Our humanitarian and 
reconstruction efforts must reflect the considerable interests we have 
in the health and welfare of the Iraqi people. The United States must 
begin humanitarian relief activities immediately upon securing 
territory in Iraq, and preparations for reconstruction must move 
forward with the same vigor as military preparations.
    The Foreign Relations Committee already has heard testimony from a 
number of administration officials and private sector experts on the 
challenges that the United States will face in rebuilding Iraq. Our 
first goal must be to ensure security by preserving the territorial 
integrity of Iraq while simultaneously finding and destroying the 
weapons and materials of mass destruction and their means of delivery. 
Security is crucial to the provision of emergency relief, safe water, 
sanitation, food, electricity, and basic public health services.
    The administration must be aggressive in encouraging other 
governments and international organizations to be active participants 
in this process. President Bush and his advisers have spent much energy 
trying to assemble the most potent military coalition possible. It will 
be vital that they duplicate this effort in seeking a post-conflict 
reconstruction coalition that expands the talents and resources 
available for Iraqi reconstruction. Furthermore, we must reach out and 
consult with our colleagues in the non-governmental organization 
community. NGOs have a critical role to play in Iraq, and we must 
ensure that our efforts are fully coordinated.
    The Iraqi people have suffered for decades at the hands of their 
leaders. We want to contribute to the creation of fundamental 
structures for the people of Iraq to enjoy democracy and economic 
growth. The American people must understand that U.S. military and 
civilian personnel will be in Iraq for an extended period of time. Most 
experts believe that years of public investment and expert guidance 
will be required to establish Iraq as a secure and responsible member 
of the world community. Failure to stay the course in Iraq would risk 
great damage to U.S. credibility--particularly after the last several 
months of fractious diplomacy over the propriety of military force. 
Leaving Iraq prematurely also could lead to regional instability, 
ethnic warfare, failure to eliminate all Iraqi weapons of mass 
destruction, and the establishment of terrorist bases on Iraqi 
territory.
    I understand that the administration has assembled a talented 
inter-agency team to implement reconstruction plans. This preparation 
must be matched by the commitment of the American government. We have 
an opportunity to secure a path to peace and prosperity in Iraq, but we 
must make a commitment to finish the journey. This committee intends to 
follow the administration's progress in this area very closely.
    We are pleased to welcome a distinguished panel of witnesses. We 
will hear from Eric Schwartz, Senior Fellow and Director of the 
Independent Task Force on Post-Conflict Iraq at the Council on Foreign 
Relations; Phebe Marr, formerly of the National Defense University; 
Professor Gordon Adams, Director of the Security Policy Studies Program 
at the Elliott School of International Affairs at the George Washington 
University, and Sandra Mitchell, Vice President of Governmental 
Relations at the International Rescue Committee.

    The Chairman. Let me say before proceeding further that I 
know that all of you have learned of the surgery that was 
visited upon Senator Biden in Florida. He is recovering well at 
the home of his brother. He will be back next week, I 
understand, with full vigor. And he sends his best to the 
witnesses this morning and to all who are assembled.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I want to thank you for holding this timely hearing 
on humanitarian assistance and reconstruction in Iraq.
    As war looks increasingly likely, it is vital that the United 
States take every possible step to mitigate the suffering of innocent 
people.
    And while it is clear that, if war comes, we will prevail, true 
victory will be measured by our successes away from the battlefield.
    Our efforts to build a free, stable, and representative Iraq will 
be bolstered by the effective delivery of humanitarian assistance and 
the implementation of a comprehensive reconstruction program. Failure 
to achieve these goals will harm our regional interests and undermine 
our credibility. And it would constitute a failure to meet our moral 
responsibility.
    In the event of conflict, the United Nations has predicted that 10 
million Iraqis could run out of food within six weeks. And that there 
could be upwards of 2 million internally displaced persons and over 1 
million refugees.
    Although the administration hopes that the United Nations will lead 
these efforts, coalition forces must be prepared to deliver 
humanitarian assistance in conflict zones, and in areas where Saddam 
might use his weapons of mass destruction.
    I hope to hear otherwise today, but to my knowledge, the U.S. 
military is not prepositioning enough supplies to handle a major crisis 
without the help of the U.N. I also am disappointed that the 
administration has not taken more seriously the need to protect Iraqi 
civilians from possible chemical and biological weapons attacks, an 
issue I have raised repeatedly with the administration since my visit 
to Northern Iraq with Senator Hagel last December.
    And, Mr. Chairman, if we are to rely on the United Nations, we must 
ensure that its agencies get the support they need and that their non-
governmental partners have the time and money to prepare for a crisis. 
Thus far, the U.N.'s humanitarian bodies remain sorely underfunded and 
the NGOs have received less than $1 million from the U.S. Government.
    I was particularly troubled last week when the U.N.'s top 
humanitarian official in Iraq said that U.S. and U.N. preparations, 
even given a relatively short conflict of 3 to 4 months, were ``grossly 
inadequate.''
    No matter how optimistic we are, we must be prepared for a worst-
case scenario in which there is protracted urban warfare, the use of 
chemical or biological weapons, and the complete breakdown of the Oil 
for Food Program. I worry that the administration may not be preparing 
for a crisis of this magnitude.
    Mr. Chairman, this brings me to my last point: The benefits of 
working with the international community cannot be overstated.
    The United states will be in a far better position if we can 
provide humanitarian assistance and rebuild Iraq in cooperation with 
the United Nations and other countries.
    These efforts will require billions of dollars and tens of 
thousands of personnel over several years.
    It is profoundly in our interest to share what will be a massive 
burden. And acting under a U.N. flag, as opposed to a U.S. flag, will 
minimize resentment from malcontents in the region and beyond.
    Securing a second Security Council resolution would be enormously 
helpful in bringing others on board for the take-off and for the 
landing.
    So, Mr. Chairman, I hope we are prepared to step up our 
preparations to meet the humanitarian needs of all Iraqis. I also hope 
that we will provide the U.N. with the funds necessary to do their 
part.
    I thank the Chair.

    The Chairman. We are very fortunate that in his place today 
we have Senator Dodd, a veteran of the trail, and the 
distinguished Senator from Connecticut will give the opening 
comment on behalf of the Democrats on this committee.
    Senator Dodd. Well, thank you very much, Mr. Chairman. And 
thank you for your kind comments about Senator Biden who, as I 
think many are aware, had a gallbladder operation and is doing 
very, very well, and as you point out, will be back here in 
full form and voice very, very shortly.
    So I am filling in. Senator Sarbanes--so people understand 
there has not been a coup here--Senator Sarbanes, since I am 
the third ranking member of this committee, Senator Sarbanes 
has a previous commitment with another committee and so could 
not be here this morning. And for those reasons, I am sitting 
in the chair of Senator Biden this morning. And so I thank you. 
I thank you for your very kind comments as well.
    Once, again, Mr. Chairman, it is only the early part of 
March and we have had a set of hearings in this committee that, 
I think, compare favorably with any other period that certainly 
I have been in the Congress of the United States, over 30 
years. And if this is an indication of where this committee is 
going to be going under your leadership, we are going to have a 
very, very worthwhile committee process in the coming years, 
and I am confident we will.
    This is a very, very important hearing this morning and I 
am deeply grateful to our witnesses for being here to explore 
what is being done to plan for humanitarian relief and 
reconstruction in the event we choose the road of war with 
Iraq. We are all very, very anxious. I tried to find the right 
word here--uneasy, nervous--I think anxiousness is how I 
describe my constituency--I was home over the weekend--about 
where we are in all of this issue.
    And I am especially interested in knowing how far along the 
administration and the international community are in planning 
for what we may soon embark on. And that is a regime change in 
Iraq.
    Has the administration, for instance, determined what it is 
likely to cost, both the military operations and the aftermath? 
Has the administration identified sources of financing to cover 
these costs? Who will join us, if not in the coalition to deal 
militarily, but in the aftermath? Are there countries that 
would not be a part of a military operation but would be 
willing to be a part of a humanitarian effort in the wake of 
this? Will they contribute to some of the costs of that?
    How about the safety of people--with the weapons of mass 
destruction, I think most recognize are in existence still in 
Iraq--as to what extent the humanitarian relief workers receive 
the kind of protections necessary for them to be able to go in 
and do the job?
    These are just a couple of the questions that come to my 
mind immediately. I know there are countless other ones that 
people need answers to. And I think we need them sooner rather 
than later.
    Clearly, long-term peace and stability, as the chairman so 
rightfully has already pointed out this morning, in the Middle 
East will be affected by how well we plan for and handle 
humanitarian relief and the longer term reconstruction in the 
post-Saddam Hussein Iraq, should that come to pass.
    Our witnesses this morning will, I hope, allow us to get a 
better sense of the planning that is, and should be, under way 
at this juncture--planning in the administration, the 
international humanitarian relief organizations, private non-
governmental organizations.
    I would also welcome their perspectives on how far along 
international relief agencies and the NGO community are, 
generally, in their logistical preparations and pre-positioning 
of supplies in order to meet the challenges that may confront 
us in Iraq in the coming days and weeks. How much progress has 
been made in the sector-by-sector planning, in calculating the 
costs of such programs, or in identifying the resources, as I 
mentioned earlier, to pay for them?
    I am terribly concerned that we are not as far along as we 
should be at this juncture, considering we may just be days 
away from military action; but frankly none of us really knows 
because the administration, unfortunately, has been extremely 
vague. And I understand they cannot be as specific as some 
would like, but it seems to me there is a distance between 
vagueness and specificity that would allow us to at least have 
some idea of where we are headed here.
    I welcome our panel of expert witnesses this morning. I 
believe they will add to the committee's knowledge on this 
subject, given their long background experience in this area of 
discussion.
    I regret, as the chairman has mentioned, that there are no 
representatives of the administration here this morning. I know 
that this is not due to any lack of effort on the chairman's 
part that they be here. And I gather that the administration 
declined to make either Mr. Natsios, the USAID administrator, 
or General Garner, the Director of the newly established Office 
of Reconstruction and Humanitarian Assistance at the Pentagon, 
available to us today. That is too bad in my view, because 
these are two very important individuals in the U.S. Government 
who will be primarily responsible for overseeing U.S. 
humanitarian relief and reconstruction efforts in Iraq.
    Just because the Congress already voted for H.J. Resolution 
114 last year, providing the President with the authority to 
disarm Iraq's weapons of mass destruction, certainly did not 
mean that Congress need not be kept apprised of what the 
administration intends to do, not only in planning for military 
action but also in the humanitarian relief and reconstruction 
of Iraq in the aftermath of such action.
    The administration, in my view, has an obligation to be as 
fully candid as they can with the Congress and most 
especially--not so much to us--but with the American people as 
we ramp up for war, particularly as the decision to go to war 
will commit the United States to an extensive and costly 
involvement in the aftermath of that war. It will be even more 
costly and prolonged if the administration moves ahead alone, 
because a sufficient number of U.N. Security Council members 
are not yet convinced that all peaceful means of disarming Iraq 
have been exhausted.
    It is not as though the administration has not discussed 
its plans with others. According to recent news articles, Mr. 
Natsios has asked five U.S. construction companies: Bechtel, 
Fluor Corporation, Halliburton-owned Kellogg, Brown and Root, 
Louis Berger Group, and Parsons Corporation to bid on a $900 
million contract to rebuild Iraq--clearly only the first phase 
in what is likely to be a much more costly undertaking, 
depending upon the war damage incurred and the presence or 
absence of a burden-sharing by others.
    General Garner has also reportedly been in discussions with 
one of Kofi Annan's deputies at the U.N. about contingency 
plans for wartime humanitarian relief.
    In light of those discussions, it is extremely difficult to 
understand why the administration declined our invitation to be 
here today. I do not think I am alone when I say that I am 
extremely uneasy with the manner in which the administration 
has approached this issue at the United Nations, with the 
Congress, with relief organizations, and most of all with the 
American people.
    The time has come for the administration to be fully candid 
with all of us and to listen to what we and others have to say 
about its plans and timetable for action. Military action 
against Iraq may be swift and simple. Alternatively, our 
involvement in Iraq may turn out to be a long and protracted 
U.S. commitment.
    Because one should always plan for the worst possible 
options, the administration should, in my view, be doing 
everything possible to be honest and forthcoming with all 
interested parties, particularly this committee, the Congress, 
and the American people. And then if the worst comes to pass, 
and we certainly hope it does not, then we will be prepared and 
be willing to act accordingly.
    So my hope would be, Mr. Chairman, that we would find a 
little more willingness--and I want to emphasize the point 
here--I know the administration has balked at the idea of 
giving sort of a specific dollar amount, and I understand their 
concern about that. But coming forward and saying this is, at 
least, our best case judgment at this juncture, I think, would 
be very, very helpful in giving us a better and clearer idea of 
how we ought to proceed.
    But nonetheless, I am very grateful to these witnesses and 
very grateful to you, Mr. Chairman, to give us a chance, at 
least, to explore the subject matter with people who are 
tremendously knowledgeable about the subject matter before us 
today, and I thank you.
    The Chairman. Well, thank you very much, Senator Dodd.
    Just in fairness to Mr. Natsios, he has testified before 
our committee in another hearing, and I think he will be back 
in due course.
    Senator Dodd. Right.
    The Chairman. I was startled, however, as the Senator has 
pointed out, that already a contract for perhaps $900 million 
has been sent out to five bidders. At least we were apprised of 
that by good coverage in the paper. And so we will continue to 
be persistent and do our best.
    Senator Dodd. Mr. Chairman, I have a statement here from 
Senator Biden, which he would like to be included in the 
record. That ought to precede my comments this morning.
    The Chairman. Very well. And all of Senator Biden's opening 
statement will, of course, be made a part of the record.
    Senator Dodd. Thank you.
    The Chairman. Let me call now upon our panelists, and I 
will introduce them in the order in which I will ask them to 
testify.
    Mr. Eric Schwartz, senior fellow and director, Independent 
Task Force on Post-Conflict Iraq, Council on Foreign Relations 
in Washington, DC; Dr. Gordon Adams, director of the Security 
Policy Studies Program, Elliott School of International 
Affairs, The George Washington University, Washington, DC; Ms. 
Sandra Mitchell, vice president of Governmental Relations, 
International Rescue Committee in Washington, DC; and Dr. Phebe 
Marr, a former senior fellow of the National Defense University 
in Washington, DC.
    In introducing Mr. Schwartz, let me simply mention that he 
is going to publish tomorrow an independent task force study 
which he has headed on post-conflict transition in Iraq; and so 
we look forward to that study, which will be available to 
members of the committee and the public fairly soon.
    Dr. Marr is always busy, and she is currently updating the 
final stages of her book, ``The Modern History of Iraq.'' We 
appreciated her testimony of last year. The committee was 
somewhat prescient in asking many questions of Dr. Marr, and we 
look forward to your testimony again today.
    First of all, Mr. Schwartz.

  STATEMENT OF ERIC P. SCHWARTZ, SENIOR FELLOW AND DIRECTOR, 
   INDEPENDENT TASK FORCE ON POST-CONFLICT IRAQ, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Schwartz. Thank you, Mr. Chairman. I want to thank the 
chairman and members of the committee for the opportunity to 
testify on this critical issue. And I have, indeed, looked at 
these questions rather closely in recent months in my capacity 
as director of the CFR project, the Independent Task Force on 
Post-Conflict Iraq. That task force, which is co-chaired by 
Ambassador Thomas Pickering and Dr. James Schlesinger, and 
which has as one of its distinguished members, Dr. Phebe Marr, 
will release its report tomorrow morning. And I would be 
grateful if the committee would agree to include the executive 
summary of that report in the printed record of this hearing.
    The Chairman. It will be included in full. Thank you.
    Mr. Schwartz. Thank you. Although much of my testimony is 
informed by my work on the task force, I am here today in my 
personal capacity. I should also say that in addition to my 
work at the Council, I was formerly a senior NSC aide during 
the Clinton administration and had responsibilities for 
humanitarian assistance, management of complex crises and 
United Nations issues.
    So I have some appreciation, I think, of the enormous 
challenge confronting the Bush administration. And while much 
of what I say may be somewhat critical in tone, I want to 
emphasize that there really is a lot of good work being done by 
committed public servants to ensure that, if a war takes place, 
battlefield victory will not be lost in the post-conflict 
environment.
    If the United States does go to war and removes the regime 
of Saddam Hussein, our interests will, indeed, demand an 
extraordinary commitment of U.S. financial and personnel 
resources to post-conflict transitional assistance and 
reconstruction. These interests include securing the 
elimination of weapons of mass destruction; ending Iraqi 
contacts, whether limited or extensive, with international 
terrorist organizations; ensuring that a post-transition Iraqi 
government can maintain the country's territorial integrity and 
independence while contributing to regional stability; and 
promoting an internal democratic process in which the people of 
Iraq have a meaningful voice in the policy decisions that 
impact their lives.
    Given the limited time, let me offer five key questions 
which I would encourage committee members to raise with 
administration officials, and then briefly offer my own 
perspectives on each of them.
    First, what is the extent of our long-term political 
commitment to Iraq? What are we prepared to spend and when will 
the administration describe this in detail to the American 
people?
    It is critically important that the President step up his 
efforts to explain to the American people the rationale for 
U.S. engagement in post-war Iraq, and it is also essential that 
he begin to describe the magnitude of the American post-
conflict commitment. This is necessary if we are going to 
sustain long-term support to Iraq, even after senior officials 
turn their attention to other crises in the years to come.
    So what are the costs? And I speak with an awareness that I 
am sitting next to an expert on this subject. If you estimate a 
requirement of about 75,000 peace stabilization troops--at a 
cost judged by CBO at about $1.4 billion per month--and you 
add, say, a first-year U.S. contribution to humanitarian and 
economic assistance of about $3 billion, which I would argue is 
a very modest amount, then you are at about $20 billion a year 
or more.
    And these estimates, again, are quite modest. Other 
credible estimates are far higher. Moreover, the United States 
will need to be prepared to spend comparable amounts in future 
years.
    And I think it is important to note that it is probably 
unrealistic to assume that Iraqi oil revenues will provide the 
resources necessary for rebuilding Iraq, especially in the 
short term. First, much of the revenue is already being used 
for humanitarian purposes under Oil for Food. And additional 
reconstruction requirements will amount to tens of billions of 
dollars, at a minimum.
    Second, large oil capacity and production increases, which 
might generate greater revenues, are many years away.
    And, finally, the bulk of U.S. post-conflict expenses will 
be for U.S. peace stabilization troops, and it would be awkward 
at best to use such revenues to pay those costs--to use oil 
revenues to pay those costs.
    The second question I would raise with the administration 
is what specific actions will the U.S. military take to protect 
Iraqi civilians in the context of conflict and its aftermath? 
U.S. officials must be certain that U.S. troops involved in 
combat operations will be in a position to focus, in a 
systematic manner, on threats to civilians. In particular, from 
the outset of the conflict, the military should deploy forces 
with a mission to prevent reprisals and other acts of 
lawlessness, and to provide humanitarian aid.
    And U.S. military and civilian officials should sustain 
this focus throughout the transition. None of the other U.S. 
objectives in rebuilding Iraq will be realized in the absence 
of public security. If the United States fails to address this 
issue effectively, we will fuel the impression that the result 
of U.S. intervention is an increase in the humanitarian 
suffering of Iraqis.
    The U.S. military, in some cases in cooperation with 
coalition partners, should also assist civilian victims of any 
use of weapons of mass destruction if exposure occurs. They 
should press neighboring governments to provide refuge within 
their borders for fleeing Iraqis. They should seek to ensure 
protection for internally displaced persons, especially if 
Turkey and other governments establish camps inside of Iraq. 
They should sustain the basic structure of the U.N. Oil for 
Food Program, and, over time, actively recruit international 
civilian police and constabulary forces from other governments 
to assist U.S. troops in public security and in the training of 
Iraqis to take on responsibilities in this area.
    The third question: what action is the administration 
taking to ensure that international organizations and other 
governments will contribute meaningfully to the post-conflict 
transition effort? Obviously, the administration needs others 
if it is to succeed in post-conflict Iraq. This will not only 
lighten the load for the United States, but it will also 
diminish the mistaken perception that the United States seeks 
to control Iraq.
    There is much the administration can do to involve others 
in the initial stages and over time without sacrificing unity 
of effort in the post-conflict structure. While the law of 
occupation will provide the general authority for U.S. actions, 
we should also work toward U.N. Security Council resolutions 
that endorse post-conflict transition structures and enhance 
the likelihood of buy-in by others.
    And even if those resolutions endorse a U.S. lead, 
initially, in post-conflict security and interim civil 
administration, they should also promote the lead of the United 
Nations and other international organizations on issues such as 
humanitarian assistance, the political consultative process 
that leads to a transition to Iraqi rule, the management of the 
U.N. Oil for Food Program, and international reconstruction.
    In addition, a resolution could indicate that 
responsibilities in other areas should be further transferred 
to the U.N. and/or other governments, as conditions permit.
    The fourth question I would raise is what actions are being 
taken to ensure the Iraqi character of the political transition 
process? Post-conflict conditions would make an immediate 
transfer of sovereign authority to Iraqis extremely difficult 
and inadvisable in my view. Nonetheless, the Bush 
administration and the United States have strong interests in 
ensuring that Iraqis continue to play key roles in 
administration of public institutions, subject to adequate 
vetting. Continuity of basic services will be essential and 
thousands of Iraqi civil servants will have to stay on their 
jobs.
    In addition, the administration should support a broadly 
representative political consultative process leading to a 
transition to Iraqi rule; and, again to enhance legitimacy, the 
administration should endorse U.N. leadership in this 
particular effort.
    Finally, we must make sure that Iraqis play key roles in 
the rehabilitation efforts that U.S. and other reconstruction 
funding is likely to support, and I take note of your comment 
about bids for construction contracts.
    The final question that I would raise is as a government, 
are we well organized to meet this challenge? In late January, 
the President issued a National Security Presidential 
Directive, placing responsibility for managing the post-
conflict rebuilding of Iraq within the Department of Defense. 
Defense Department planning efforts appear to complement or 
incorporate a range of other administration initiatives, 
including the State Department's ``Future of Iraq Project.''
    The key challenge will be to transform these activities 
into a coherent and unified effort, and ensure that policies 
that are formulated in Washington are accepted internationally, 
and effectively implemented in Iraq. There are many questions 
that are worth raising with officials; not, I emphasize, to 
slow them down, but to encourage them to resolve important 
organizational questions that are often deferred, or never even 
addressed, within the bureaucracy.
    First, what role is the new Pentagon office playing in the 
policy formulation process, and how will it continue in this 
role after many of its personnel have been deployed to the 
region? And if it is not a policy formulation body, in what 
forum will policy be developed below the principals and the 
deputies' levels?
    And if action is now centered at the Defense Department, 
how can our government take better advantage--better advantage 
than it is now taking, of the considerable expertise in 
management of post-conflict requirements that exists in other 
U.S. Government agencies, including the State Department and 
the U.S. Agency for International Development?
    In conclusion, recent history has demonstrated that post-
conflict peace building can be extraordinarily complex. In 
Iraq, where U.S. efforts will involve uncertainty, trial and 
error, and uneven progress, U.S. success will depend on our 
determination to sustain a long-term and substantial commitment 
of American resources and personnel, to ensure the active 
involvement of others in post-conflict reconstruction, and to 
promote participation by the people of Iraq in a process that 
validates their expectations about political reconciliation and 
about a more hopeful and democratic future. Thank you.
    The Chairman. Thank you very much, Mr. Schwartz.
    [The prepared statement of Mr. Schwartz follows:]

         Prepared Statement of Eric P. Schwartz, Senior Fellow,
                      Council on Foreign Relations

    Mr. Chairman and members of the Committee:
    I want to thank you for the opportunity to testify on the critical 
issue of post-conflict Iraq. I have looked at these questions rather 
closely in recent months, in my capacity as director of the Council on 
Foreign Relations Independent Task Force on Post-Conflict Iraq. That 
Task Force, which is chaired by Ambassador Thomas Pickering and Dr. 
James Schlesinger, will release its report tomorrow morning, and I'd be 
grateful if the Committee would agree to include the Executive Summary 
of that report in the written record of this hearing.
    Although much of my testimony is informed by the work of the Task 
Force, I'm here today in my personal capacity.
    In addition to my work at the Council, I was formerly a senior NSC 
aide during the Clinton administration, and had responsibilities for 
humanitarian assistance, United Nations issues, and the management of 
complex crises. I have some appreciation for the enormous challenge 
confronting the Bush administration. And while much of what I say may 
be somewhat critical in tone, I want to emphasize that there is a lot 
of good work being done by committed public servants to ensure that, if 
a war takes place, battlefield victory will not be lost in the post-
conflict environment.
    If the United States goes to war and removes the regime of Saddam 
Hussein, American interests will demand an extraordinary commitment of 
U.S. financial and personnel resources to post-conflict transitional 
assistance and reconstruction. These interests include securing the 
elimination of Iraqi weapons of mass destruction; ending Iraqi 
contacts, whether limited or extensive, with international terrorist 
organizations; ensuring that a post-transition Iraqi government can 
maintain the country's territorial integrity and independence while 
contributing to regional stability; and promoting an internal 
democratic process in which the people of Iraq have a meaningful voice 
in the policy decisions that impact their lives.
    Given the limited time, let me offer five key questions which I 
would encourage Committee members to raise with administration 
officials, and then briefly offer my own perspectives.

          1. What is the extent of our long-term political commitment 
        to Iraq? What are we prepared to spend, and when will the 
        administration describe this in detail to the American people?

    It is critically important that the president step up his efforts 
to explain to the American people the rationale for U.S. engagement in 
post-conflict Iraq, and it is also essential that he begin to describe 
the magnitude of the American post-conflict commitment. This is 
necessary if we are to sustain long-term support to Iraq even after 
senior officials have turned to other crises in years to come.
    So what are the costs? If you estimate a requirement of about 
75,000 peace stabilization troops--at a cost estimated by Congressional 
Budget Office (CBO) at $1.4 billion per month--and you add, say, a 
first-year U.S. contribution of humanitarian and economic assistance of 
about $3 billion, then you are at about $20 billion in year one. These 
estimates of requirements are, in fact, quite modest--other credible 
estimates are far higher. Moreover, the United States will need to be 
prepared to spend comparable amounts in future years.
    I should add that it is unrealistic to assume that Iraqi oil 
revenues will provide all of the resources necessary for rebuilding of 
Iraq, especially in the early post-conflict period. First, much of the 
revenue is already being used for humanitarian purposes under the Oil 
for Food Program, and additional reconstruction requirements will 
amount to tens of billions of dollars, at a minimum. Secondly, large 
oil capacity and production increases, which might generate much 
greater revenues, are many years away. Third, the bulk of U.S. post-
conflict expenses will be for U.S. peace stabilization troops, and it 
would be awkward at best to use oil revenues to pay those costs.

          2.What specific actions will the U.S. military take to 
        protect Iraqi civilians in the context and the aftermath of 
        conflict?

    U.S. officials must be certain that U.S. troops involved in combat 
operations will be in position to focus, in a systematic manner, on 
threats to civilians. In particular, from the outset of the conflict, 
the U.S. military should deploy forces with a mission to prevent 
reprisals and other acts of lawlessness, and to provide humanitarian 
aid. And U.S. military and civilian officials should maintain this 
public security focus throughout the transition.
    None of the other U.S. objectives in rebuilding Iraq will be 
realized in the absence of public security. If the United States fails 
to address this issue effectively, we will fuel the impression that the 
result of the U.S. intervention is an increase in humanitarian 
suffering by the people of Iraq.
    The U.S. military, in some cases in cooperation with coalition 
partners, should also assist civilian victims of weapons of mass 
destruction if exposure occurs; press neighboring governments to 
provide refuge within their borders for fleeing Iraqis; seek to ensure 
protection for internally displaced persons--especially if Turkey and 
other governments establish camps inside Iraq; sustain the basic 
structure of the UN Oil for Food Program; and actively recruit 
international civilian police (civpol) and constabulary forces to 
assist U.S. troops in public security--and in the training of Iraqis to 
take on responsibilities in this area.

          3. What action is the administration taking to ensure that 
        international organizations and other governments will 
        contribute meaningfully to the post-conflict transition effort?

    The administration needs others if it is to succeed in post-
conflict Iraq. This will not only lighten the load for the United 
States, but will also help diminish the mistaken perception that the 
U.S. seeks to control Iraq.
    There is much the administration can do to involve others in the 
initial stages and over time without sacrificing unity of effort in the 
post-conflict structure. While the law of occupation will provide the 
general authority for U.S. actions, we should also work toward UN 
Security Council resolutions that endorse post-conflict transition 
structures and enhance the likelihood of buy-in by others. And even if 
those resolutions endorse a U.S. lead, initially, in post-conflict 
security and interim civil administration, they should also promote the 
lead of the United Nations and other international organizations on 
issues such as humanitarian assistance, the political consultative 
process leading to a transition to Iraqi rule, the management of the UN 
Oil for Food Program, and international reconstruction efforts. In 
addition, a resolution could indicate that responsibilities in other 
areas should be furthered transferred to the United Nations and/or 
other governments as conditions permit.

          4. What actions are being taken to ensure the Iraqi character 
        of the political transition process?

    Post-conflict conditions would make an immediate transfer of 
sovereign authority to Iraqis extremely difficult and inadvisable. 
Nonetheless, the Bush Administration has strong interests in ensuring 
that Iraqis continue to play key roles in administration of public 
institutions, subject to adequate vetting. Continuity of basic services 
will be essential, and thousands of Iraqi civil servants will have to 
stay on their jobs. In addition, the administration should support a 
broadly representative political consultative process leading to a 
transition to Iraqi rule, and--to enhance legitimacy--endorse UN 
leadership in this effort. Finally, we must make sure that Iraqis play 
key roles in the rehabilitation efforts that U.S. and other 
reconstruction funding is likely to support.

          5. As a government, are we well organized to meet this 
        challenge?

    In late January, the president issued a National Security 
Presidential Directive placing responsibility for managing the post-
conflict rebuilding of Iraq within the Department of Defense. Defense 
Department planning efforts appear to complement or incorporate a range 
of other administration initiatives, including the State Department's 
``Future of Iraq Project.'' The key challenge will be to transform 
these activities into a coherent and unified effort and to ensure that 
policies formulated in Washington are accepted internationally and 
effectively implemented in Iraq.
    There are many questions that are worth raising with administration 
officials--not to slow them down, but to encourage them to resolve 
important organizational issues that are often deferred, or never 
addressed, within the bureaucracy. First, what role is the new Pentagon 
office playing in the policy formulation process, and how will it 
continue in this role after many of its personnel have been deployed to 
Iraq? If it is not a policy formulation body, in what forum will policy 
be developed below the level of principals and deputies? And if action 
is now centered at the Defense Department, how can our government take 
better advantage of the considerable expertise in managing the post-
conflict requirements that exists in other U.S. government agencies, 
including the State Department and U.S. Agency for International 
Development (USAID)?
    In conclusion, recent history has demonstrated that post-conflict 
peace-building can be exceptionally complex. In Iraq, where U.S. 
efforts will involve uncertainty, trial and error and uneven progress, 
U.S success will depend on our determination to sustain a long-term and 
substantial commitment of American resources and personnel, to ensure 
the active involvement of others in post-conflict reconstruction, and 
to promote participation by the people of Iraq in a process that 
validates their expectations about political reconciliation and a more 
hopeful and democratic future.
    Thank you.

                          Iraq: The Day After

Report of an Independent Task Force on Post-Conflict Iraq, sponsored by 
                    the Council on Foreign Relations

        Thomas R. Pickering and James R. Schlesinger, Co-Chairs

                           Executive Summary

    If the United States goes to war and removes the regime of Saddam 
Hussein, American interests will demand an extraordinary commitment of 
U.S. financial and personnel resources to post-conflict transitional 
assistance and reconstruction. These interests include eliminating 
Iraqi weapons of mass destruction (WMD); ending Iraqi contacts, whether 
limited or extensive, with international terrorist organizations; 
ensuring that a post-transition Iraqi government can maintain the 
country's territorial integrity and independence while contributing to 
regional stability; and offering the people of Iraq a future in which 
they have a meaningful voice in the vital decisions that impact their 
lives.
    But U.S. officials have yet to fully describe to Congress and the 
American people the magnitude of the resources that will be required to 
meet post-conflict needs. Nor have they outlined in detail their 
perspectives on the structure of post-conflict governance. The Task 
Force believes that these issues require immediate attention, and 
encourages the administration to take action in four key areas:
Key Recommendation #1: An American political commitment to the future 
        of Iraq
    The president should build on his recent statements in support of 
U.S. engagement in Iraq by making clear to Congress, the American 
people, and the people of Iraq that the United States will stay the 
course. He should announce a multibillion dollar, multiyear post-
conflict reconstruction program and seek formal congressional 
endorsement. By announcing such a program, the president would give 
Iraqis confidence that the United States is committed to contribute 
meaningfully to the development of Iraq and would enable U.S. 
government agencies to plan more effectively for long-term U.S. 
involvement.
    The scale of American resources that will be required could amount 
to some $20 billion per year for several years. This figure assumes a 
deployment of 75,000 troops for post-conflict peace stabilization (at 
about $16.8 billion annually), as well as funding for humanitarian and 
reconstruction assistance (as recommended immediately below). If the 
troop requirements are much larger than 75,000--a real possibility--the 
funding requirement would be much greater.
    For reconstruction and humanitarian assistance alone, the president 
should request from Congress $3 billion for a one-year period, and make 
clear that the United States will be prepared to make substantial 
additional contributions in the future. This initial contribution would 
include $2.5 billion for reconstruction and $500 million for 
humanitarian aid. (However, if there are significant interruptions in 
the availability of Iraqi oil revenues for the Oil for Food Program, 
the figure for humanitarian assistance would need to be considerably 
higher).
Key Recommendation #2: Protecting Iraqi civilians--a key to winning the 
        peace
    From the outset of conflict, the U.S. military should deploy forces 
with a mission to establish public security and provide humanitarian 
aid. This is distinct from the tasks generally assigned to combat 
troops, but it will be critical to preventing lawlessness and 
reassuring Iraqis who might otherwise flee their homes. As women and 
children will constitute the majority of refugees and internally 
displaced persons, special efforts should be made to ensure that they 
are protected from sexual assault and that their medical and health 
care needs are met. The Bush administration should sustain this public 
security focus throughout the transition. None of the other U.S. 
objectives in rebuilding Iraq would be realized in the absence of 
public security. If the administration fails to address this issue 
effectively, it would fuel the perception that the result of the U.S. 
intervention is an increase in humanitarian suffering.
            Additional recommendations--protecting Iraqi civilians
  <bullet> Assist civilian victims of any use of WMD. The U.S. and 
        coalition partners should be ready to conduct rapid assessment 
        of any WMD use, publicize the results of such assessments, 
        provide information to Iraqis on how to mitigate the impact of 
        WMD, and provide assistance to alleviate the health effects of 
        WMD exposure should it occur.

  <bullet> Seek to ensure protection for displaced persons and 
        refugees. Administration officials should press neighboring 
        governments to provide safe haven in their countries for 
        fleeing Iraqis. If the government of Turkey and other 
        governments are determined to establish camps within the 
        territory of Iraq, U.S. officials should seek to ensure that 
        such camps are safe and secure.

  <bullet> Sustain, for the time being, the basic structure of the Oil 
        for Food Program. U.S. officials should work closely and 
        intensively with the World Food Program (WFP) to ensure the 
        continuation of the distribution network that sustains the Oil 
        for Food Program. The program should be modified over time to 
        ensure transparency and effectiveness in meeting Iraqi needs.

  <bullet> Actively recruit international civilian police (civpol) and 
        constabulary forces. Constabulary units such as Italy's 
        Carabinieri have equipment, training, and organization that 
        enable them to maintain public order and address civil unrest. 
        In addition, international civilian police could play an 
        important role in vetting, training, and mentoring Iraqi 
        police.
Key Recommendation #3: Sharing the burden for post-conflict transition 
        and reconstruction
    The Bush administration should move quickly to involve 
international organizations and other governments in the post-conflict 
transition and reconstruction process. This move will lighten the load 
on U.S. military and civilian personnel, and help to diminish the 
impression that the United States seeks to control post-transition 
Iraq.
    The Bush administration will likely be reluctant, especially early 
in the transition process, to sacrifice unity of command. On the other 
hand, other governments may be hesitant to participate in activities in 
which they have little responsibility. The Task Force recommends that 
the administration address this dilemma by promoting post-conflict 
Security Council resolutions that endorse U.S. leadership on security 
and interim civil administration in post-conflict Iraq, but also 
envision meaningful international participation and the sharing of 
responsibility for decision-making in important areas. The resolutions 
could direct WFP or another international humanitarian organization to 
assume lead responsibility for humanitarian assistance (and involve 
NGOs and Iraqi civil society in aid management and delivery); indicate 
that the United Nations will take responsibility in organizing (with 
U.S. support and assistance) the political consultative process leading 
to a transition to a new Iraqi government; establish an oil oversight 
board for Iraq; authorize the continuation of the UN's Oil for Food 
Program; establish a consortium of donors in conjunction with the World 
Bank and the IMF to consider Iraqi reconstruction needs as well as debt 
relief; and indicate that responsibilities in other areas could be 
transferred to the United Nations and/or other governments as 
conditions permit.
Key recommendation #4: Making Iraqis stake holders throughout the 
        transition process
    The administration should ensure that Iraqis continue to play key 
roles in the administration of public institutions, subject to adequate 
vetting. Continuity of basic services will be essential and will 
require that thousands of Iraqi civil servants continue to do their 
jobs. In addition, every effort should be made quickly to establish 
Iraqi consultative mechanisms on political, constitutional, and legal 
issues, so that the period of interim governance will be limited and 
characterized by growing Iraqi responsibility on the political as well 
as administrative levels.
            Additional recommendation--making Iraqis stakeholders:
  <bullet> Encourage a geographically based, federal system of 
        government in Iraq. In northern Iraq, the Kurdish population 
        has operated outside of regime control for over a decade. While 
        decisions on Iraq's constitutional structure should be made by 
        Iraqis, the Task Force believes that a solution short of a 
        federal system will risk conflict in a future Iraq, and that 
        U.S. officials should adopt this perspective in their 
        discussions with Iraqi counterparts and with Iraq's neighbors.
               other issues of concern to the task force
    The rule of law and accountability: Police training must be 
supplemented by efforts to build other components of a system of 
justice, especially courts. The Task Force thus makes the following 
recommendations:

  <bullet> Deploy legal and judicial teams, seek international 
        involvement. The administration should promote the post-
        conflict deployment of U.S. and international legal and 
        judicial assistance teams to help address immediate and longer 
        term post-conflict justice issues.

  <bullet> Act early on accountability, seek international involvement 
        in the process, and ensure a key role for Iraqis. Given the 
        enormity of human rights abuses by the regime, the Task Force 
        believes that accountability issues should be an early priority 
        for the transitional administration. International involvement 
        in the process, either through the creation of an international 
        ad hoc tribunal, or the development of a mixed tribunal, will 
        enhance the prospects for success. The Task Force notes that a 
        truth and reconciliation process could be established 
        concurrently with such a tribunal, as a complement to criminal 
        accountability for those who bear greatest responsibility for 
        abuses.

    The Iraqi oil industry: U.S. officials will have to develop a 
posture on a range of questions relating to control of the oil 
industry, such as how decisions on contracts for equipment and oil 
field rehabilitation will be made; who will consider and make judgments 
on the viability of executory contracts for development of oil fields 
(at least some of which have as a condition precedent the lifting of 
sanctions); and what will be required for transition from the Oil for 
Food Program to a transparent and accountable indigenous system to 
receive and disburse oil-related revenues?
    The Task Force recommends that the administration strike a careful 
balance between the need to ensure that oil revenues benefit the people 
of Iraq and the importance of respecting the right of Iraqis to make 
decisions about their country's natural resources. In particular, the 
administration should undertake the following steps:

  <bullet> Emphasize publicly that the United States will respect and 
        defend Iraqi ownership of the country's economic resources, 
        especially oil; seek an internationally sanctioned legal 
        framework to assure a reliable flow of Iraqi oil and to reserve 
        to a future Iraqi government the determination of Iraq's 
        general oil policy. The removal of the regime will not alter 
        Iraqi obligations under the existing, UN-managed, legal 
        framework for oil, but it will likely result in the need for 
        modifications. The Task Force believes that a new framework, 
        which could be affirmed by a Security Council resolution, could 
        establish a decision-making oversight board with international 
        and substantial Iraqi participation.

  <bullet> Address potential impact of regime change on Jordanian oil 
        imports from Iraq. The Iraqi regime has provided the government 
        of Jordan with free and heavily discounted oil. It is unclear 
        whether such arrangements would continue in the post-conflict 
        environment. In view of Jordan's economic situation and its 
        important role on regional and international security issues, 
        the administration should make efforts to address Jordanian 
        needs in this area.

    Regional diplomatic and security issues: In the Gulf, U.S. 
officials will confront the challenge of effectively downsizing the 
Iraq military while seeking to promote a longer-term security balance 
in which Iraq's territorial integrity can be maintained. In the Middle 
East, a successful U.S. and coalition intervention in Iraq will raise 
expectations about a new U.S. diplomatic initiative on the Arab-Israeli 
dispute. On these issues, the Task Force makes the following 
recommendations:

  <bullet> Closely monitor professionalization and restructuring of the 
        Iraqi military, including disarmament, demobilization, and 
        reintegration (DDR). These tasks are likely to be carried out 
        in large measure by private contractors and/or international 
        development organizations, and will require close supervision 
        of what might otherwise be an uncoordinated effort. In 
        addition, the Bush administration should promote programs in 
        this area that emphasize civilian control of the military and 
        respect for human rights.

  <bullet> Consider a regional forum for discussion of security issues. 
        The administration should strongly consider encouraging a 
        security forum with states in the region. The forum could 
        address confidence-building measures, and related issues such 
        as external security guarantees and nonproliferation.

  <bullet> Initiate post-conflict action on the Middle East Peace 
        Process. The Task Force encourages the administration to give 
        high priority to an active, post-conflict effort to engage in 
        the peace process, and also believes that any such action by 
        the administration must be accompanied by greater efforts by 
        Arab states and the Palestinian leadership to discourage and 
        condemn acts of terrorism and violence against Israelis and 
        elsewhere in the region.

    The Chairman. Let me simply mention that the full 
statements of all the witnesses will be made a part of the 
record, and you may summarize as you wish. Dr. Adams.

STATEMENT OF DR. GORDON ADAMS, DIRECTOR OF THE SECURITY POLICY 
 STUDIES PROGRAM, ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, THE 
          GEORGE WASHINGTON UNIVERSITY, WASHINGTON, DC

    Dr. Adams. Thank you very much, Mr. Chairman, members of 
the committee. I am very grateful to you all for your kind 
invitation to come and talk on this subject of what is clearly 
of compelling and immediate importance.
    The United States is near a state of war with Iraq. 
Clearly, very little stands in the way of a military campaign, 
and the outcome of that campaign is relatively predictable, 
though its duration and consequences are somewhat more 
difficult to judge.
    As we approach that combat, I believe it is critical to 
begin discussing and planning for the consequences of that war, 
including the costs of a long-term U.S. presence in and 
assistance to Iraq.
    The administration has argued that discussions of post-war 
policies and their costs are speculative, which is certainly 
true to a degree, and that they have no bearing on the decision 
to go to war, which is and should be based on security 
considerations alone.
    I believe we should not go to war without a serious 
discussions of its consequences, however, and of the long-term 
commitments that we may be making overseas and their costs to 
the American people.
    The test of the success of our policy in Iraq depends on 
the post-war outcome, as much as it does on the outcome of 
combat itself. Will Iraq, as a result of war and regime change, 
be truly disarmed, dramatically different in a way that 
increases stability in the region, reduces the risk of 
terrorist attack, and provides greater security for the 
American people?
    We could well win the war and lose the peace, if we do not 
tend now to post-war Iraq policy. Winning the peace, however, I 
believe, will require a significant long-term U.S. investment 
in Iraq, and that investment is worthy of discussion in 
advance. That is why I commend you very much for holding this 
hearing, Mr. Chairman, and for holding it in advance of a final 
decision to go to war.
    Let me summarize very briefly--there is a longer statement. 
I appreciate it will be put in the record, Mr. Chairman. Let me 
just make some key points and allow you to give it some thought 
and pose questions.
    The first point is a successful war in Iraq will leave the 
United States with primary responsibility, primary 
responsibility for humanitarian relief, internal security, the 
restoration of governance, and any steps toward democracy and 
economic reconstruction in Iraq.
    Second, we are likely to shoulder even more of this 
responsibility in the absence of a U.N. resolution supporting 
the use of force if Saddam Hussein fails to comply fully with 
Resolution 1441. In my judgment, our isolation may be further 
enhanced by a course of diplomacy and policymaking over the 
past 4 months that appears to have alienated a substantial 
number of friends and allies.
    Let me come to my challenge, which is estimating the costs 
of what we may do in Iraq after a war is complete. Obviously, 
estimating those costs is a great challenge. I wish I could sit 
here and analyze for you the adequacy or inadequacy of 
proposals being made by the administration, which I know they 
are hard at work planning; but we do not have those numbers, 
and so I cannot make that judgment.
    Instead, in evaluating the potential costs for a post-war 
Iraq occupation and reconstruction, I am relying on a number of 
outside estimates, including the Congressional Budget Office, 
the American Association for the Advancement of Science, the 
Center for Strategic and International Studies, and the back of 
my own peculiar envelope, which is the result of having spent 5 
years as a ``green eyeshade guy'' at the Office of Management 
and Budget, where I had much opportunity to work, in fact, with 
Eric Schwartz on policies that the previous administration 
pursued of this nature.
    For the most part, there are not hard numbers. We do not 
have them here today but that does not mean estimates are not 
useful. They bound the problem of cost, and they provide a 
sense of the scale of potential need, and the costs of this 
policy may have a bearing on policy choices that the Congress 
has to make in other areas of Federal policy.
    The United States is likely to provide the bulk of the 
occupying force, and that is the first cost center I mention in 
my testimony, after the war is over. It is an important 
statement, because although the costs of an occupying force are 
not the oversight jurisdiction of this committee, it is clear 
that the Defense Department, as Mr. Schwartz has indicated, is 
assuming a major lead responsibility for post-war Iraq 
activities; a responsibility that goes well beyond the rules of 
engagement in previous conflicts such as the Balkans.
    But with the lead there, knowing something about the costs 
of that occupying force is important, and my judgment is that, 
that occupying force, which will be important to the further 
activities that I am going to discuss, could cost between $12 
and $14 billion in the first year alone.
    Second, humanitarian aid requirements are likely to be 
significant and immediate as already testified. In part because 
of a legacy of impoverishment under Saddam Hussein, in part due 
to damages combat itself may cause to the electrical power, 
communications, water, transportation infrastructure, oil 
production and distribution facilities, food and medicine 
distribution, housing and sanitation systems, and the 
population itself. Humanitarian assistance requirements could 
range between $1 and $10 billion, with as much as $3.5 billion 
of that being required in the first year alone.
    Third, governance. Governing Iraq will pose an immediate 
challenge, especially the need to establish authoritative 
internal and border security as already mentioned, adequate 
policing, successful location and elimination of weapons of 
mass destruction, no small task as we know, and a working 
system of justice. Over time, this governance challenge will be 
demanding, especially if we try to create or intend to create a 
democracy in Iraq. That is, in my judgment, a nation-building 
task par excellence. The governance challenges could cost as 
much as $12 billion over 5 years, with substantial funding, 
maybe as much as $5 billion being needed up front, principally 
to pay for salaries for civil servants that we want to have 
stay in place in order to run an effective government.
    Fourth, economic reconstruction, which poses another large 
challenge. Depending on war damage, there could be substantial 
infrastructure to repair, including oil field and pipeline 
damage. Over the past two decades, the Iraqi economy has sunk 
into virtual nonproductivity outside of oil production. And an 
assistance program will be needed to create new productive 
opportunities. The costs of reconstruction are very, very wide-
ranging with respect to estimates, from as small as $25 to $30 
billion on one end, to a Marshall Plan-type exercise of $100 
billion, all of that between 5 and 10 years in duration.
    Fifth, it is worth noting that Iraqi debt is substantial, 
approximately $62 billion, with claims of $172 billion against 
the Iraqis, potential reparations and contract costs, all of 
which will pose a substantial burden on the Iraqi state budget 
after a war.
    These claims and commitments will need to be either 
renegotiated or paid to some degree in order to free up 
resources for internal needs.
    Next, Iraqi oil revenues. Mr. Schwartz has already 
testified that these are unlikely to be available to cover all 
of these costs. They are probably committed several times over 
already.
    First, production has to be restored. Second, the industry 
will need to use its income to modernize an aging and degraded 
production and export infrastructure and to upgrade the 
country's electricity grid.
    The exploitation of substantial potential and probable 
reserves will require substantial additional investments, and 
those reserves will not be online for several years to come.
    Should Iraq decide to be constrained by OPEC export quotas, 
income will be constrained. Should they leave export--the OPEC 
export quota regime, significant price declines will affect 
their revenues as well.
    The macroeconomic impact, to move to my next point, of a 
war in Iraq depends on duration, its duration. And I am talking 
about the macroeconomic impact here is a cost we need to 
consider, particularly if the war has the effect of causing a 
long-term price spike for oil. A long-term spike could lead to 
major consequences for the U.S. GDP.
    On the other hand, a short-term spike followed by declining 
oil prices is unlikely to have lasting consequences. And a 
lower oil price could have positive consequences.
    The next point, the United States will also incur costs in 
the current timeframe for commitments it makes to allies for 
the war effort. We do not know what those are. We have heard 
only vague details, but allied commitments by the U.S. 
Government could go as high as $10 to $15 billion, depending on 
the outcome of current negotiations.
    Finally, the costs of not going to war. It is worth noting 
that, arguably, not going to war could lead to costs 
maintaining a military presence in the region, continuing the 
regime of inspections and weapons destruction, accelerated 
funding to combat terrorism abroad, and a high level of 
expenditure for homeland security. It is worth having those on 
the table.
    And my final point, Mr. Chairman, which is that as we face 
what could be a significant bill over the coming years, not 
just for this year but in the years to come, this whole issue 
needs to be set in the framework of longer term budgetary and 
fiscal policy for the U.S. Government.
    I personally would have to wonder whether a tax cut is an 
appropriate enactment at this point, if we are going to incur 
costs not currently in the President's budget, but which will 
substantially reduce currently projected deficits. Thank you 
very much.
    The Chairman. Thank you, Dr. Adams.
    [The prepared statement of Dr. Adams follows:]

 Prepared Statement of Dr. Gordon Adams, Professor of the Practice of 
   International Affairs, Director, Security Policy Studies Program, 
    Elliott School of International Affairs, The George Washington 
                               University

                        INTRODUCTION AND SUMMARY

    I want to thank the Committee for its kind invitation to testify 
today on this subject of such compelling and immediate importance.
    The United States is near a state of war with Iraq. Very little now 
stands in the way of starting a military campaign. The outcome of this 
campaign is relatively predictable, though its duration and 
consequences are not. As we approach war, it is critical to begin 
discussing and planning for the consequences of that war, including the 
costs of a potentially long-term U.S. presence in and assistance to 
Iraq. The administration has argued that discussions of post-war Iraq 
policies and their costs are speculative and have no bearing on the 
decision to go to war, which is and should be based on security 
considerations alone.
    I am not going to discuss the wisdom of the decision to go to war. 
However, I believe we should not go to war without a serious discussion 
of its potential consequences for longer-term American commitments 
overseas and the costs of those commitments to the American people. The 
test of our policy in Iraq depends on the post-war outcome, as much as 
it does on the outcome of combat, itself. Will Iraq, as a result of war 
and regime change, be truly disarmed and dramatically different in a 
way that increases stability in the region, reduces the risks of 
terrorist attack, and provides greater security for the American 
people.
    We could well win the war and lose the peace, if we do not tend now 
to post-war Iraq policy. Winning the peace, however, will require a 
significant, long-term U.S. investment in Iraq, an investment that 
needs to be discussed in advance. I do not believe we have discussed 
the implications of this commitment adequately. That is why I commend 
the committee and its members, Mr. Chairman, for holding a hearing such 
as this in advance of a final administration decision to go to war.
    Let me summarize in brief the points I wish to make, and then 
elaborate.

  <bullet> A successful war in Iraq will leave the United States with 
        primary responsibility for humanitarian relief, internal 
        security, the restoration of governance and any steps toward 
        democracy, and economic reconstruction in Iraq.

  <bullet> We are likely to shoulder even more of this responsibility 
        in the absence of a United Nations resolution supporting the 
        use of force if Saddam Hussein fails to comply fully with 
        Resolution 1441. Our isolation may be further enhanced by a 
        course of diplomacy and policy-making over the past four months 
        that has alienated a substantial number of friends and allies.

  <bullet> Estimating the costs of this responsibility is a challenge. 
        For the most part there are not hard numbers, nor has the 
        administration offered any details of its intended policies and 
        budgets. Nonetheless, estimates are useful. They bound the 
        problem of cost and provide some sense of the scale of 
        potential need. Moreover, the costs of this policy may have 
        bearing on policy choices we make in other areas of federal 
        policy.

  <bullet> The United States is likely to provide the bulk of the 
        occupying force after the war. Others may be disinclined to do 
        so, unwelcome in the region, or simply have inadequate 
        personnel, properly trained, to carry out this mission. That 
        occupation could cost $12-48 b. in the first year, alone.

  <bullet> Humanitarian aid requirements are likely to be significant 
        and immediate, in part because of a legacy of impoverishment 
        under Saddam Hussein, and in part due to damages combat itself 
        may cause to the electrical power, communications, water and 
        transportation infrastructure, oil production and distribution 
        facilities, food and medicine distribution, housing and 
        sanitation systems, and to the population itself as a result of 
        traumatic injury and the creation of refugees. Humanitarian 
        assistance requirements could cost from $1-10 b., with as much 
        as $3.5 b. being needed in the first year, alone.

  <bullet> Governing Iraq will pose an immediate challenge, especially 
        the need to establish authoritative internal and border 
        security, adequate policing, successful location and 
        elimination of weapons of mass destruction, and a working 
        system of justice. Over time, the governance challenge will be 
        demanding, especially if we intend to try to create democracy 
        in Iraq, a ``nation-building'' task par excellence. The 
        governance challenges could cost as much as $12 b. over five 
        years, with substantial funding (perhaps $5 b.) needed up front 
        to pay salaries for civil servants we will want to stay in 
        place.

  <bullet> Economic reconstruction poses another large challenge. 
        Depending on war damage, there could be substantial 
        infrastructure to repair, including oil field and pipeline 
        damage. Over the past two decades, the Iraqi economy has sunk 
        into virtual non-productivity outside of oil production. An 
        assistance program will be needed to create new productive 
        opportunities. The costs of reconstruction include a wide range 
        of estimates, from $30 b. to more than $100 b. over the next 
        five to ten years.

  <bullet> Iraqi debt of at least $62 b., claims of $172 b., potential 
        reparations, and contract costs will pose a heavy burden on a 
        post-war Iraqi budget. These claims and commitments will either 
        need to be renegotiated or paid to some degree, to free 
        resources for internal needs.

  <bullet> Iraqi oil revenues are unlikely to be available to cover all 
        these costs. First, production will have to be restored. 
        Second, the oil industry itself will need to use its income to 
        modernize an aging and degraded production and export 
        infrastructure and to upgrade the country's electricity grid. 
        Exploitation of Iraq's substantial potential and probably 
        reserves will require substantial additional investment and 
        will not be on line for several years, at least. Iraqi oil 
        income is likely to be constrained either by OPEC export quotas 
        or by significant price declines, should Iraq leave OPEC.

  <bullet> The macroeconomic impact of a war in Iraq depends on its 
        duration, especially if it has the effect of causing a long-
        term price spike for oil. The costs to the economy of a major, 
        sustained increase in the price of oil could be significant. On 
        the other hand, a short-term spike would not have lasting 
        consequences and a decline in the price of oil, long-term could 
        have positive consequences.

  <bullet> The United States will also incur costs in the current time 
        frame for commitments it makes to allies in the war effort and, 
        downstream, for commitments we are likely to have to make to 
        wider regional programs for democratization or steps toward 
        peace in Israel. Allied commitments might go as high as $15 b., 
        depending on the outcome of current negotiations. The costs of 
        future commitments are unknown, but probably inevitable.

  <bullet> The costs of not going to war also deserve discussion. 
        Arguably, these could include the costs of maintaining a 
        military presence in the region, of continuing inspections and 
        weapons destruction, of accelerated funding to combat terrorism 
        abroad, and high level of expenditure for homeland security.

  <bullet> One must question the wisdom of a fiscal policy that is 
        likely to face combat and post-war expenditures of this 
        magnitude, while submitting a budget that anticipates none of 
        them, but would aggregate $1.8 b. of deficit between now and 
        2013, according to the Congressional Budget Office. Health care 
        policy decisions and tax policy decisions need to reflect this 
        broader fiscal reality.

                        THE CONSEQUENCES OF WAR

    In my view, a successful war to remove Saddam Hussein and disarm 
Iraq will lead to our inheriting Iraq as a virtual ward, a nation for 
whose internal well being, security, reconstruction, and economic 
recovery the United States will assume primary responsibility. I am not 
an expert on Iraq. However, even a well-informed amateur can detect the 
following inheritance after a war:

  <bullet> A nation, which has long suffered under repressive 
        governance by an ethnic minority, leaving substantial ethnic 
        divisions in the wake of the removal of that government and the 
        risks of some trouble with its neighbors. It will not be an 
        easy task to reassemble the pieces of governance and the risks 
        of postwar inter-ethnic conflict are real.

  <bullet> A people who have suffered humanitarian degradation over the 
        past two decades, leaving a substantial legacy of food, health 
        and temporary housing needs. These needs have to be addressed 
        immediately after the war, including the extent to which they 
        have been aggravated by that war.

  <bullet> An economy devastated by war, inattention and lack of 
        productive investment for two decades and saddled with debts, 
        claims, and reparation demands. This is especially true with 
        regard to oil production, which, despite substantial proven and 
        probably reserves, has declined significantly. The Iraqi 
        economy will require substantial economic assistance to 
        rebuild, recover and grow.

  <bullet> Some signs of hope: the oil and gas assets, properly 
        exploited and distributed, can bring long-term benefit to the 
        Iraqi people; a populace that is educated and capable; a long 
        historical and cultural tradition of which they are rightly 
        proud; and for all of its problems, a state apparatus that can 
        function on a central basis.

  <bullet> An uneasy relationship to the fact of occupation and to the 
        occupying power. It is far from clear that the Iraqi populace 
        will welcome the United States as a liberator, even though 
        Saddam Hussein will be gone. The history of outside occupations 
        in the Middle East and Gulf region is not a happy one, as the 
        British and French have experienced. Significant cultural 
        differences and suspicion are likely to separate the populace 
        from the occupying force.\1\
---------------------------------------------------------------------------
    \1\ Regional analyst Anthony Cordesman has noted how different this 
scenario may be from Europe, given this history of colonial occupation, 
cultural clashes, and the damage caused by the war itself, among other 
things. Cordesman, ``Planning for a Self-Inflicted Would: US Policy to 
Reshape a Post-Saddam Iraq,'' rough draft, revision three, Washington, 
DC: Center for Strategic and International Studies, December 31, 2002, 
p.2.
---------------------------------------------------------------------------
    We have faced such problems before, in Europe after the Second 
World War, in Korea, in the Balkans and, today, in Afghanistan. Their 
magnitude in Iraq may be great, however, and their character will 
certainly be different. Iraq is not Western Europe, making the Marshall 
Plan a misleading template for designing programs or estimating costs. 
There is no lengthy history here of democracy, free movement of 
capital, a strong and organized industrial labor force or a long 
history of positive relations and ethnic ties with the United States. 
Nor is Iraq the Balkans where the war, while devastating, left 
substantial parts of these countries untouched, including many parts 
that had a strong tradition of industrial development. Nor, on the 
other hand, is Iraq the same as Afghanistan, which had virtually no 
central government or bureaucracy, and has precious few economic 
assets.\2\
---------------------------------------------------------------------------
    \2\ The Center for Strategic and International Studies points out 
that Iraq ``is far from a failed state.'' It has a functioning 
government and bureaucracy and little tradition of religious 
fundamentalism, despite pronounced ethnic divisions. Center for 
Strategic and International Studies, A Wiser Peace: An Action Strategy 
for a Post-Conflict Iraq, Frederick D. Barton and Bathsheba N. Crocker, 
Project Directors, Washington, DC: CSIS, January 2003, p.10.
---------------------------------------------------------------------------
    The goal of post-conflict U.S. policy in Iraq should be tailored to 
the conditions of the country and the region, not imposed from some 
external template used in other countries or regions. Policy should aim 
at assisting the emergence of a viable state, capable of governing 
internally, disarmed of its weapons of mass destruction, and prepared 
to behave in a peaceful and responsible way toward its neighbors and 
other countries in the world. As one experienced participant in post-
conflict reconstruction efforts put it: Iraq ``must be neither a basket 
case nor a bully'' once the conflict has ended and the recovery and 
reconstruction task has been underway for a time.\3\
---------------------------------------------------------------------------
    \3\ Scott R. Feil, ``Iraq: looking Beyond Saddam's Rule: Setting 
the Conditions for Stability: the Military Role,'' paper for the INSS/
NPS Workshop, 21-22 November 2002.
---------------------------------------------------------------------------
    I want to make one other important point. The task is a large one 
and the United States cannot carry it out alone. War, itself, may not 
require substantial participation by other nations and may even be 
affordable, though we will not have the benefit of the substantial war 
subsidies we received in the first Gulf War. Succeeding at establishing 
the peace will require substantial participation by other countries, 
international institutions and non-governmental organizations.
    While I do expect we will receive some cooperation in the post-war 
effort in Iraq, the administration's policy process of the past few 
months could pose a serious problem in this regard.
    While the outcome of a Security Council vote on an new resolution 
is not yet known, there is substantial evidence that our diplomacy and 
pressure, statements made by leading officials about other nations, and 
the clear message that the administration will proceed to war without 
Security Council support have all left a legacy of ill-will and 
mistrust among our friends and allies. Combine the manifestly less 
coalition-oriented nature of the pending military campaign with the 
apparent bitterness among friends and allies, and one has to wonder 
about the willingness of these same friends and allies to help us with 
governance and reconstruction, once the war is over. The United States 
could find itself carrying a substantial share of the post-war burden, 
in addition to the costs of the war itself.

                       THE TASKS TO BE UNDERTAKEN

    With these statements as backdrop, let me turn to the post-war 
policies and costs, at least to set a range for the tasks and costs we 
may face very soon.
    There has already been much discussion of the military campaign and 
the potential costs of that campaign. It is not my task to discuss the 
war plans or the range of cost estimates involved. Even these are 
somewhat hard to estimate, given the uncertainties we face with respect 
to force size, the duration of the war, anticipated casualties and the 
conditions in which the war will be fought (urban warfare, serious 
Iraqi resistance, use of chemical or biological weapons).\4\ The 
algorithms for estimating military costs are, however, reasonable well 
known. We have deployed forces, conducted combat and withdrawn forces 
many times, including one major recent experience in this theatre. Even 
here, we need to keep in mind that the costs of nearly every war have 
been misestimated (generally too low), as has the pace and outcome of 
the conflict itself.
---------------------------------------------------------------------------
    \4\ CBO, in its recent review of the President's budget, has 
increased its estimated costs of deployment, combat and redeployment 
from its initial estimates made in September 2002. Deployment costs are 
now estimated at $14 b., combat at $10 b. for the first month at $10 b. 
and each subsequent month at $8 b, with redeployment costs at $9 b. A 
two-month war, including deployment and redeployment costs would cost a 
total of $41 b., using these estimates. A separate analysis, using 
earlier CBO data, suggested that a force of 250,000 involved in a two-
month war could cost $35 b. Steve Kosiak, ``Potential Cost of A War 
with Iraq and Its Post-War Occupation,' Center for Strategic and 
Budgetary Assessments, February 25, 2003. The administration is rumored 
to be considering a supplemental request of over $60 b., which may 
include even higher estimated costs for comparable combat.
---------------------------------------------------------------------------
    In the end, one important consequence of combat operations for 
post-war Iraqi occupation tasks and costs will be the extent of the 
damage that the war leaves behind, in terms of civilian casualties, 
destroyed cities and residences, damaged infrastructure, and oil field 
destruction. War is neither pretty nor antiseptic; it is likely to 
leave the occupiers with a major human and economic reconstruction 
task.
    My focus is on the legacy of war and of two decades of 
authoritarian rule. Administration spokespersons have spoken hopefully 
of the goal of establishing a democratic, peaceful, disarmed Iraq, 
unified and living in peace with its neighbors, almost as a 
``demonstration project'' for the region and a deterrent to those who 
would wish the U.S. and its allies harm. Hope springs eternal in some 
American breasts, but the struggles and time it has taken to achieve 
political stability, democracy, and economic growth in the Balkans over 
the past ten years should temper our optimism. The same harsh reality 
is being learned day-by-day in Afghanistan, where security is 
uncertain, central government a phantom, and economic recovery almost 
non-existent. Count me among those who do not believe that Americans 
with the best of intentions and a fair bundle of cash can accomplish 
anything, especially bringing countries with a long history of living 
otherwise, swiftly into democracy and free markets. The tasks I 
describe below are likely to take a very long time and may well fail, 
given the problems in the surrounding social, economic and political 
environment.
    The potential costs the United States might incur in carrying out 
these tasks are manifestly difficult to estimate. The Congressional 
Budget Office has foregone making such estimates, ``even roughly, 
because they depend on highly uncertain decisions about future 
policies.'' Therefore, it describes such estimates as ``quite 
speculative.'' \5\ You have invited me today to tread into that zone of 
uncertain speculation, which I do with some trepidation. For the most 
part there are no publicly available hard numbers for these tasks. 
Nevertheless, even wide ranges of estimates are useful. They bound the 
problem of cost, provide some sense of the scale of potential need, and 
may have implications for other areas of federal policy demanding 
budgetary resources.
---------------------------------------------------------------------------
    \5\ Congressional Budget Office, ``An Analysis of the President's 
Budgetary Proposals for Fiscal Year 2004,'' p. 4.
---------------------------------------------------------------------------
    In defense of the ranges I will offer, let me only say that the 
administration is going through the same guess work, as we speak, in 
the process of preparing a supplemental request to fund the FY 2003 
costs of an Iraqi war, occupation and reconstruction. The 
administration has noticeably better resources for making such 
estimates than most of us in the private sector. They need to do this 
work, but it is unfortunate that it is being done without significant 
public comment or discussion, beyond what might have been said this 
morning.
    With that caveat, let me describe the central tasks we will face 
and provide at least a range of potential estimates for their cost.

                      PROVIDING AN OCCUPYING FORCE

    Unlike the Balkans, where the Europeans rather quickly provided 
roughly 80% of the peacekeeping forces, the United States is likely to 
provide the bulk of the force occupying Iraq. This is for three 
reasons. First, other countries, both in the region and outside it, 
that have been unwilling to support the U.S. military effort are likely 
to shy away from the task of dealing with the consequences of the war. 
The pool of participating nations may shrink, especially among the 
substantial European land forces. Second, the history of European 
colonialism in the region is likely to lead to some reluctance on the 
part of countries that have participated in Balkans peacekeeping to 
play an occupier role in Iraq. Third, few other countries today have a 
military as large as ours or as trained to the occupation mission. Over 
time, an occupying force must be rotated, meaning the base force at 
home needs to have a pool of at least twice and probably three times 
the size of the force deployed forward. The British are severely 
stretched today by the forces they have already deployed in the region. 
Were France and Germany to participate, their forces would be stretched 
as well and unlikely to compete in numbers with the United States.
    In other words, despite the views put forward by some that U.S. 
forces can be quickly in and out of Iraq, this is unlikely. The 
occupying force, moreover, is likely to have quite broad rules of 
engagement. Over time, the American military has learned that 
restricting its role in peacekeeping to occasional patrols, separating 
large hostile forces and negotiating disagreements is just not viable. 
In Iraq, such restrictions on the ROI are virtually ruled out. Their 
mission is occupation, with broad responsibility for internal security, 
inter-ethnic peace, oil field security, leadership protection, special 
operations against remaining hostiles and terrorists, governance and 
control of the Iraqi military, distribution of humanitarian assistance, 
and, above all, scouring Iraq for and destroying weapons of mass 
destruction. Even this may be too limited a view of their likely 
mandate.
    What is an occupation likely to cost? While these costs do not have 
direct implications for the jurisdiction of this committee, I cite 
estimates here because they are of consequence to the American taxpayer 
and the mission of occupation is intimately knitted into the fabric of 
post-conflict Iraq policy. Hence, if the U.S. is to bear these costs, 
they are part of the realistic discussion we must have on the policy. 
According to the Congressional Budget Office, an occupation force 
ranging from 75,000 to 200,000 would cost between $1 b. and $4 b. a 
month to sustain. The annual costs could be $12-$48 b. over the first 
year, depending on force size.\6\
---------------------------------------------------------------------------
    \6\ CBO, ``Estimated Cost of a Potential Conflict with Iraq,'' 
Letter from Dan L. Crippen to the House and Senate Budget Committees, 
September 30, 2003, p.7. These estimates were not changed in the more 
recent CBO update [note later]. CBO notes that these forces would have 
to be rotated as well, which would be unsustainable for the U.S. Army 
at the level of 200,000 troops in the occupation.
---------------------------------------------------------------------------
    The CBO estimates are based on the average cost of maintaining an 
Army peacekeeping in Bosnia and Kosovo. They need to be considered a 
low-end estimate, however, since the conditions of occupation, rather 
than peacekeeping, in Iraq are likely to be significantly more 
stressful and the tasks more demanding than they were in the 
Balkans.\7\
---------------------------------------------------------------------------
    \7\ William Nordhaus estimates substantially higher costs, ranging 
from $75 b. for a five-year occupying force of 75,000 to $500 b. for a 
ten year occupying force of 200,000 over ten years. It seems unlikely, 
however, that the US would retain a force that size over a period that 
long; forces are more likely to decline along a slope toward zero, 
probably over a shorter period of time. In any case, the 200,000 figure 
is unsustainable over that period. See Gordon Adams and Steve Kosiak, 
``the Price We Pay,'' New York Times, February 15, 2003, p. A31 and 
Kosiak, above, February 25, 2003.
---------------------------------------------------------------------------

                        HUMANITARIAN ASSISTANCE

    The Committee will hear other testimony with respect to the 
humanitarian assistance needs of post-war Iraq. These are likely to be 
significant. Two decades of Saddam Hussein's rule have impoverished the 
country to a level well below its former standard of living, including 
higher rates of disease and hunger. In particular, unlike the pre-Gulf 
War I period, a significant proportion of the Iraqi population now 
relies on the government for food and basic necessities.\8\
---------------------------------------------------------------------------
    \8\ According to a UN task force, this proportion could reach as 
high as 60% of the population. See ``Likely Humanitarian Scenarios,'' 
United Nations task force report, December 10, 2002, p.3. Available at 
http://www.casi.org.uk/info/undocs/war021210.pdf
---------------------------------------------------------------------------
    Moreover, the sanctions over the past decade have clearly been 
painful. For all the distribution of food and medical goods that have 
resulted from the Oil for Food Program, this has not reversed the 
decline in the Iraqi standard of living. Moreover, some part of the 
funds generated by oil sales have been diverted to supporting the 
ruling clique's standard of living.
    Finally, the war itself will have potentially devastating 
consequences across the board. It could result in damage or destruction 
of much of the electrical power, communications potable water 
distribution, and transportation infrastructure, a halt to oil 
production and sales, limits on the distribution of food and medicines, 
the destruction of housing and sanitation systems, traumatic injury and 
illness, and the creation of a sizeable refugee populations.\9\
---------------------------------------------------------------------------
    \9\ Same, p.2.
---------------------------------------------------------------------------
    The administration is already visibly planning for the distribution 
of emergency supplies, food and temporary housing, as the combat moves 
along and once the war is over.
    The costs of humanitarian assistance will be mostly borne in the 
early stages of the operation, as they were in Europe after the War and 
in the Balkans. Assuming a cost of $500 per person as in the Balkans, 
and one to two million Iraqis affected for two to four years, Prof. 
William Nordhaus estimates that the costs of humanitarian assistance 
could range from $1 to $10 b.\10\ On the other hand, a United Nations 
task force estimated in December 2002, that the ``caseload'' for 
humanitarian assistance could reach 7.5 million Iraqis, largely as a 
consequence of combat operations in a war.\11\ The first year costs for 
such a caseload could be in the range of $3.5 b.
---------------------------------------------------------------------------
    \10\ William D. Nordhaus, ``The Economic Consequences of a War With 
Iraq,'' in Carl Kaysen, Steven E. Miller, Martin B. MaIm, William D. 
Nordhaus and John D. Steinbruner, War With Iraq: Costs Consequences, 
and Alternatives, American Academy of Arts and Sciences, Committee on 
International Security Studies, Cambridge, MA, 2002, p.67.
    \11\ ``Likely Humanitarian Scenarios,'' above, p. 4.
---------------------------------------------------------------------------
    The up front character of humanitarian assistance could mean a 
large administration budget request for FY2003, perhaps in the range of 
$3 b. to cover the large anticipated caseload. Over time, however, this 
is the most likely form of assistance for international partners to 
provide, including the Red Cross, UNHCR, UNICEF, World Food Program, 
World Health Organization and the International Organization for 
Migration, other countries and a host of non-governmental 
organizations. It should be noted, however, that the international 
organizations are looking to the U.S. as a major provider of the funds 
for these activities.

                    COSTS OF SECURITY AND GOVERNANCE

    Security, stability and long-term governance in Iraq will be the 
priority task, once the conflict has ended. Near-term security will 
come at the very top. The Center for Strategic and International 
studies has identified several key, immediate tasks for the occupiers, 
based on experiences in the Balkans and Afghanistan and specific 
conditions in Iraq: putting a international security force in place for 
near-term policing needs, recruiting police internationally for 
deployment to Iraq, locating, securing, and eliminating weapons of mass 
destruction, establishing a transitional administration, creating a 
rapidly deployable international team to provide equitable justice, and 
screening or demobilizing the existing police and security 
apparatus.\12\
---------------------------------------------------------------------------
    \12\ CSIS, above.
---------------------------------------------------------------------------
    These are only first steps. The United States is likely to be 
principally responsible, in the near-term, for governing Iraq under an 
occupation and facilitating a transition to indigenous government. 
Policy will need to focus quickly on sorting out the capabilities of 
the central government and on the strengthening Iraqi civil society, 
neither of which is an easy task. Iraq has a capable civil service, but 
it will require budgetary and salary support early on, as it has in 
Afghanistan.
    In addition, the administration has repeatedly stated the ambition 
of bringing a democratic Iraq into being. Despite earlier rejection of 
such a policy, this policy will involve ``nation-building'' par 
excellence. This ambitious, perhaps unachievable goal, will require 
support for a fair, objective and accessible system for the 
administration of justice, retraining and recruitment of police, 
strengthening Iraqi civil society (voluntary associations and non-
governmental organizations), and bringing all three major Iraqi ethnic 
groups fully into the governance process.
    Our experience with such programs is decidedly mixed. Freedom 
Support Act and SEED funds included active programs for the support of 
both government and civil society throughout central Europe and Russia. 
Oversimplifying, the results of these programs have not been entirely 
positive (nor entirely negative). It is difficult to impost a culture 
of democracy on unreceptive soil and sometimes more difficult if the 
source of funding is seen by some in the society as suspect. Where 
indigenous societies have a strong history of fair justice and civil 
activity, such programs can take off rapidly.
    After two decades of authoritarian rule and scant history of 
democracy, it is not clear how fertile the Iraqi soil will be to such 
an effort.\13\ Moreover, if the Iraqis look at the United States as an 
occupying power, with some fear and doubt, that concern may reflect on 
organizations created by American funding even if staffed and operated 
by Iraqis.
---------------------------------------------------------------------------
    \13\ A Carnegie Endowment analysis suggests that the effort to 
create democracy in Iraq is a decidedly long-term task, and far from 
easy. To quote the document: ``the idea of a quick and easy democratic 
transformation in Iraq is a fantasy,'' requiring the United States ``to 
engage in nation-building on a scale that would dwarf any other such 
effort since the reconstruction of Germany and Japan after World War 
II.'' See Marina Ottoway, Thomas Carothers, Amy Hawthorne and Daniel 
Brumberg, ``Democratic Mirage in the Middle East,'' Policy Brief no. 
20, Washington, DC: Carnegie Endowment for International Peace, October 
2002, p.2.
---------------------------------------------------------------------------
    It will be worth making an effort of this kind, however, even if it 
falls short of full democratization. Creating a stronger civil society 
and a more transparent state bureaucracy and eliminating a repressive 
security apparatus can only be positive steps forward. If we are true 
to our words that we will be liberating the Iraqi people, the 
governance investment will be needed over the long-term to demonstrate 
even these more limited results. Moreover, germinating and growing a 
more democratic Iraq appears to be a core part of the ``demonstration 
effect'' the administration's policy will have on the region as a 
whole. There is substantial doubt that such an effect will take place. 
Many countries and populations are unlikely to welcome a U.S. invasion, 
strengthening anti-U.S. feeling in the region. Moreover, it is not 
clear that the terrain is fertile for democracy in many Middle Eastern 
countries.\14\
---------------------------------------------------------------------------
    \14\ The Carnegie analysis notes that ``the Middle East today lacks 
the domestic conditions that set the stage for democratic change 
elsewhere.'' Above, p.3.
---------------------------------------------------------------------------
    The costs of support for security and governance will be high, 
especially in the beginning before local tax and oil revenues are on 
line. Costs of supporting the salaries of the Iraqi civil service could 
run as high as $50-100 m. a month at the start; the currency will need 
to be reprinted, technical equipment (computers, etc.) will be needed, 
police training and equipping will be critical, the justice system will 
require some cleaning out and retraining, local groups will need 
support in cash and in kind. It would be reasonable to assume costs of 
$5 b. in the first year, tailing off over a period of five years by 
about a billion a year to a total five-year cost of $12 b.
    There may be some support from other countries and international 
organizations for such expenditures. Policing may have international 
support, as it has in the Balkans. The search for and destruction of 
weapons of mass destruction could be carried out under UN auspices, 
though the United States shares in the costs for these teams. When it 
comes to governance, salaries and democratization, it is not clear that 
other donor countries are prepared to take on this almost 
``missionary'' task or to provide the fiscal support it will require.

                   ECONOMIC AND SOCIAL RECONSTRUCTION

    The long-term effort to reverse the devastating effects of two 
decades of authoritarian rule, sanctions and war on the Iraqi economy 
will be an enormous challenge. While Iraq is not a regional economic 
powerhouse, it has the capacity to become one, with substantial oil and 
gas resources and the capacity to export petroleum products. Over time, 
with adequate oil exports, the country should be able to raise the 
standards of living, health and education of the populace.
    Iraq is very far from this optimistic goal today. The Iraqi economy 
has deteriorated over the past two decades, with GDP per capita now 
substantially lower and the bulk of the population dependent on state 
handouts. As I will note shortly, the oil industry has declined over 
the same period of time and, yet, remains almost the only source of 
export earnings for the Iraqi economy.
    An important subset of the reconstruction issue is the matter of 
Iraq's international sovereign debt, international claims, potential 
reparations costs and contract claims. At more than $62 b., Iraq 
sovereign debt is very high, compared to its GDP, one of the highest in 
the world.\15\ In addition, according to the CSIS analysis, unsettled 
claims against Iraq submitted to the UN Compensation Commission total 
$172 b. and another $27 b. remains to be paid on already settled 
claims. Beyond that, the Iran-Iraq war has given rise to $100 b. in 
reparations claims. Finally, Iraqi contracts pending with various 
foreign countries come to an estimated $57.2 b. One-by-one, these 
financial ``overhangs'' will have to be dealt with--through 
rescheduling or renegotiations--if Iraq is to have sufficient resources 
to invest in its own reconstruction. The good will of other nations 
will be essential for the U.S. to lead in resolving the problem.
---------------------------------------------------------------------------
    \15\ CSIS, above, p.23.
---------------------------------------------------------------------------
    The task of rebuilding and growing the Iraqi economy will take time 
and significant resources. Citing a UN report on the costs of restoring 
Iraqi infrastructure to its prewar level after 1991, William Nordhaus 
estimates that overall reconstruction costs could be $30 b. in current 
year dollars. He arrives at roughly the same number using a capital 
output ratio for oil countries, which he calls the ``minimal rebuilding 
needs in postwar Iraq.'' \16\ More ambitiously he suggests that a 
Marshall Plan for Iraq could cost as much as $75 b., assuming it would 
take six years. As noted, however, the prospects for success in 
spending Marshall Plan levels of resources on Iraq are minimal, given 
the dramatic differences in levels of economic development and 
political and societal organization between Europe and Iraq. Similarly, 
a Council on Foreign Relations working group has estimated that 
economic reconstruction in Iraq could cost between $25 and $100 b.
---------------------------------------------------------------------------
    \16\ Nordhaus, above, p.66.
---------------------------------------------------------------------------
    The United States cannot shoulder costs of this magnitude. Ideally, 
other organizations such as the United Nations Development Program, the 
World Bank and the Asian Development Bank can play an important role, 
as well as the European Union. U.S. international leadership in this 
effort will require intensive and careful cultivation of other nations 
and international organizations, or the U.S. could well be left with 
the lion's share of reconstruction assistance.

                       OIL REVENUES AS A SOLUTION

    The availability of Iraqi oil revenues has suggested to some that 
Iraq, itself, may generate the resources to fund the reconstruction 
task, relieving the U.S., other nations and international organizations 
of the responsibility. This expectation is likely to be illusory, 
however. Oil revenues generate something around $10 b. a year for the 
Iraqi economy, down from previous highs. Production has fallen from a 
peak of roughly 3.5 million barrels per day (bpd) to roughly 2.8 
million bpd. Moreover, one immediate consequence of combat will be the 
shutdown, and possibly severe damage to this capacity. Depending on the 
level of damage, it could take several years to restore the oil fields 
to their current level of production. Industry analysts and experts 
believe that much of the revenue from the oil fields will be needed 
simply to repair, rebuild, and upgrade the oil industry infrastructure 
to pre-1990 levels, and the effort could take from 1.5 to 3 years.\17\
---------------------------------------------------------------------------
    \17\ This is the estimate of the Joint Council on Foreign 
Relations/Baker Institute working group. See Guiding Principles for 
U.S. Post-Conflict Policy in Iraq, Report of an Independent Working 
Group cosponsored by the Council on Foreign Relations and the James A. 
Baker III Institute for Public Policy of Rice University, Edward P. 
Djerejian and Frank G. Wisner, Co-Chairs, New York: Council on Foreign 
Relations, 2003, pp.19-20. Cordesman, above, and the CSIS report both 
agree with the conclusion that oil revenues are at best inadequate, 
given the variety of needs to which they might be put.
---------------------------------------------------------------------------
    It is clear that there is significant long-term promise in the 
Iraqi oil fields. Only 17% of the 74 proven fields of reserves have 
been exploited and probable reserves would make the Iraqi oilfields the 
second largest reserve in the world after Saudi Arabia. It will take 
substantial investment over some years, however, to exploit those 
reserves. The Council on Foreign Relations working group estimates that 
this investment, alone, will require $30-40 billion in investment, 
setting aside the roughly $25 b. needed to upgrade current export 
capacity and restore the Iraqi electricity grid to its pre-1990 level 
of capacity.
    The oil revenues that exist today are likely to be used in the oil 
fields, with some left over for claims settlements and humanitarian 
assistance. Longer-term, some have argued, resources will grow with 
major increases in production, perhaps to the 6 million bpd level. Even 
this estimate must be treated with caution. Iraq was a founding member 
of OPEC and is likely to remain in OPEC. Production quotas will limit 
Iraq's ability to grow its production at the rate some expect. Were 
Iraq to leave OPEC and enter the open market, moreover, its oil exports 
would be likely to depress international oil prices. While this may be 
good news for oil importing countries, it would depress revenues 
realized from increased production.

                      THE ECONOMIC COSTS OF A WAR

    The question of oil takes me to another potential cost of an 
invasion of Iraq--the impact of war on oil prices and the impact of oil 
prices on the U.S. and global economies. There is no question that even 
the prospect of war in Iraq has had an impact on oil prices, which are 
already nearing $40 per barrel. A war itself, most economists seem to 
agree, will spike oil prices even higher. Part of this spike would 
reflect simple market fear; part could result from significant damage 
to the Iraqi oil fields as a result of combat. The cost to the economy 
of that spike will depend on how long prices stay high.
    Economist William Nordhaus uses a Brookings Institution study on 
oil market shocks to estimate that if oil prices should rise to $75 per 
barrel over a year, there could be as much as a $778 b. cost to the 
U.S. economy over the next decade as productivity slowed down and the 
economy reentered a recession. On the other hand, if the war were 
short, Iraqi production were not significantly curtailed, and oil 
prices fell back to pre-buildup levels, the impact on the economy could 
provide a small positive lift of $40 b. to the GDP over the next 
decade.\18\
---------------------------------------------------------------------------
    \18\ Nordhaus, pp.70-71
---------------------------------------------------------------------------
    More broadly, the economy could respond to war fears by sliding 
into a recession anyway, independent of oil prices. There are many 
causes of a recession, however, which has been with us for some time. 
Nordhaus argues that the economy may have already discounted the impact 
of a war, along with other negative economic news over the past 
year.\19\ If the war is quick and the oil price rise brief, economic 
performance could actually improve later in the year. On the other 
hand, if the war is extended, oil fields are burned and the regional 
reaction is negative to violent, the economy could return to negative 
growth.
---------------------------------------------------------------------------
    \19\ Nordhaus, p.75.
---------------------------------------------------------------------------
    In either case, the impact of changes in defense spending itself 
are likely to have only a marginal impact. Defense as a share of U.S. 
GDP has declined from 5-7% levels of two decades ago to roughly 3.4% of 
GDP today. The marginal change as a result of an additional $100 b. in 
defense spending is a very small fraction of GDP, with minor 
consequences for the economy.

                    WIDER BUDGETARY COSTS AND ISSUES

Support for Allies
    One budgetary cost that has not been disclosed or even fully 
estimated is the cost of additional foreign economic and military 
assistance to countries that would support the U.S. war effort. 
Newspaper reports have rather fully discussed a potential $6-10 b. 
package of economic and military assistance for Turkey, should the 
Turks agree to provide staging areas for U.S. force invading Northern 
Iraq. There have also been discussions of assistance to other 
cooperating states, including Jordan and Israel, which could range from 
$2-5 b. beyond current budgets.

Wider Regional Programs
    This item falls in a far more speculative category of spending. If 
a program is instituted to change Iraqi politics, there is every 
possibility that such efforts will be expanded beyond current budget 
forecasts to other countries in the Middle East region. If the region 
accommodates an invasion and occupation willingly or, for that matter, 
if it does not, there may be a broad expansion of U.S. public diplomacy 
programs in the region to support the policy the U.S. is pursuing or 
persuade others of its benefits. Such efforts will also require 
additional resources, beyond those currently budgeted, but no clear 
estimate can be made at this point.
    Another regional program might be significantly greater U.S. 
involvement in the outcome of the Second Intifada and Israel/Palestine 
relations. Regional specialists suggest, with reason, that the 
governments and populace in the region see the Israel/Palestine 
conflict as directly tied to broader regional issues. The credibility 
of U.S. efforts to disarm Iraq and change the regime will clearly be 
linked to how willing the administration is to engage this related 
issue. The administration has recognized this connection, albeit only 
briefly, but should the U.S. engage, there is almost certain to be an 
outcome which includes additional U.S. spending, either for economic or 
military assistance or, as some have suggested, to support a U.S. 
military presence as part of a peacekeeping force in that part of the 
region.

                     THE COSTS OF NOT INVADING IRAQ

    These potential costs deserve discussion, though they have received 
little analysis to this point. If the United States were to stand down 
in the current confrontation, the administration would need to estimate 
and budget for the costs of maintaining force in the theatre, without 
combat, which might be similar to the costs of an occupying force. The 
costs of on-going inspections would need to be estimated, including a 
U.S. contribution. The administration might well argue that the costs 
of allowing Saddam Hussein to proceed with his weapons programs and 
policies in the region also need to be estimated, including the long-
term consequences for stability, terrorism and even oil prices of 
allowing him to acquire weapons of mass destruction. They might also 
point to the potential costs of withdrawing U.S. forces from a region 
grown increasingly hostile to the U.S. military presence and the costs 
of a continued high level of investment in anti-terrorism operations 
and homeland security measures, given continued support for and growth 
of terrorism emerging from this part of the world. I cannot estimate 
these costs, nor can the administration, but some of them may be the 
result of a different policy.

              THE BUDGETARY IMPACT OF POST-WAR IRAQ POLICY

    I would be remiss as a budget analyst if I did not comment on the 
question of whether the federal budget can support the budgetary costs 
I have outlined above. As many of these costs are expressed in ranges, 
I will not add them together to provide one single rollup figure. But 
these are costs over and above current estimates of spending, hence 
they will most certainly add to the federal deficits projected into the 
future.
    The Congressional Budget Office has just released its analysis of 
the President's budget. Perhaps most important is the increase in the 
deficits projected for FY 2003 and FY 2004, which would rise to $287 b. 
and $338 b. in those years. According to CBO projections, budget 
deficits would remain negative throughout the next ten budget years, 
with a shift in cumulative deficits over that time from an OMB-
projected cumulative surplus of $891 b. to cumulative deficits of $1.8 
trillion dollars over the ten years.\20\ The out-year numbers in these 
forecasts are frequently, and rightly, suspect. The near-term numbers 
show deficits reminiscent of the 1980s and early 1990s. The proposed 
budget does not include any of the costs I have discussed in this 
testimony, which would further increase the projected deficits. Nor 
does it include any CBO re-estimate of the budgetary consequences of 
Medicare reform, or the potential costs of a prescription drug benefit 
program or extension of Alternative Minimum Tax changes past FY 2006.
---------------------------------------------------------------------------
    \20\ CBO, An Analysis of the President's Budgetary Proposals for 
Fiscal Year 2004: An Interim Report, Washington, DC: CBO, March 2003, 
Table 1, p. 17.
---------------------------------------------------------------------------
    In sum, deficits are likely to be high and go higher. This broader 
budgetary impact is not necessarily an obstacle to the administration's 
policy. It does deserve discussion, however, as the administration's 
policy is being considered. With some sustained economic recovery, 
higher deficits could well lead to higher interest rates and a squeeze 
on capital availability. If any of these consequences are likely, it 
may make sense for the tax policies proposed by the administration to 
be put on hold.

                               CONCLUSION

    I again commend the committee for this hearing. It is vital to 
understand the long-term consequences and the fiscal implications of 
those long-term policies for the U.S. taxpayer. For this Committee, the 
Congress and the country, what follows a war will be even more 
important than the war itself. Ensuring a disarmed and peaceful Iraq 
and a peaceful region is an important, if ambitious policy goal. 
Without serious planning and fiscal commitments, however, we could win 
this particular battle and be worse off in the long run.
    Our most important need in a post-war Iraq world is a broad 
community of support for the effort that needs to be made. The United 
States cannot achieve its aims alone. What concerns me most is that the 
diplomatic strategy leading up to the war may have seriously alienated 
nations we will need for the post-war effort. The consequence could be 
that we face these major long-term tasks with less international 
support than they require.

    The Chairman. Ms. Mitchell.

 STATEMENT OF SANDRA MITCHELL, VICE PRESIDENT OF GOVERNMENTAL 
   RELATIONS, INTERNATIONAL RESCUE COMMITTEE, WASHINGTON, DC

    Ms. Mitchell. Mr. Chairman, members of the committee, thank 
you for the opportunity to talk to you today about the state of 
the humanitarian response to the consequences of military 
action against Iraq.
    I have submitted my statement for the record, and will take 
this opportunity to briefly highlight four issues requiring 
immediate action to improve the state of preparedness. They are 
access, funding, coordination, and plans to avoid humanitarian 
crises after a war and during a U.S.-led occupation.
    First, access; the humanitarian community must have 
unhindered access to Iraq and its border countries to 
strengthen response capacity. Non-governmental organizations 
and faith-based organizations do the heavy lifting during an 
emergency. We build the refugee camps, we provide fresh water, 
distribute food and medicine, and then we help rebuild 
communities when the fighting stops.
    The U.N. high commissioner for refugees, UNICEF, the World 
Food Program, WHO, USAID, the European Union, and other donors 
depend on us as their implementing partners. And when they look 
around Iraq and the border countries right now, they see very 
few operational NGOs.
    The United Nations and U.S. sanctions have kept all but a 
handful of NGOs out of Iraq and the region. For the past 6 
months, the International Rescue Committee and other NGOs have 
been waiting for the U.S. Government to grant licenses that 
would allow us to conduct emergency planning answers to 
interrogatories inside Iraq and Iran. These licenses are only 
now forthcoming and they are restrictive. They do not allow 
humanitarian agencies to freely assess conditions on the ground 
and then take whatever actions we deem are required.
    Given the overall inadequate state of humanitarian 
preparedness, such licensing procedures are obstructive and 
must be suspended to facilitate our unhindered access to Iraq 
before, during, and after any intervention.
    The government of Iraq must also grant unhindered access to 
humanitarian relief agencies. Iraq is currently obstructing aid 
preparation by denying visas to aid workers and delaying 
imports of relief supplies.
    Second, resources. Less than $1 million has been spent by 
the U.S. Government to support non-governmental agencies who 
will do most of the work to aid refugees and displaced persons 
in Iraq if war comes.
    Less than $1 million to support American organizations 
preparing to respond to the humanitarian consequences in a war 
backed by 250,000 American soldiers with grave risk to their 
own lives if weapons of mass destruction are released.
    The United Nations and the humanitarian communities are 
struggling to put in place the kind of operational and 
logistical framework that can support relief efforts if 
populations inside Iraq flee, either from fear, from attack, or 
from weapons of mass destruction.
    Having received less than $1 million from the U.S. 
Government, NGOs are having to rely on the generosity of 
private contributions from the American people. Unfortunately, 
these alone are not sufficient.
    Funds have not been available from the United Nations or 
other traditional donors either. The U.N. funding appeal for 
its own contingency preparedness remains unfilled, so the U.N. 
has no ability to boost the capacity of its implementing 
partners. Where is the Iraq supplemental? Where are the funds 
needed right now to meet the needs of Iraqis if war breaks out?
    The humanitarian funding must be de-linked from the 
political and military issues of war. USAID and the State 
Department's Bureau of Population Refugees and Migration 
traditionally work with the United Nations and the humanitarian 
community, and their offices provide funding for the care of 
refugees and displaced persons in countries all over the world.
    These funding mechanisms must now come online quickly. We 
finally heard from the administration last week when aid 
agencies were asked to submit operational concept papers. The 
filing deadline was yesterday, but where is the funding?
    New money is needed for the humanitarian consequences in--
of Iraq--of war in Iraq. It would be wrong to scrub existing 
humanitarian accounts when there remains urgent, unmet 
humanitarian needs throughout the world.
    More de-linking of the humanitarian plans from the war 
plans is required to save lives. I understand that USAID must 
coordinate with the military and rely on ground forces to 
provide security, and that this government's humanitarian 
response will likely have a military flavor. That is not an 
uncommon response for a country planning for war. But the same 
military tint must not color the response launched by the 
international and humanitarian aid communities.
    More funding must be spent now to support the humanitarian 
efforts of the United Nations and its implementing partners, or 
insufficient response capacity will remain in place.
    Third, on the issue of coordinating relief efforts, it must 
be noted that a humanitarian crisis already exists in Iraq. For 
more than a decade, the world's largest humanitarian relief 
effort has been underway through Iraq.
    The United Nations Oil for Food Program has been the life 
line for 60 percent of the population or an estimated 16 
million people. This is a massive distribution network for food 
and medicine, with more than 46,000 distribution points.
    In the event of military action, the United Nations will 
withdraw international staff, interrupting the oil for food 
system, which can quickly collapse, if the food supply pipeline 
or the distribution is then disrupted by war.
    Maritime insurance rates are already spiking and risks 
increase daily for food shipments navigating their way to Iraqi 
ports past the U.S. naval fleet and ground forces.
    The United Nations' top humanitarian official for Iraq said 
2 weeks ago that food stocks and supplies being prepositioned 
are not sufficient for the known needs of Iraq.
    Iraq's emergency response capacity will weaken during 
conflict and cannot provide for the humanitarian needs of its 
25 million people.
    U.S. planning has so embedded humanitarian tasks and 
activities with the military war plan that vital information 
remains classified and meaningful dialog continues to be 
muffled and one-directional. Coordination of relief efforts is 
best handled by civilians and preferably on a multilateral 
basis by the United Nations.
    Coordinating a humanitarian response must also be de-linked 
as much as possible from any planned response against Iraq. 
Recently, the administration stated its willingness to separate 
the humanitarian issues from the political issues facing North 
Korea. The same should be done for Iraq. This is best 
accomplished by U.S. support for all necessary actions that 
grant the United Nations clear authority for coordinating and 
mounting a humanitarian response that is inclusive of its 
implementing partners.
    I would like to emphasize this point and explain from the 
humanitarian community's perspective why U.N. authority and 
civilian oversight of humanitarian activities is so important.
    First, the military should do what it does best, fight 
wars. And the humanitarian organizations should do what we do 
best, care for civilians and deliver assistance to those in 
need.
    Second, humanitarian assistance must be provided on an 
impartial basis to ensure that all civilians in need, 
regardless of race, creed, nationality, or political belief, 
have fair and equal access to aid. The United Nations is 
clearly more independent and impartial than any one party to 
the conflict; and, therefore, should coordinate and direct 
relief efforts.
    And, third, confusing humanitarian and military activities 
carries great security risks for those delivering assistance. 
Aid workers, obviously, are not armed. We cannot defend 
ourselves and we must never be mistaken for members of the 
military. Their lives depend on this.
    On this point, I would like to call your attention to the 
continued abduction of Argan Erkel, a Dutch humanitarian worker 
abducted 7 months ago in Dagestan. We see Mr. Erkel's case as 
part of an increase in violence against civilian populations 
and against humanitarian aid workers trying to assist victims 
with relief. Please join the humanitarian community in asking 
the Russian authorities to give their highest political 
commitment to assure the release of Mr. Erkel.
    I would like to conclude with some steps that the United 
States must be prepared to take to avoid humanitarian crises 
after war.
    We have seen no plans on how the Bush administration plans 
to protect Iraqi civilians after an intervention and while 
transitional institutions are being stood up. The U.S. 
Government should be formulating plans now to transfer power as 
quickly as feasible to legitimate civilian structures in Iraq.
    The Fourth Geneva Convention, of which the United States is 
a signatory, sets forth essential steps that occupying powers 
must take in order to avoid humanitarian crises. These steps 
hinge on the United States protecting the rights of Iraqi 
civilians in Iraq in the same way it does for Americans here. 
These duties are obligatory upon first contact with Iraqi 
civilians and they require much more than providing the basic 
needs of food, water, and shelter.
    Grave humanitarian concerns will continue to befall Iraq 
the day after the regime falls. Of critical importance to any 
provision of humanitarian aid for Iraq is public order and 
security. The delivery of humanitarian assistance cannot be 
assured in areas that are not secure.
    As Saddam's regime falls, the internal security framework 
will collapse and conditions for lawlessness and impunity will 
ripen. Security vacuums will then appear.
    Under the Geneva Conventions, the United States will have 
the duty to restore and ensure public order and safety in Iraq. 
This duty requires the United States and its allies to use 
their own personnel to provide a safe environment and ensure 
public order as they advance into Iraq. These forces must 
transition quickly to policing functions and fill a security 
vacuum that exists to provide no space for reprisal and 
revenge.
    The Geneva Conventions also require the United States to 
promote the rule of law and ensure that basic judicial and due 
process guarantees exist for all Iraqis. As a signatory of the 
Geneva Conventions, the United States will be expected to 
fulfill all these obligations.
    It will be critical that U.S. forces correctly identify and 
protect vulnerable populations and communities that may be most 
at risk. USAID disaster assistance response teams and the 
Office of Transition Initiatives are well suited to identify 
and assess the immediate protection needs of the Iraqi 
population, and they should be encouraged to do so.
    I understand that Senator Biden is crafting legislation to 
address the protection needs of women and children in armed 
conflict. I would urge the committee members to support this 
legislation because it will focus USAID and the State 
Department's response to the protection needs of conflict-
affected populations, which are equally as important as food 
and shelter.
    My final comment concerns the state of preparedness for 
responding to the humanitarian consequences of weapons of mass 
destruction. I am afraid nothing has really been done to 
coordinate a planned response to help Iraqis if weapons of mass 
destruction are released upon them. There is no capacity in the 
international and/or American humanitarian community to respond 
to emergencies involving weapons of mass destruction. We do not 
know what the capacity is of the U.S. military to help in such 
a case. A serious discussion of this question remains to be 
held.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Ms. Mitchell, for that 
very important testimony.
    [The prepared statement of Ms. Mitchell follows:]

   Prepared Statement of Sandra Mitchell, Vice President, Government 
               Relations, International Rescue Committee

    The International Rescue Committee (IRC) \1\ continues to advocate 
for a peaceful resolution to the Iraq crisis. Nevertheless as a 
humanitarian organization we must take prudent, preparatory measures to 
meet the humanitarian consequences of a conflict. In that regard, the 
IRC remains concerned about the lack of preparedness for emergency 
relief operations and reconstruction efforts if they are required for 
Iraq.
---------------------------------------------------------------------------
    \1\ Founded in 1933, the International Rescue Committee is one of 
the world's largest nonsectarian nonprofit organizations, providing 
global emergency relief, rehabilitation, protection, resettlement 
services and advocacy for refugees, displaced persons and victims of 
oppression and violent conflict. The IRC, which currently provides 
assistance in some 30 countries, is committed to freedom, human 
dignity, and self-reliance.
---------------------------------------------------------------------------
                  I. HUMANITARIAN NEEDS ALREADY EXIST

    A. Current Situation. The starting point for contingency planning 
begins with an already bleak humanitarian situation in Iraq. The United 
Nations' statistics are well known:

  <bullet> one million children under the age of five are chronically 
        malnourished;

  <bullet> five million Iraqis lack access to safe water and 
        sanitation;

  <bullet> 60% of the population or an estimated 16 million Iraqis are 
        dependent on the UN Oil-for-Food Program for their food 
        rations.\2\
---------------------------------------------------------------------------
    \2\ For a comprehensive discussion on the Oil-for-Food Program and 
health of the Iraqi population see: ``Health and Human Rights 
Consequences of War in Iraq: A Briefing Paper'' Physicians for Human 
Rights, 14 Feb 03. http://www.phrusa.org/research/iraq/021403.html

    Assuming there are no population movements, household food reserves 
are expected to last for no more than six weeks if the pipeline breaks. 
Economic hardship is already driving many poor families to sell extra 
food rations distributed by the regime in anticipation of war.\3\ Water 
treatment and electric generation plants are in disrepair, and 
hospitals and clinics suffer from chronic shortages of medicines and 
equipment. If populations do move, then in addition to food and 
medicine, sanitation, safe water and diarrhea-control programs will be 
essential to prevent death.\4\ The UN Oil-for-Food Program is the 
single largest humanitarian assistance effort underway in the world, 
and it has existed in Iraq for more than a decade. Any military 
intervention will further shock and disrupt the fragile humanitarian 
condition of Iraq.
---------------------------------------------------------------------------
    \3\ UN Press Briefing on Humanitarian Preparedness Planning for 
Iraq, 13 Feb 03 (Under-Secretary General).
    \4\ Yip, R., Sharp, T.W., Acute Malnutrition and High Childhood 
Mortality Related to Diarrhea--Lessons Learned from the 1991 Kurdish 
Refugee Crisis, JAMA, Vol. 270, Issue 5, pp. 587-590, August 4, 1993. 
In March of 1991, fearing further persecution from the Iraqi Army, 
approximately 500,000 Kurds fled toward Turkey. From March to May 1991, 
the leading causes of death for Kurdish children under 5 in the 
mountain camps along the Turkey-Iraq border were diarrheal disease, 
dehydration and malnutrition. These diseases represented 75% of the 
total under-5 mortality. One of the lessons learned from the 1991 
Kurdish refugee crisis is that ``adequate food and basic medical care 
may not be sufficient to prevent high morbidity and mortality where 
sanitation, safe water and diarrhea-control programs are lacking.'' (p. 
590)
---------------------------------------------------------------------------
    B. Inadequate Response Capacity in Iraq. The current state of 
emergency preparedness in Iraq is cause for alarm. Estimations are that 
there are less than 20 international humanitarian non-governmental 
organizations (NGOs) in Iraq. While more than that number have 
attempted to carry out assessment missions, few NGOs have been able to 
establish an operational capacity inside Iraq during the last 6 months. 
This is due to sanctions, both UN and U.S. for American NGOs, a lack of 
funding, difficulty in obtaining visas from the regime and the 
expenditure of private resources to other more immediate crises around 
the world. Many of the international agencies with emergency capacity 
in Iraq are expected to withdraw staff in the event of a military 
intervention--this includes the United Nations. The International 
Committee of the Red Cross (ICRC) and a handful of aid agencies are 
preparing to stay during a conflict but only the ICRC has amassed 
significant supplies and resources for such contingencies. Although 
ICRC will reduce its international staff by 50% in the event of 
conflict they have pre-positioned food and non-food supplies in Iraq 
and the border countries for several hundred thousand internally 
displaced persons.
    The Iraqi national NGO capacity is modest in size and scope. 
National NGOs have increased in the north but tend to focus on 
development-oriented projects and thus will need enhanced capacity for 
any relief operation. The Iraqi Red Crescent Society is operational 
countrywide and, while strongly influenced by the government, does 
provide a network for assistance and capacity building activities. Some 
response capacity exists in neighboring states, though serious 
questions remain as to the depth and humanitarian commitment of 
existing plans. In northern Iraq, local de facto Kurdish authorities 
have engaged in emergency preparedness and their structures can be 
utilized in any response. Despite repeated pleas however for the pre- 
positioning of emergency relief supplies, the de facto authorities have 
received very little international assistance--this again is the result 
of sanctions. Great uncertainty surrounds any potential humanitarian 
response by the Iraqi government, and thus the Iraqi government's 
response capacity is not factored into contingency planning until a 
post-conflict stabilization period.

            II. INADEQUATE HUMANITARIAN PREPARATIONS FOR WAR

    A. Bush Administration's Plan. Several weeks ago the Bush 
Administration unveiled six principles underpinning its humanitarian 
relief strategy. IRC generally agrees with these principles: minimizing 
civilian displacement and damage to civilian infrastructure; relying on 
civilian relief agencies; committing to effective civil-military 
coordination; facilitating the operations of international 
organizations and NGOs; pre-positioning relief supplies; and supporting 
the resumption of the UN Oil-for-Food Program. While the principles are 
fine, we remain concerned about the lack of resources and action taken 
to implement them.\5\ As discussed below, an immediate humanitarian 
response cannot be mounted for Iraq given the inadequate state of 
preparedness of the international and non-governmental agencies--the 
same agencies that the Administration's strategy is relying on.
---------------------------------------------------------------------------
    \5\ For a further analysis of the implementation of the 
Administration's principles see: ``U.S. Announces Intention to Rely on 
Civilian Relief Agencies for Humanitarian Response to Iraq,'' Refugees 
International 27 Feb 03. http://www.refintl.org/cgi-bin/ri/
other?occ=00612
---------------------------------------------------------------------------
    B. United Nations Preparations. UN contingency planning is based on 
a ``medium case'' scenario that assumes a conflict would severely 
disrupt critical infrastructure and the Iraqi government's capacity to 
deliver basic services and relief, including food rations delivered 
under the Oil-for-Food program. This planning scenario calls for the 
evacuation of all UN international staff and the suspension of UN 
programs at the outbreak of conflict. Shortages of fuel and power in 
urban areas would shut down water and sewage treatment plants. Up to 
half of the population would be without access to potable water and up 
to 10 million people may require food assistance during and immediately 
after a conflict. Up to two million people may become internally 
displaced, while between 600,000 and 1.45 million asylum seekers may 
flee towards neighboring countries.\6\
---------------------------------------------------------------------------
    \6\ U.N. Funding Requirements for Humanitarian Preparedness 
Measures, 14 Feb 03.
---------------------------------------------------------------------------
    UN agencies are pre-positioning stocks of essential relief items 
and fielding emergency response personnel to the region. Food 
sufficient for 250,000 beneficiaries has been pre-positioned for ten 
weeks (less than a planned WFP target figure of 900,000 for pre-
positioning purposes). Water and sanitation supplies have been 
stockpiled for 300,000 people inside and outside Iraq. Emergency health 
kits have been pre-positioned by UNICEF for some 900,000 women and 
children inside Iraq. In addition, WHO has pre-positioned emergency 
health kits for 240,000 people for three months outside Iraq. Winter 
kits, including shelter material, have been pre-positioned by UNHCR for 
a displaced population of 118,000 (against a potential refugee caseload 
of 600,000). The ordering and pre-positioning of supplies by UN 
agencies continues.\7\
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    Despite this planning the UN's top humanitarian official for Iraq, 
Ramiro Lopes da Silva, said recently that Iraqi's near-total dependence 
on government food rations means that a massive and immediate 
humanitarian relief operation would have to be mounted to prevent 
widespread starvation. Although current plans call for the U.S. 
military to stockpile 3 million daily rations and the UN World Food 
Program to store food for 900,000 people for 10 weeks, he said these 
efforts would not be sufficient to satisfy the need.\8\ UN preparations 
continue to be hampered by a lack of funding. UN appeals totaling more 
than $200 million remain unfulfilled despite pledges by the United 
States and a handful of other donors. The perception that the U.S. 
government will act unilaterally against Iraq has greatly chilled 
humanitarian donations to the UN and to NGO relief agencies.
---------------------------------------------------------------------------
    \8\ ``U.N. Official Warns Of Iraqi Food Crisis'' The Washington 
Post, 28 Feb 03, page A18. http://www.washingtonpost.com/wp-dyn/
articles/A13499-2003Feb27.html
---------------------------------------------------------------------------
    C. American NGO Preparedness. The American NGO community, with a 
few exceptions, is largely absent from Iraq. Only a handful of American 
NGOs have permission to operate in government-controlled Iraq and these 
are not the nation's largest relief agencies. Those that are present 
must deal with a lack of donor funding as well as continual government 
obstruction and restriction on their activities. In the north, there is 
more NGO activity and a better relationship with the authorities. 
However, agencies are hampered by limited access to the area. They are 
considered illegal entities by the government in Baghdad and must 
travel in and out via neighboring states and this has been greatly 
curtailed in recent months. Unlike Kosovo and Afghanistan, American 
NGOs have relatively little presence in the region and would not be 
able to mount a fast and significant response from neighboring 
countries. Moreover, U.S. sanctions against Iraq forbid American NGOs 
from traveling to Iraq and from providing humanitarian assistance in 
Iraq and Iran. Efforts by long established American humanitarian NGOs 
to obtain meaningful exemptions from the sanctions have so far been 
largely unsuccessful.
    American NGOs operational in Iraq have made some contingency plans 
for shifting into emergency mode. In Iran, Kuwait,\9\ and Jordan some 
American NGO planning and coordination is taking place but it is deemed 
inadequate by humanitarian advocates. IRC is part of an NGO consortium, 
funded by USAID/OFDA, that has set up a shared logistical base in 
Jordan. Total funding for the five NGOs members of the consortium is 
approximately $900,000. With this exception NGOs are relying on their 
own private contributions to mount a response. Although the U.S. 
government has solicited and is accepting humanitarian aid proposals 
from NGOs critical funds are not yet forthcoming.
---------------------------------------------------------------------------
    \0\ ``Unready: The View from Kuwait,'' Refugees International, 3 
March 03. http://www.refugeesinternational.org/cgi-bin/ri/
bulletin?bc=00497
---------------------------------------------------------------------------
    The European Union, the UK's Department for International 
Development and other traditional NGO donors have not yet released 
contingency or preparedness funds to American NGOs. Some donors have 
told IRC that they are reluctant to release funds because they do not 
want to be perceived as supporting the U.S. war effort or signaling 
that war is inevitable. Some U.S. private foundations have cited 
similar reasons for denying funding for Iraq contingency activities.
    D. No Planned Response to Weapons of Mass Destruction. Another 
critical question remains unanswered. Who will assist the Iraqi people 
if there is a release of weapons of mass destruction? The NGOs have no 
capacity to respond to immediate needs although they may be able to 
assist fleeing populations assuming an absence of infection or 
contagions. The UN and ICRC similarly have little if any capacity to 
respond if weapons of mass destruction are released. What is the 
capacity of the U.S. military to help in such a case--a serious review 
and discussion of this question is still outstanding.
    E. Poor Coordination. The issue of coordinating a potential 
humanitarian response for Iraq currently evokes emotion and frustration 
from all actors involved in contingency preparations. This is largely 
the result of U.S. planning that has so embedded humanitarian tasks and 
activities with the military war plan that vital information remains 
classified and meaningful dialogue continues to be muffled and one-
directional. From the perspective of the humanitarian community the 
coordination of emergency relief activities is best handled by 
civilians and preferably on a multilateral basis by the UN. Simply put, 
the UN is able to operate with more independence and impartiality than 
any one party to a conflict. IRC remains concerned that humanitarian 
coordination led by the U.S. military (including USAID which will be 
embedded with the military) will continue to chill the participation of 
humanitarian NGOs and non-American donors and this could have 
devastating effects for the Iraqi people.
    Traditional structures are being established to facilitate 
coordination. The U.S. military and the Kuwaiti government have 
established a Humanitarian Operations Center (HOC) that will serve as a 
point of contact for humanitarian actors to deconflict logistical 
activities, exchange information and garner vital security information. 
The UN has established a temporary humanitarian coordination office in 
Cyprus, incorporating a Joint Logistics Center, a Humanitarian 
Information Center and joint air services and communications 
arrangements to ensure connectivity with field offices in the region 
and in Iraq.
    InterAction (a coalition of 160 American NGOs) organized an Iraq 
Working Group in October that holds weekly meetings with USAID and 
State/BPRM. It must be stressed that to date these meetings have 
largely focused on the obstacles and challenges facing the American NGO 
community in mobilizing an emergency response to Iraq. Again, because 
the U.S. government's humanitarian plans are so interwoven with the war 
plans much of the discussion at these meetings has been one-way. This 
has at times frustrated U.S. government officials as well as the NGOs.
    F. Impact of Minimal NGO Presence. UN agencies are dependent on 
implementing partners, and when they look around Iraq and the border 
countries they see very few NGOs present. USAID and the large Disaster 
Assistance Response Team being assembled is similarly dependent on 
implementing partners, and they too see very few NGOs poised and 
prepared to respond if military action is taken. The U.S. military 
cannot be relied upon to satisfy the humanitarian needs of the Iraqi 
people. They are neither trained nor equipped to do so on the scale 
that may be required. Their involvement should be as a last resort and 
then only under civilian command. As the situation now stands, NGOs and 
the humanitarian community they comprise have been marginalized in the 
build up to war. Relations between American humanitarian NGOs and the 
U.S. government continue to deteriorate as we remain largely sidelined 
by sanctions and an absence of resources.
    Any humanitarian relief operation can only be effective if NGOs are 
positioned and ready to implement life saving activities in partnership 
with the United Nations and other donors. As described above, it is 
IRC's opinion that emergency relief NGOs are largely unprepared for war 
in Iraq and efforts to mobilize them in the region lag far behind war 
preparations.\10\
---------------------------------------------------------------------------
    \10\ ``Avoiding a Humanitarian Catastrophe in Iraq'' Refugees 
International, 5 Feb 03. http://www.refugeesinternational.org/cgi-bin/
ri/bulletin?bc=00487
---------------------------------------------------------------------------
                  III. IMMEDIATE ACTION TO SAVE LIVES

  <bullet> Unhindered Access for Humanitarian Agencies. The U.S. 
        government must facilitate the access of international and 
        American assistance into Iraq before, during and after any 
        planned intervention. The U.S. should immediately suspend 
        licensing requirements for humanitarian NGOs to operate in Iraq 
        and Iran.

  <bullet> Resources. Unless more funding is provided to the UN and 
        humanitarian NGOs the needs of Iraqi civilians cannot be met in 
        the event of war. It must be stressed that humanitarian funding 
        provided to date by the United States is for contingency 
        activities only; the costs and plans for an actual response are 
        so interwoven with the military war plans that they remain 
        classified. Any funding provided must be ``new funds'' and not 
        be at the expense of other humanitarian needs around the world. 
        Oversight is critical to ensure that existing humanitarian 
        accounts are not scrubbed for Iraq.

  <bullet> Discuss Humanitarian Plans. De-classifying the humanitarian 
        annexes to the war plans will enable the United Nations and 
        NGOs to identify gaps and better prepare for life saving relief 
        operations.

  <bullet> UN Authority. The political, military and humanitarian 
        issues surrounding future action in Iraq must be delinked. 
        Coordination of humanitarian activities should be led by the 
        United Nations. The U.S. government should support all 
        necessary actions that grant the United Nations authority for 
        humanitarian actions.

  <bullet> Border Countries. If there is military action against Iraq 
        the potential for population movements is high. Accessing these 
        countries will be essential for fleeing refugees and 
        humanitarian aid agencies. The U.S. government must take all 
        steps to ensure that border countries accept refugees and allow 
        humanitarian agencies unhindered access to provide life-saving 
        assistance.

            IV. STEPS TO AVOID HUMANITARIAN CRISES AFTER WAR

    The United States has stated its intention to occupy Iraq until 
power can transfer to transitional or democratic structures. The United 
States should be formulating plans now to transfer such power as 
quickly as feasible to legitimate civilian structures. The Fourth 
Geneva Convention, of which the U.S. is a signatory, sets forth 
essential steps necessary to avoid humanitarian crises by requiring 
that the United States, as an occupying power, protect and assist the 
civilians of Iraq. This means that the United States must be prepared 
to provide for and protect the rights of Iraqi civilians in the same 
way it now does for the American people. These duties attach upon first 
contact with Iraqi civilians and they mean much more than providing 
food, medicines and shelter.
    In addition to the immediate humanitarian concerns facing Iraq and 
those related to population movements resulting from any military 
strike, grave humanitarian concerns also surround Iraq the ``day 
after'' the regime falls. Of critical importance to any provision of 
humanitarian aid for Iraq is public order and security. Delivery of 
humanitarian assistance cannot be assured in areas that are not secure. 
As Saddam's regime falls, the internal security framework will collapse 
and conditions for lawlessness and impunity will ripen. As an occupying 
power the United States will have the duty to restore and ensure public 
order and safety in Iraq. This duty requires the United States and its 
allies to use their own personnel to provide a safe environment and 
ensure public order as they advance into Iraq. These forces must 
transition quickly to policing functions and fill any security vacuum 
that exists to leave no space for reprisal and revenge. Similarly, the 
United States as an occupying power must promote the rule of law and 
ensure that basic judicial and due process guarantees exist for all 
Iraqis.\11\ As a signatory of the Geneva Conventions the United States 
will be expected to fulfill all obligations therein.
---------------------------------------------------------------------------
    \11\ See, ``International Humanitarian Law Issues In A Potential 
War In Iraq.'' Human Rights Watch Briefing Paper, 20 Feb 2003. http://
www.hrw.org/backgrounder/arms/iraq0202003.htm
---------------------------------------------------------------------------
    The Ba'ath party has been a bloody regime. High crimes and human 
rights abuses by Saddam's regime against the Kurds, Shi'a, Turkmen, 
Sunni and non-Ba'ath members are well known and accepted. The regime's 
grip extends to all ministries of the government and all security 
forces. The education system teaches Saddam's politics, and the 
administration of justice with Ba'ath appointed investigators, 
prosecutors and judges validates Saddam's control and abuse. The 
immediate post-Saddam era may include security, political and judicial 
vacuums--a lawless state. Impunity is almost guaranteed in such 
circumstances.
    The International Rescue Committee does not subscribe to the 
conventional wisdom that Iraqis of various ethnic and political groups 
lay in wait for Saddam's regime to collapse in order to go after each 
other and carve up the country. The overall impression is that Iraqis 
are sick of war and are prepared to move forward together in a post-
Saddam setting. Still, isolated radicals, hardliners and spoilers, 
including the current regime, are likely to create tension and exploit 
any security vacuum. They may ``cleanse'' areas by forcing entire 
communities to move in order to access valuable resources, to solidify 
power, to attain ethnic homogeny or to extract revenge for past crimes 
left unanswered. If left free they will continue with impunity.
    A. Identify Security Vacuums. If they enter Iraq, U.S./Coalition 
forces may find populations that have been forcibly displaced by 
Saddam's regime or other radical elements during a military 
intervention. Iraq may also be suffering from ethnic-cleansing tactics 
by local de facto authorities that are consolidating power by forcing 
populations from areas they intend to control. U.S./Coalition forces 
may also encounter populations displaced by reprisals and vindictive 
violence against vulnerable groups and individuals who are at risk 
because of their profession, their political or ethnic affiliation or 
because they are perceived by others to be collaborators or 
perpetrators of human rights violations. With over 30 years of Ba'ath 
state sponsored terror, many scores await settling in Iraq. Police, 
judges, prosecutors and others associated with the Ba'ath reign of 
terror will likely flee or hide. If the law and order vacuum is not 
quickly filled by U.S./Coalition forces hardliners, spoilers and 
radicals will seize the void and dislodging them will not be easy. If 
this happens and there are no police or judicial systems in place to 
fill the vacuums, lawlessness and impunity will follow. Combined such 
forces can spiral quickly out of control with devastating effects for 
displaced persons. Under the Geneva Conventions the U.S., as an 
occupying power, will be responsible for ensuring that does not 
happen.\12\
---------------------------------------------------------------------------
    \12\ Fourth Geneva Convention; Art. 51, Protocol I [Article 51: 
Protecting the civilian population from acts or threats of violence 
that have the primary purpose of spreading terror.]
---------------------------------------------------------------------------
    B. Identify Geographic Populations At Risk. We know that potential 
flash-points are based on both geography and the characteristics of 
vulnerable populations. Mapping out the ethnic boundaries of 
neighborhoods in Baghdad (e.g., Christians, Sunni etc.), Kirkuk 
(Turkmen, Arabs etc.), the Shi'a towns (rival Shi'a factions) and the 
Tikrit villages provides a snapshot of potential fault lines for 
communal violence and vulnerability to human rights abuses. To know 
where Saddam forcibly moved and resettled populations is to know where 
potential tensions, reprisals and movements can ignite.\13\ It is also 
important to know the location of isolated communities of one group 
within a larger concentration of another group, e.g. a Turkmen village 
surrounded by Kurdish villages. In order to provide effective security 
in the absence of local police it is essential to know where tensions 
may be the highest and who may be the most vulnerable to attack and 
revenge. Security must be restored first in these places and protection 
given to the most vulnerable.
---------------------------------------------------------------------------
    \13\ See, John Fawcett and Victor Tanner ``The Internally Displaced 
People of Iraq'' (Brookings November 2002) for an excellent discussion 
on the forced population movements of Saddam's regime and ethnic fault 
lines. http://www.brookings.org/fp/projects/IDP/articles/iraqreport.htm
---------------------------------------------------------------------------
    C. Identify Vulnerable Populations. Some vulnerable populations are 
not only geographically centered but are scattered throughout Iraq. 
Because the number of Ba'ath party members is believed to be around one 
million, reprisals based solely on party membership are not expected. 
Targeted revenge would be more likely against Ba'ath members 
individually identified as being part of Saddam's reign of terror 
(police, judges, prosecutors, members of the security forces perceived 
to be instigators of terror etc.). Moderate or emerging political and 
community leaders will remain vulnerable to radicals, hardliners and 
spoilers for some time. Identifying such individuals and then 
protecting them will be key to securing conditions for normalization. 
Forty-eight percent of all Iraqis are under the age of 18. History 
continues to remind us that women and children remain the most 
vulnerable in times of conflict and transition. Heightened awareness of 
such vulnerabilities must be incorporated into all planning for Iraq--
both now and in the future.
    D. Develop a Proactive Strategy. The absence of national human 
rights protection mechanisms in Iraq and the unlikelihood that 
international police, civil servants or human rights monitors will be 
deployed to coincide with the entry of U.S./Coalition forces means that 
military personnel will have to engage directly with the local 
population to foster a stable and secure environment. Reaching out 
quickly to local political, military, religious and community leaders 
is key to establishing the trust needed to manage crisis and revenge. 
Personnel first on the ground must have an understanding of local 
issues including past human rights abuses, factors driving local 
tensions and the political motivation of community leaders. Local 
leaders are key to managing and mitigating a climate of revenge and 
reprisals and must be included in a robust protection strategy that 
emphasizes justice and the rule of law. Confidence and trust must be 
fostered quickly.
    Checkpoints, roadblocks and concertino wire can all limit hostile 
access to vulnerable areas and thus improve security. The duration of 
such security measures, however, must be carefully considered to avoid 
the creation of enclaves and ghettos that harden into segregated 
communities requiring never-ending security resources. In situations 
where there has been great suffering or where tensions are uniquely 
high, military rule may still be the only way to protect the human 
rights of the local population. U.S./Coalition forces must quickly grip 
the prospect of protecting, policing and providing judicial guarantees 
and due process in all or part of Iraq in order to protect civilians 
and prevent a slide into lawlessness. To be effective, such rule must 
be absolutely transparent and must comply with international human 
rights and humanitarian law standards.
    E. Conduct Policing. Currently in Iraq, all policing is conducted 
by hard-line Ba'ath members. The fall of Saddam means the collapse of 
the internal security framework. Until such time as a political 
solution becomes apparent for governing Iraq after Saddam, U.S./
Coalition forces must be prepared to undertake immediate policing 
measures.\14\ Given the disparate skills and tasks of the U.S./
Coalition military, it is not feasible to believe that any soldier can 
undertake policing actions. Accordingly, there will have to be a mix of 
soldiering and policing in its most basic sense. To facilitate this 
difficult task, clear rules of engagement that encompass arrest 
procedures, treatment in detention, management of detention facilities 
and access to detainees by counsel, family members, ICRC etc., must be 
delineated in advance of any military intervention. Knowing how these 
plans will be explained to the local populations must also be thought 
out in advance if confidence is to be built. Looters, killers, thieves 
and other criminals will require arrest and the administration of 
justice. If there are no credible local police, the U.S./Coalition 
forces will be expected to arrest criminals and protect the Iraqi 
public.
---------------------------------------------------------------------------
    \14\ Articles 71-76 Fourth Geneva Convention, Article 75, Protocol 
I [Articles 71-76: Be prepared to provide basic judicial and due 
process guarantees in the aftermath of conflict.]
---------------------------------------------------------------------------
    In this regard ``force protection'' or security guidelines must be 
reviewed. A complicating and limiting factor for forces seeking to 
stabilize Kosovo in the immediate aftermath of the NATO air campaign 
were force protection requirements which limited direct contact with 
local civilians. Some NATO forces moved in two-vehicle convoys, troops 
were heavily protected and armed and rarely conducted foot patrols 
amongst the civilian population, while others wore less armor and 
utilized foot patrols extensively to gain the confidence of the local 
population. Some forces rented apartments and deployed troops along 
ethnic fault lines within cities and villages and were thus better 
positioned to manage and respond to local tensions. The lack of a 
robust and consistent response by the international community to 
policing and judicial voids contributed to the lawlessness that 
enveloped Kosovo during the first six months after the war--the effects 
of which continue to be felt in reconstruction efforts.
    F. Bridge Judicial Vacuums. As uncomfortable as this topic is for 
both civilians and the military, U.S./Coalition must prepare to roll 
out some kind of transparent and fair process to administer justice in 
the months following a military intervention if a judicial vacuum 
exists. Emergency judicial systems can include the selection and 
appointment of panels of local judges and prosecutors who can be 
transported around the country to ensure the due process of those 
detained by U.S./Coalition forces. This model was used in Kosovo, 
albeit with varying degrees of success due to confusion over the 
applicable law, the bias of some local judges and a limited focus on 
pre-trial detentions and the investigation of criminal complaints. 
International judges and prosecutors were eventually brought to Kosovo 
to try the more contentious human rights violations and ethnically 
related hate crimes.
    East Timor and Cambodia provide other models with more direct 
international administration. Given that U.S./Coalition forces will 
likely detain members of the Iraqi security forces, members of the 
Ba'ath regime and others who seek to destabilize the country, there 
will be an immediate need for some system to administer justice. 
Civilians caught up in revenge, reprisals, plunder or opportunistic 
crimes must also be detained by U.S./Coalition forces in the absence of 
local police and judicial structures. Knowing in advance what the 
applicable law will be for such behavior will facilitate the re-
establishment of the rule of law. Prudent planning in this regard 
should consider the potential involvement of some international 
jurists/prosecutors to prevent the appearance of bias and prejudice by 
local structures tainted by Saddam's regime. Ensuring U.S./Coalition 
military logistical support to jump-start the judicial system can also 
be planned in advance. This includes protecting courthouses, minimizing 
damage to judicial offices, providing essential materials needed to 
administer justice (generators, computers, paper etc.), salaries and 
personal security for judges and prosecutors.
    G. Deal with Past Abuses. As soon as possible after a regime 
change, discussion and plans for dealing with past human rights abuses 
and humanitarian law violations must be made available to the Iraqi 
people. Removing collective guilt and assigning individual 
responsibility for past crimes against Iraqis is an essential step for 
rebuilding the country and reconciling disparate groups. Failure to 
fulfill this transitional justice need or glossing over its importance 
will leave open space for frontier justice and local reprisals.
    H. Provide Transparency. In the event of a regime change, Iraqis 
will need to know quickly and publicly what the policies will be for 
dealing with past crimes, current and future detentions and the 
administration of justice while civilian structures reorganize--and 
some time, we know, will be required to vet and regroup key government 
functions. U.S./Coalition forces should also put in place a civilian 
complaint procedure or ombudsman-like system to allow Iraqis to lodge 
concerns and comments regarding the behavior of U.S./Coalition military 
personnel. Despite the complexities, such a mechanism can serve as a 
critical confidence building measure for local community leaders and 
all Iraqis.
    I. Curb Discrimination. As reformed or new civilian authority 
begins to take shape, human rights violations may emerge in 
bureaucratic patterns of abuse. Civilians may be evicted or prevented 
from returning to their property through quasi-legal means such as the 
promulgation of discriminatory laws or the manipulation of land/
property records. Access to hospitals, schools and other social 
services can be hindered by ethnic discrimination or membership in a 
vulnerable group. Such restrictions can lead to further population 
displacements. Remedial measures for such behavior must be available to 
prevent the institutionalization of discrimination. Judicial processes 
best fulfill this need.
    J. Secure Property. Water installations, irrigation works, dams, 
dikes, agricultural areas for crop production, food stocks, livestock, 
oil fields and the related infrastructure, hospitals, power plants etc. 
must all be secured for the benefit of the population. It is critical 
to protect these assets from attack during an intervention and then to 
secure them quickly for stabilization.\15\
---------------------------------------------------------------------------
    \15\ Article 53 of the Fourth Geneva Convention, Protocol I 
[Cultural sites, places of worship and other objects deemed 
indispensable to the survival of the civilian population must be 
protected by U.S./Coalition forces. This should also include places 
where documentation essential to preserving the rights of the Iraqi 
people may be housed.]
---------------------------------------------------------------------------
    Years of forced displacement have rendered millions of Iraqis 
without access to their homes and property. Untangling and resolving 
property disputes and conflicting claims will affect the rights of 
returning refugees and the internally displaced. To facilitate this 
process, it is critical that property records be located and secured 
quickly by U.S./Coalition forces. Courthouses, police stations and the 
offices of security forces often contain documentation essential for 
clarifying property interests and the status of those displaced.
    K. Protect Detainees and the Missing. Political detainees and 
issues relating to missing persons will also require fast attention and 
a planned response. When Saddam opened the prisons a few months ago, he 
left an unknown number of Iraqis in detention as ``enemies of the 
state'' and ignored the pleas of family members searching frantically 
for their missing kin. Quickly the affected populations will demand 
action and answers from U.S./Coalition forces on these issues.

                             V. CONCLUSION

    It is the conclusion of the International Rescue Committee that 
while much planning regarding the above issues has occurred very few 
resources have been spent to operationalize the plans. The lack of 
preparedness for the humanitarian consequences of war stands in stark 
contrast to the military state of readiness. It is urgent that all 
available resources be marshaled as well for this humanitarian 
response.

    The Chairman. Before I call upon you, Dr. Marr, let me make 
this announcement: On behalf of the committee, we understand 
that at 10:30, which is not far away, a rollcall vote will be 
held on the Senate floor on a motion to instruct the absent 
Senators to come to the floor. It is a parliamentary vote but, 
nevertheless, one in which we shall all want to participate in.
    At 11 o'clock, there is to be a meeting on the Senate 
floor, in which all members have been requested to discuss the 
advise-and-consent provisions as they pertain to judicial 
nominations; and the Vice President will be in the chair, I am 
advised.
    Dr. Marr, after you commence your testimony, will you 
please go through to the conclusion. I will be here to hear 
you, and probably other members will be here as well.
    The Chair will then recess the hearing to vote, and will 
then return, and other members may do the same; but we will 
continue to proceed with the hearing. This is a very important 
hearing on behalf of the Senators and the American people.
    And so at that point, as we return, we will have a round of 
questions from Senators as they are able to participate.
    Dr. Marr, would you please proceed?

  STATEMENT OF DR. PHEBE MARR, FORMER SENIOR FELLOW, NATIONAL 
               DEFENSE UNIVERSITY, WASHINGTON, DC

    Dr. Marr. Well, I, too, would like to thank you, Mr. 
Chairman, and the committee for inviting me again. And I hope I 
can add something to what I have said previously.
    Like Mr. Schwartz, I have five questions that I have asked 
myself and would ask you about this venture, and I realize that 
my task is to attempt to look at this from the Iraqi 
perspective, as best I can.
    I have been asked to address some of the issues the United 
States will face in the aftermath of this military action. 
Obviously the task is going to be affected by what military 
action is taken, how successful it is going to be, and what 
kind of destruction might ensue.
    It is also clear that humanitarian efforts will be needed 
in the immediate aftermath of the war. I did not intend to 
address those issues; they are not my focus.
    I am assuming here that it is the day after, the allies are 
in control of Iraq, and that such humanitarian efforts are 
underway.
    Here are the five fundamental issues and problems that I 
see the United States facing in the transition period as it 
attempts to establish a new regime. First, I would make a 
distinction between two tasks here, governance and 
administration. By governance I mean the political process of 
selecting leaders, mobilizing public support, adequately 
representing various elements of the population, and 
implementing policy. That is going to be a long-term effort and 
very difficult job in Iraq.
    By administration, I mean the daily business of running 
government and providing services. As I say, the first is going 
to be difficult, probably the most difficult task facing the 
United States in Iraq.
    The second should be relatively easy, if all goes well. 
Unlike many other developing countries, Iraq does have a 
functioning bureaucracy capable of running most services in the 
country. After the United States has vetted top levels of this 
administration, the political levels, the United States should 
plan to use this bureaucracy, which is the repository of much 
of Iraq's skilled middle class, to run much of the country.
    These Iraqis should constitute the new face of the post-
Saddam administration. Nonetheless, I think we need to be aware 
of some difficulties in using this bureaucracy.
    Iraq is over-bureaucratized. In its heyday, possibly a 
third of the population, exclusive of the military, worked for 
the government, directly or indirectly. In Iraq's command 
economy, government controlled the education system, much of 
the media, all large and most medium-sized industry, as well as 
providing the usual government services. We all know about a 
large military and a numerous and ubiquitous security service. 
This service should be reduced.
    In any event, in the post-gulf war Iraq, under sanctions, 
these institutions have already shrunk. The Ba'ath party cadre, 
which used to constitute about 10 percent of the population is 
now down to about 2 percent. The military, of course, has been 
drastically downsized since the gulf war, but is still very 
large.
    The bureaucracy has shrunk as well. Moreover, it is not as 
effective as it used to be. Because of sanctions, most 
bureaucrats, on fixed salaries, often work a second or third 
job, which obviously gives them less time to do the work for 
which they were hired.
    Corruption is now rife in the bureaucracy for much the same 
reason. There are two additional weaknesses of this bureaucracy 
worth mentioning. One is that it is highly centralized. There 
is no tradition of decentralization in Iraq.
    Under the Ba'ath, the civil service has been thoroughly 
cowed by the political leadership. It is not used to--and 
perhaps not even yet--capable of taking much initiative. 
Initiative is going to be in short supply.
    And second, we want to keep in mind that this central 
bureaucracy does not function in the Kurdish area of the north, 
which has developed its own administration.
    A second aspect of this first point is governance. The 
establishment of some kind of representative political system 
capable of formulating and implementing policy is going to be 
much more difficult. We all know that Iraq has not had such a 
system for decades. The closest it came to a representative 
system was in the last years of the monarchy, before 1958. And 
even then the system did not function very well and was 
overthrown.
    In addition to the absence of democratic practice, the 
multiethnic, multisectarian nature of Iraqi society complicates 
the process. Iraq will need to establish a rule of law, 
including a new court system; obviously a constitution, which 
provides some kind of separation of powers; a functioning 
parliament or representative assembly; a responsive executive; 
and some sort of local government, possibly under a Federal 
system.
    The building of such a system must be undertaken by Iraqis. 
Exile Iraqis, some of them working with the State Department, 
have devoted considerable time and effort to this process, but 
it must now include Iraqis inside Iraq. This is going to take 
time and need help from outside. Most important, as everyone 
today has mentioned, it will require security and a peaceful 
environment while the process is being worked out.
    Iraq has had little experience in local government and 
decentralization--for example, at the municipal, county, and 
state level. This is an area that could be developed with 
considerable benefit for all.
    Decentralization would help address the issue of ethnic, 
sectarian, and regional diversity. It would help develop the 
basis of a more democratic and representative government at the 
grass roots.
    The sooner such local institutions of governance can be 
established, the better. It would also bring Iraqis into the 
new administration and give this administration an Iraqi face. 
And I feel as we move in and occupy the country, government 
could be established established fairly rapidly at the local 
level.
    The second question I would raise here is one I have raised 
before, and that is the issue of finding alternative political 
leadership at the national level for a transitional period 
until the new constitutional structures can be put in place. 
There are two options, an inside option and an outside option, 
if we are talking about Iraqis rather than Americans or the 
international community.
    The outside option is well known. It consists mainly of 
exiled Iraqis--with the exception of the Kurds, of course, who 
are in their own country--who have formed a number of political 
groups with great diversity of views. Their difficulties are 
well known to all of us. They have had difficulty in achieving 
a consensus. They are outsiders, as exiles, whose support 
inside at the moment is unknown.
    And as outsiders coming in, they are likely to be somewhat 
resented by those inside. But they also have some strengths 
which should be used. For the most part, they are more likely 
to be pro-Western and more favorably disposed to U.S. aims and 
goals. They are a known quantity. And they have a better 
understanding of democratic processes, having lived in the West 
for some time.
    A number of them are already in the north, building bridges 
to the new Iraq. The issue is whether they will succeed in that 
and how much support they should be given by the United States.
    The inside option is virtually unknown, since no 
alternative leadership can emerge in Saddam's Iraq. Once the 
top layers of Saddam's regime are removed, we will essentially 
find three pillars of the current regime remaining.
    The first is the kin-and-clan network, which Saddam has 
relied on. This goes well beyond his family and has penetrated 
a number of institutions. In the countryside as well, tribal 
groups have come to hold more authority. Clan politics and clan 
leadership is likely to persist.
    Second, of course, are the institutions of state we have 
mentioned--the party, the military, the bureaucracy, the 
education system. These have been thoroughly Ba'athized. Even 
if the party disappears, the cadre will not.
    And these are the institutions which will be needed to run 
the state. While a few of these Ba'athists will remain loyal to 
Saddam and his family, that is not the problem. The problem may 
be a more deeply ingrained attitude toward power and authority, 
which will persist.
    So, too, will the nationalist attitudes that have been the 
backbone of the Ba'athist ideology. This may be particularly 
true in the media and the education system. I am looking at 
some of their textbooks, and they will require some attention.
    Some de-Ba'athization may be necessary if long-term U.S. 
aims are to be achieved, and this will not be an easy task.
    The third pillar is an economic elite which owes its 
wealth, in large measure, to state patronage. Indeed, there may 
be a temptation to rely on this class for economic development 
and reconstruction, since it will be readily at hand.
    But it seems to me, over the long term, one of the most 
constructive things the United States could do would be to 
separate this economic class from the state and move to the 
creation of a true, and more independent, economic private 
sector.
    It may be easier to support and sustain inside leadership 
in these bureaucratic institutions which may emerge after we go 
into Iraq. But the question and the problem with that is how 
much real change will it represent?
    Ultimately, there is going to be no other solution except 
to marry the insiders and the outsiders in some formula that 
allows some balance.
    The third issue is the nature of the response we are likely 
to find to the United States and even an international foreign 
presence in Iraq. And here I may be saying a few things that 
run a little bit counter to what has been said here.
    While I believe that change will definitely be welcome by 
virtually all of the population in Iraq, the U.S. presence may 
be less welcome among some sectors of the population than 
others. In recent years, especially since the rebellion of 
1991, regional differences are more pronounced--and let me go 
through the regions.
    The south, which is predominantly Shi'a, as you probably 
know, has been neglected. It has seen a shrinkage of 
population. In fact, according to my estimates, possibly as 
little as 30 percent of the population now lives in the south. 
The port city of Basra, once a thriving city and intellectual 
center, has also shrunk in population.
    Basra used to have very strong ties with Kuwait and the 
gulf. Basra and other cities and towns of the south are the 
areas that most need reconstruction and economic revival. Here, 
I think a resuscitation of jobs and services is vital.
    And we should encourage these links with the gulf--
especially Kuwait--to help mend fences between Iraq and that 
country and the GCC.
    In Shi'a area are the religious shrine cities of Najaf and 
Kabala, which will have to be treated with extreme sensitivity. 
While opposition to the regime is deep here, that may not 
equate to welcoming a U.S. or even a Western presence. Iranian 
ties may be strong here as well. It would be helpful to have 
immediate contacts with the clergy in these towns and to 
establish a good working relationship with them.
    They will be interested in more religious freedom, a 
revival of their seminaries, and encouragement of pilgrim 
traffic for the area, which of course, works to their economic 
benefit.
    When we get to the center of the country, the so-called 
Sunni center, we are going to find a mixture; 50 percent, half 
of the Iraqi population now lives in this center, some 30 
percent in the capital. It shows you how much population is 
concentrated there.
    In Baghdad, a large portion of the population is Shi'a, 
living in poor satellite cities around Baghdad. They are 
resentful of the middle and affluent classes.
    The educated classes, of course, are overwhelmingly 
concentrated in Baghdad and its environs. For the most part, 
they should welcome change. They are looking for a return to 
normalcy and participation in the new government.
    In the smaller cities and towns of the so-called Sunni 
triangle, north and west of Baghdad, along the Tigris and 
Euphrates, this is the heartland of the regime, and we may meet 
with some resentment and opposition here. This is the region 
that has benefited from Ba'ath rule, it provides the Ba'ath 
support system, and it will find itself dispossessed.
    It has the most to fear from change. In this area, contact 
with some of the clan and tribal leaders with support for their 
regions could help neutralize whatever opposition there may be.
    In the north, among the Kurds, we have a known quantity: we 
know who they are. We are not going to meet with opposition 
here, but we do face real problems. The Kurds have been 
governing themselves for a decade in the north; and, in recent 
years, have had more prosperity. Their aspirations for 
separatism, as expressed, for example, in their textbooks, are 
clear. Their concept of federalism is somewhat suspect by 
others in Iraq, as well as the Turks.
    Working out a formula that is satisfactory to all will be 
difficult; so, too, will be the status of Kirkuk. The Kurds 
want Kirkuk, with its oil, included in their self-governing 
area.
    The United States also faces the problem of a radical 
enclave around Halabja that has escaped control of the Kurds. 
And in the end, policing the border both with Turkey and Iran, 
disarming the Peshmerga, will also be difficult. The entry of 
the Turks into this region--and possibly the Iranians--would 
only complicate matters.
    While some sort of federalism and a degree of 
decentralization seems called for, the ethnic federalism that 
some Kurds are insisting on may be an enticing prospect 
initially, but it would cause difficulties later on.
    The fourth point is that the United States is going to face 
a paradox in attitudes in Iraq, especially in the center, but 
also in the south. This bears on the issue of the response to 
the forces. Most Iraqis want change and will welcome it; they 
long for a return to normalcy and freedom.
    We will not face opposition to a change of regime, except 
among Saddam's hard core supporters. This should give us a 
honeymoon period, if we move smartly to restore services, 
provide jobs, and get the economy moving. But many of these 
same people are intensely nationalistic. They have a long 
tradition of putting a desire for independence at the top of 
their priorities.
    They are not going to welcome foreign rule and a foreign 
presence for too long. In six months, a year, I think you are 
going to start to see some questions asked and some opposition 
surface.
    That presents us with a dilemma and we will have to make 
tradeoffs. To get real political and social change, a 
constitutional regime, for example, will take time. But the 
longer we stay, the more we risk generating national resentment 
and opposition.
    On the other hand, if we turn over to existing elites 
rapidly, we will get less change, including satisfaction of our 
own interests. We need to be aware of this potential for 
opposition and take measures to neutralize it.
    Here are some suggestions of how to do that: restore 
normalcy and services as soon as possible; get Iraqis in the 
administration and in leadership positions up front as soon as 
possible, sooner rather than later; shift to indirect rule, 
with Americans behind the scenes rather than in front, as soon 
as possible. Timing is going to be very critical. The length of 
the transitional period, how fast we can move to a constituent 
assembly will be critical.
    It is very important to state our intent to turn over the 
administration to Iraqis in some future timeframe and clearly 
outline the direction we are going in, in terms of policy, and 
stick to it.
    Incidentally, the British experience during the mandate is 
very instructive here. They originally brought in a direct 
administration; they put few Iraqis in the administration. The 
result was the 1920 revolt, very costly for the British. After 
this they learned their lesson and switched to indirect 
administration. Even so, they met with constant nationalist 
opposition for their entire time there.
    Last, there is the issue of international cooperation in 
the administration of Iraq. Most of the benefits of this 
internationalization, such as burden sharing, would accrue to 
the United States. And I certainly favor bringing in the 
international community.
    The United States will need help in rebuilding Iraq and it 
should try to get it from the international community. But I 
have asked myself, how much this will help giving us legitimacy 
inside Iraq. U.N. and international cooperation might work 
better in some areas than others. This would certainly be true 
of humanitarian efforts; rebuilding of the economy and 
providing some services.
    I do not know whether an international force or cooperation 
from the international community in providing security, 
preventing retribution will go down very well. I am not sure we 
are going to face enormous amounts of anti-Americanism to start 
with.
    The local population expects U.S. forces to be present and 
will respect U.S. force. It wants law and order kept. We want 
to avoid something that looks like an international occupation 
and a new mandate.
    The Iraqis, in my experience, are a very proud people. They 
will resent being put in the category of, say, East Timor, 
which is a very extreme example.
    And the last point that I would like to make is to urge 
putting Iraqis in charge as soon as possible. The Iraqis do 
want change. They want us to stay the course. They want help 
but they are going to expect to run their own country and soon.
    [The prepared statement of Dr. Marr follows:]

   Prepared Statement of Dr. Phebe Marr, (Author, Specialist on Iraq)

                   ESTABLISHING A NEW REGIME IN IRAQ

    I have been asked to address some of the issues the U.S. will face 
in the aftermath of military action in seeking to establish a new 
regime in Iraq. Obviously this task will be affected by whatever 
military action is taken, how successful it has been, and what kind of 
destruction has ensued. It is also clear that humanitarian efforts will 
need to be undertaken in the immediate aftermath of the war. These are 
not my focus. I am assuming here that the U.S. and its allies are in 
control of Iraq and that such humanitarian efforts are underway.
    I would like to point, here, to five fundamental issues/problems 
the U.S. will face in the transition period as it attempts to establish 
a new regime, and make a few suggestions on resolving them.
    First, I would make a distinction between two tasks: governance and 
administration. By governance I mean the political process of selecting 
leaders, mobilizing public support, adequately representing various 
elements of the population, and implementing policy. By administration, 
I mean the daily business of running government and providing services. 
The first is going to be extremely difficult in Iraq--indeed the most 
difficult task facing the U.S.; the second should be relatively easy, 
if all goes well.
    Unlike many other developing countries, Iraq does have a 
functioning bureaucracy capable of running most services in the 
country. After the U.S. has vetted the top levels of this 
administration--the political levels--the U.S. should plan to use this 
bureaucracy, which is the repository of much of Iraq's skilled middle 
class, to run the country. These Iraqis should constitute the new face 
of the administration.
    Nonetheless, the U.S. needs to be aware of some difficulties in 
using this bureaucracy. Iraq is over-bureaucratized. In its heyday, 
possibly a third of the population exclusive of the military, worked 
for the government, directly or indirectly. In Iraq's command economy, 
government controlled the education system, much of the media, all 
large and most medium sized industry as well as providing the usual 
government services. In addition, there has been a large military and 
numerous and ubiquitous security services. The four major elements of 
administration are the Ba'ath Party, the military, the various security 
services, and the bureaucracy.
    In the post-Gulf war period under sanctions, these have shrunk. The 
party cadre, which used to constitute 10 percent of the population is 
now down to about 2 percent. The military, while still large, has been 
drastically downsized, from about 1 million in 1990 to about 400,000. 
So, too has the bureaucracy. Moreover, because of sanctions, the 
bureaucracy is much less effective than it used to be. Most 
bureaucrats, on fixed salaries, often work a second or third job to 
make ends meet, thus giving them less time to do their regular job. For 
the same reasons, corruption is now rife. There are two additional 
weaknesses of this bureaucracy worth mentioning. One is that it is 
highly centralized; there is no tradition of decentralization in Iraq. 
And, under the Ba'ath, it has been thoroughly cowed by the political 
leadership. It is not used to--possibly not yet capable--of taking much 
initiative. Second, this bureaucracy does not function in the Kurdish 
area of the north, which has now developed its own administration.
    Governance--the establishment of a representative political system 
capable of formulating and implementing policy is going to be much more 
difficult. Iraq had not had such a system for decades. The closest it 
came to such a system was in the last years of the monarchy and even 
then the system did not function well and was overthrown. In addition 
to the absence of democratic practice, the multi-ethnic, multi-
sectarian nature of Iraqi society complicates the process. Iraq will 
need:

  <bullet> The establishment of a rule of law, including a new court 
        system.

  <bullet> A constitution which provides some separation of powers.

  <bullet> Functioning parliament or representative assembly.

  <bullet> The establishment of a responsive executive.

  <bullet> Some sort of local government, possibly under a federal 
        system.

    The building of such a system must be undertaken by Iraqis; exile 
Iraqis have already devoted considerable time and effort to this 
process, but it must now include Iraqis inside Iraq. This will take 
time and need help from outside, most importantly security and a 
peaceful environment while the process is being worked out.
    Iraq has little experience in local government or 
decentralization--at the municipal, country or state level. This is an 
area that could be developed with considerable benefits for all. It 
would help address the issue of ethnic, sectarian and regional 
diversity and it would help develop the basis of democratic and 
representative government at the grass roots. The sooner such local 
institutions of governance could be established, the better. It would 
also bring Iraqis into the new administration and give this 
administration an Iraqi face.
    A second issue is finding alternative political leadership at the 
national level for a transitional period until new constitutional 
structures can be put in place. There are two options: the inside 
option and the outside option.
    The outside option is well known. It consists mainly of exile 
Iraqis (with the exception of the Kurds) who have formed a number of 
political groups with a great diversity of views. Their difficulties 
are well known. They have had difficulty achieving consensus. And they 
are outsiders whose support inside is unknown. As outsiders they are 
likely to be resented by those inside. But they also have some 
strengths which should be used. For the most part, they are likely to 
be pro-Western and more favorably disposed to U.S. aims and goals. They 
are a known quantity. And they have a better understanding of 
democratic processes for having lived in the West. A number of them are 
already in the north building bridges to the new Iraq. The issue is 
whether they will succeed in that effort and how much support they 
should be given by the U.S.
    The inside option is virtually unknown, since no alternative 
leadership can emerge in Saddam's Iraq. Once the top layers of Saddam's 
regime are removed, we will find three ``pillars'' of the current 
regime. (1) The kin and clan network on which Saddam has relied. This 
goes well beyond his family and has penetrated a number of 
institutions. In the countryside as well, tribal groups have come to 
hold authority. Clan politics and clan leadership is likely to persist. 
(2) The institutions of state: the party; the military; the bureaucracy 
and the education system. These have been thoroughly Ba'thized. Even if 
the party disappears, its cadre will not. These are the institutions 
which will be needed to run the state. While few will remain loyal to 
Saddam or his family, deeply ingrained attitude toward power and 
authority will persist. So, too, will the strong nationalist attitudes 
that have been the backbone of Ba'thist ideology. This may be 
particularly true in the media and education system. Some de-
Ba'thization may be necessary if long term U.S. aims are to be 
achieved, but this will not be an easy task. (3) An economic elite 
which owes its wealth, in large measure, to state patronage. Indeed, 
there may be a temptation to rely on this class for economic 
development and reconstruction since it will be readily at hand. One of 
the most constructive things the U.S. could do, however, would be to 
separate this economic class from the state and move to the creation of 
a true, and more independent, private sector.
    It may be easier to support and sustain the development of 
``inside'' leadership which may emerge anyway, but the problem is 
whether it will represent a real change. Ultimately, there is a need to 
marry the insiders with the outsiders.
    A third issue is the nature of the response to the U.S./foreign 
presence in Iraq. While change will definitely be welcome by virtually 
all the population in Iraq, the U.S. presence may be less welcome among 
some sectors of the population than others. In recent years, especially 
since the rebellion of 1991, regional differences are more pronounced 
in Iraq.
    The south, which is predominantly Shi'ah has been neglected. Seen a 
shrinkage of population, particularly the port city of Basra, once a 
thriving city and intellectual center. It used to have strong ties with 
Kuwait and the Gulf. Basra--and other cities and towns of the south, 
need reconstruction and economic revival. Here a resuscitation of jobs 
and services is vital. Links with the Gulf--especially Kuwait--should 
be encouraged to help mend fences with that country and the GCC. The 
religious shrine cities of Najaf and Karbala will have to be treated 
with sensitivity. While opposition to the regime is deep here, that may 
not equate to welcoming a U.S. or Western presence. Iranian ties may be 
strong as well. Contacts with the clergy will be essential to establish 
a good working relationship. They will be interested in more religious 
freedom, a revival of their seminaries, and more pilgrim traffic from 
which the area derives economic benefit.
    In the Center, we will find a mixture. Fifty percent of Iraq's 
population lives here, some 30 percent in the capital. In Baghdad, a 
large portion of this population is Shi'ah and poor, resentful of the 
middle and affluent classes, often--but not entirely--Sunni. The 
educated classes are overwhelming concentrated in Baghdad and its 
environs. They should, for the most part, welcome change. They are 
looking for a return to normalcy and participation in the new 
government. In the smaller cities and towns of the sunni triangle--the 
heartland of the regime--we may meet with resentment and opposition. 
This region is the one that has benefited from Ba'th rule--it provides 
the Ba'th support system-and it will find itself dispossessed. It has 
the most to fear from change. In this area, contact with some of the 
clan and tribal leaders with support for their regions may help 
neutralize opposition.
    In the north, among the Kurds, we have a known quality. Here we are 
not going to meet with opposition, but we do face real problems. The 
Kurds have been governing themselves for a decade in the north, and in 
recent years, have had more prosperity. Their aspirations for 
separatism--as expressed in their text books for example--are clear. 
Their concept of federalism is suspect by others in Iraq as well as the 
Turks. Working out a formula that is satisfactory to all will be 
difficult. So, too, will the status of Kirkuk.The Kurds want Kirkuk, 
with its oil, included in their self-governing area. The U.S. also 
faces the problem of the radical enclave around Halabja and has escaped 
the control of the Kurds. And in the end, policing the border, 
disarming the peshmerga, will also be difficult. Entry of the Turks--
and possibly the Iranians--will only complicate matters. While some 
sort of federalism and a degree of decentralization seems called for, 
the ``ethnic'' federalism that some Kurds are insisting on may be 
enticing initially, but cause difficulties later on.
    Fourth, the U.S. will also face a paradox in attitudes in Iraq, 
especially in the center, but also in the south. Most Iraqis want 
change and will welcome it by any means, including military action and 
occupation. They long for a return to normalcy, and some freedom. We 
will not face opposition to a change of regime, except among Saddam's 
hard core and the supporters who do not want a change of status. This 
should give us a ``honeymoon'' period, if we move smartly to restore 
services, provide jobs and get the economy moving. But many of these 
same people will be intensely nationalistic. They have a long tradition 
of putting a desire for ``independence'' at the top of their 
priorities. They will not welcome foreign rule and a foreign presence. 
For it may not take long--six months, a year--for that opposition to 
surface. This presents us with a dilemma and we will have to make trade 
offs. To get real political and social change--a constitutional regime, 
for example--will take time. But the longer we stay, the more we risk 
generating national resentment and opposition. On the other hand, if we 
turn over to existing elites--the less change we will get, including 
satisfaction of our interests. We need to be aware of this potential 
opposition and take measures to neutralize it.

  <bullet> Restoring normalcy/services.

  <bullet> Get Iraqis in the administration/in leadership positions 
        sooner rather than later.

  <bullet> Shift to ``indirect rule''--advisors, behind the scenes--as 
        soon as possible.

  <bullet> Timing--do more in a shorter period of time.

  <bullet> State our intent to turn over to Iraqis in some time frame 
        and outline the direction of policy and stick to it.

    The British experience is instructive here. They began their 
occupation during World War I with direct rule. Col. Arnold Wilson, of 
the India Office school of thought, brought Indians, the rupee. Few 
Iraqis held posts. This generated the 1920 rebellion which was 
widespread and costly for the British. The British then shifted to 
indirect rule. They governs through a treaty, an ``elected'' monarch, a 
constitutional system, advisors. They used RAF to keep order and 
developed an indigenous army. They put Iraqis in government. Even so, 
they met with constant nationalist opposition, and gave Iraq 
``independence'' in 1932.
    Lastly there is the issue of international cooperation in the 
administration of Iraq. Most of the benefits of this 
internationalization, such as burden sharing, would accrue to the U.S. 
The U.S. will need help in rebuilding Iraq and should try to get it 
from international community. It is less clear how much this will help 
with ``legitimacy'' inside Iraq. UN, or other international cooperation 
might work better in some areas than others. Certainly this would be 
true of humanitarian efforts; rebuilding of the economy and providing 
some services. I don't know how an international force to provide 
security, prevent retribution, will go down. Local population expects 
and will respect U.S. force. It wants law and order kept. We will want 
to avoid something that looks like an international occupation; a new 
``mandate''. The Iraqis are a very proud people. They will resent being 
put in the category of East Timor or Kosovo. In any case, we should 
work to keep the neighbors out--except to undertake legitimate economic 
activity, and to put Iraqis in charge as soon as possible. Iraqis will 
expect to run their own country, and soon--not hand it over to 
foreigners.

    The Chairman. Well, thank you very much, Dr. Marr, for a 
tremendous educational experience, I think, for each one of us. 
Likewise, the blinding complexity and cross-currents that you 
have mentioned, I think, are obvious to all of us too.
    Let me mention what may now be obvious, that there will not 
be a rollcall vote at 10:30 on the Senate floor, but for 
Senators who are anxious about it, let me give reassurance. The 
meeting on the floor at 11 on advise and consent will continue, 
and that is still going to happen at 11.
    Likewise, I would just mention that friends at the Pentagon 
have advised the Chair that the Pentagon began a background 
briefing at 10 a.m. this morning on plans for reconstruction 
and humanitarian assistance in Iraq. I have no idea who is 
conducting the briefing. It is only for the press but 
presumably the press will be forthcoming with whatever occurs 
at the briefing.
    Later on in the day, Secretary Rumsfeld and General Myers 
will be holding their daily briefly ceremonies at 1:30, and so 
there may be opportunities there. You cannot be everywhere, but 
you are, at least, at a point where we are all learning a great 
deal this morning and we appreciate that.
    We will proceed with questions with a 7-minute time limit 
and have rounds.
    Let me say, first of all, as I start my questioning, that 
the accounting complexities of this situation are difficult but 
important. On the one hand, we have had testimony from Mr. 
Schwartz and Dr. Adams, as they have tried from their 
experience as people who have been in the budgetary services of 
our country to estimate some dollar amounts, which are very 
large.
    And likewise most of the panel, maybe all of you, have 
indicated these amounts might be recurring for several years, 
that this is not a short-term requirement, although perhaps the 
up-front expenses in the first year would be abnormally high as 
we are finding others to share the burden.
    At the same time, the accounting for the fallout of the 
tragedy of September 11, 2001 is a daunting experience. The 
immediate cost of the tragedy in New York City and the Pentagon 
are important for us to understand. What are called the 
frictional costs for the American economy--that is, the cost 
for all the security apparatus, for the decline in our 
airlines, the hotel industry, the restaurant industry, 
additional taxation--these costs must be considered. Indeed, 
many economists would say that, although the economy may have 
been in a downward slope before the tragedy, what occurred on 
September 11 and its aftermath accelerated economic downturn in 
a big way, and maybe still does.
    So, a part of our predicament accounting-wise is that we 
are about to discuss a budget in which a deficit of over $250 
billion is predicted and with the thought that in the event 
that there are hostilities in Iraq, a supplemental 
appropriation debate will be commencing almost immediately, 
adding tens of billions of dollars to that amount.
    OMB, with a very doleful forecast, suggests that the 
American Government could be in deficit for a decade. Not all 
of the forecast is attributed to September 11, but at the same 
time, a lot of it is, because life changed thereafter including 
the accounting fallout.
    Now, one can say, ``Well, do not lay all that on Iraq 
alone. After all, al-Qaeda is elsewhere, so may be other 
terrorist organizations.'' Fair enough. This is an important 
proposition, to try to discuss up front the costs and burdens, 
and how we are going to stabilize; and the rest of the world 
with Europe in recession, the Japanese still in recession. 
Where are the sources of growth in the midst of this 
instability in the war against terrorism or the specific facets 
of the Iraqi conflict?
    Second, it just seems to me we have to grapple with the 
whole problem of failed states. And many of you as scholars are 
discussing this problem, that is, if there are states that do 
not work very well or not at all, these are often harbors for 
al-Qaeda cells or other cells. Even in a state that has 
strengths, Pakistan, the search for Osama bin Laden goes on 
there. Somebody was found there the other day, of great 
consequence.
    The inability to govern, to have functioning institutions 
this is reoccurring not only in the Middle East, but in Africa, 
and potentially even in South America, as we finally will take 
a look at those situations. It is very difficult.
    And the other side of the coin is that our Nation has not 
been much interested in the so-called nation-building business. 
Perhaps, if it were renamed ``successful states'' or something 
of this sort, we would feel better about it, but we have not 
felt very good about it.
    And all of the costs flowing from that are very, very 
substantial. So this is still a new business for us, even given 
Bosnia, Kosovo, and the work that we are doing in Afghanistan, 
which we have been trying to explore in this committee.
    And now you are talking about a very big extension of these 
efforts; many years, billions of dollars, American commitment, 
complex relations with a country that has a history of many 
proud people. I would just say that even if we were doing this 
several years in advance of potential military action, it would 
be difficult to get it right, for anybody who is President, 
administrator, or what have you.
    At the present time, we really are going to have to 
understand--and I do not mean to quibble about this--that this 
is sort of an all-hands evolution. The Pentagon office has some 
coordination; meetings are going on there frantically. Some of 
you may be involved in those meetings from time to time and 
contribute to them.
    Other nations have been involved in some of the meetings, 
and it is probably helpful to get a cross-fertilization of 
questions and experiences from others. As we discovered in this 
committee, this all started about 6 weeks ago. The purpose of 
our venture today is to understand how complex this is, how 
difficult it is going to be for anybody, but to understand that 
this responsibility is almost upon us--unless the world unites, 
Iraq takes a different view, and we are spared military 
conflict and war, which is still a possibility.
    I will share that I received a call from Secretary Powell 
yesterday about noontime. He was reviewing the morning's work, 
ad seriatim, as he is working with the representatives of 
Security Council people. We have reviewed the arguments of 
people that we know. I was asked to make calls. I suspect other 
Senators have been asked to do that. This really is an all-
hands effort to try to make our diplomacy work.
    In any event, I have pretty well exhausted my time just in 
analyzing the problem, but let me ask any one of you what you 
can say to us about the whole problem of nation-building? How 
do we speak to the American people about it, because we said up 
front that we needed to talk about the cost, which is pretty 
daunting. That is a good reason not to get involved in nation-
building, because as you have suggested, that means tradeoffs 
of other things we want to do for Americans, such as health 
care, education for our children or for our adults, or for that 
matter, postponement of infrastructure in this country while we 
are concerned about repairing the damage in another.
    But address why our own security, our own safety in the 
world, may be dependent upon successful states; and not only 
how do we do this, but how do we enlist other nations 
throughout the world to understand that their security also 
depends upon successful states, on creating functioning places 
that work.
    Have any of you done work in this area? Probably all of you 
have. Mr. Schwartz, would you care to comment on that?
    Mr. Schwartz. Well, Mr. Chairman, the main point I infer 
from your comments is that this is an enormous undertaking. The 
money is beyond what we would ever have expected; but, in fact, 
it is cheap at the cost.
    That is essentially what you are saying--or at least what I 
inferred from your comments, which causes me only to reaffirm 
my initial point: that the President needs to be speaking about 
this commitment to the American people.
    My articulation of the costs was not designed to strike 
fear in the hearts of people and cause them to say, ``OK. We 
should not engage in the post-conflict exercise.'' Rather it 
was designed to emphasize that it is all the more important for 
the President to make the case. The President clearly believes 
this post-conflict exercise is worth doing, but he has got to 
be speaking to the American people and making the very same 
points that you were making; he has got to be making them more 
than simply in a line in a speech--such as the other night, 
when he said, we will help the Iraqis to rebuild their society. 
That is great, but there has got to be several paragraphs below 
that statement, with details.
    In terms of the nation-building and the success or failure 
thereof, I think we have done better than most have given us 
credit for. The Balkans is an example of ``the dog that does 
not bark.'' Although illegality is not absent from the Balkans, 
basically the American effort in the Balkans, I would argue, 
has been largely successful; not an overwhelming success, but 
it is an effort in nation-building which has had considerable 
success. And as a result, we have avoided many, many problems 
that we would otherwise have confronted.
    The Chairman. Thank you.
    Dr. Adams.
    Dr. Adams. Mr. Chairman, I think you have put your finger 
right on the most difficult question that we face here. There 
is a kind of an irony to having had the perception for a couple 
of years that nation-building was not the agenda of this 
administration to now have the sense that we are about to 
embark on one of the biggest exercises in nation-building we 
have ever undertaken.
    And that is going to pose a huge dilemma as you have quite 
rightly structured it for the taxpayers, because the gist of my 
testimony is that it is going to take a long time. And gist No. 
2, if you will, is that we are going to require help, because 
the full burden of this exercise cannot rest on the United 
States. And as Dr. Marr's testimony suggests, if it does, it is 
not as likely to be as well-received in Iraq as if we have 
substantial international participation.
    This is a big deal. This is not a small deal. It does 
strike me that the planning for this big deal did start rather 
late and is still very much at a preliminary stage right on top 
of what may be hostilities. But it is clearly the sense of the 
administration--I think the President has communicated this, 
that they have very ambitious goals for the future of Iraq that 
go very quickly to the installation of some more democratic 
form of government in Iraq.
    I am perhaps somewhat more skeptical than Mr. Schwartz 
about our ability to carry this exercise off in any near-term 
timeframe. The history of the 20th century is replete with 
failed efforts to try to create democracies in areas where the 
soil is not terribly fertile for that exercise.
    This is a country, as Dr. Marr suggests, that has a long 
history of authoritarian and clan governments but absolutely no 
detectable history of serious democratic governance.
    So, what that means is it is going to take a long time. It 
is a big deal. It will take a long time. It will take a lot of 
money. It will require substantial international participation 
and a certain amount of finger-crossing to hope that the 
exercise comes off.
    It is critical to the long-term success of our goal of 
achieving stability in the region and critical to the other 
goal that you mentioned, which is achieving a more stable world 
with respect to terrorism. If this exercise fails and Iraq 
becomes a failed state, and it is not now a failed state, in my 
judgment--if it becomes a failed state after we have succeeded 
in removing Saddam Hussein, then the risks for terrorism and 
the other expenditure centers that you point to the cost of 
fighting the war on terrorism internationally; the cost of 
homeland security could increase for us.
    So, there is now a very high level of symbolic importance 
to the success of this exercise in Iraq.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Well, I do not want to interrupt, because I 
think it is a very fundamental question. Why do we not just 
continue and ask the other two witnesses if they would like to 
comment on Senator Lugar's question?
    The Chairman. Very well.
    Ms. Mitchell.
    Ms. Mitchell. I think with the exception of natural 
disasters, humanitarian crises are generally the result of 
failed states or states which are very close to failing and are 
unable to protect the citizens.
    I am side-stepping the issue of the justness of the war 
with regard to Iraq. The obligations of this country are pretty 
clear in a day-after scenario, which are the Geneva 
Conventions. The United States has stated its intent to 
occupy--it is a cold war term, I know, but nevertheless, I 
think the meaning is that we have responsibilities as a nation, 
should a military intervention be undertaken with regards to 
Iraq.
    The humanitarian crises, which could befall Iraq in a day-
after scenario could, indeed, be extremely serious if the 
security framework collapses.
    The Chairman. Dr. Marr.
    Dr. Marr. I do not think we should be quite so pessimistic. 
We tend to keep pointing out all the negatives.
    I would say two things about Iraq that perhaps do not apply 
to other failed states. Since the gulf war, for which we had 
some responsibility we have unintended outcomes, particularly 
in the north, partly as a result of a humanitarian crisis. Iraq 
is a failing state.
    I agree that it has not failed yet. But if you look at the 
north, you see, exactly what we are talking about, lack of 
control of borders, lack of control of territory. And we have a 
little pocket of territory right up there, which is worrisome.
    The longer we leave Iraq in the current state, the more it 
is going to fail. It has not yet failed; it is still revivable. 
So to me, pulling the plug and saying, ``Well, what comes after 
is going to be worse than went before,'' is not acceptable. In 
other words, putting it off is going to be worse than taking 
care of it now.
    Second, although I recognize resources are going to have to 
be put into Iraq and it is going to take some time to revive 
the oil industry, we know that it has oil resources.
    I am less pessimistic about the financial side of this over 
the long term. Iraq has a very energetic population. They do 
have oil resources and, within a reasonable period of time, 
they should not be on the dole at all.
    What this is going to require is a long-term effort in 
human resources and a political effort to do it right. That is 
going to be the cost, I think, more than a burden to the 
budget.
    The Chairman. Thank you very much. Thank you, Senator Dodd.
    Senator Dodd. No. Thank you all and that is excellent.
    I think Senator Lugar asked the pivotal question. I guess I 
am at a juncture here. My questions will work off an 
assumption. I do not really like the assumption I am about to 
make, but let us for the sake of discussion, make it, and that 
is that the war has happened, that we have--whatever time it 
has taken--hopefully very short--that we have ``prevailed 
militarily.'' And it is now a question of what will we do.
    And I would like to use the opportunity of your presence 
here to sort of try to be optimistic about this and talk about 
what we ought to be doing in order to minimize the costs here, 
to maximize the participation of others, principally to see to 
it that the innocent civilian populations and the people of 
Iraq who deserve a lot better than they have been getting 
certainly under Saddam Hussein and what they might be getting 
if we neglect the aftermath here, might have an opportunity of 
achieving. So I would like to ask some very specific questions 
about how we might do this well, or at least a lot better than 
appears to be we are doing at this juncture.
    So let me begin by something as basic as this: First of 
all, what about the office? There has been this discussion here 
about the location of the Office of Reconstruction and 
Humanitarian Assistance in the Pentagon. Comment, if you would, 
about the wisdom of this, as opposed to, I guess normally in 
times past, this would be at the State Department or USAID or 
some other venue other than the military venue--or does the 
military venue in this case make some sense?
    I do not know if we want to rule it out of hand as a bad 
idea that we have had examples in the past historically. I 
accept, Dr. Adams, your conclusion that we have not done 
terribly well in building these states. The thoughts that came 
to mind immediately were sort of Korea and Japan. Now, they 
were longer in view historically and we spent a lot of time 
working at it, but I would argue that both those countries did 
not have much of a history of democracy. And yet because of our 
persistence and our involvement, our institution-building, our 
building of human institutions, Dr. Marr, that you point out, 
resulted in two pretty strong democracies today as a result of 
a half century of commitment. So, there are examples where it 
can work.
    But tell me, first of all, what do you think about the idea 
of having the Office of Reconstruction come out of the Pentagon 
rather than out of a non-military base? I do not know who 
feels--let us start with you, Mr. Schwartz.
    Mr. Schwartz. Well, let me just answer your first question 
directly. I would have--if I were in charge, I would have done 
it differently. But I think it is a credible decision, and it 
is one that the administration should work with, and others 
should try to support it.
    Let me just say one advantage of it is unity of command. 
You have got the office and if they deploy, the head of that--
or the civil administrator--reports to the combatant commander 
who reports, you know, to the President and the Secretary of 
Defense.
    There will also be the resources of the Department of 
Defense, which are enormous, and since it is the Defense 
Department's responsibility, they will have access to these 
resources. So you may, to some extent, avoid the problem that 
Dr. Adams knows very well: when civilian agencies do not have 
funds, they turn to the military and the military says, ``It is 
not our job.'' Here, clearly, it is their job. So those are the 
advantages.
    Now the downsides. I mention the downsides not to suggest 
we should rethink the structure. But by thinking about the 
downsides, you can address the structure to make it better. No. 
1, how do you draw in the civilian agencies which do not have 
as much stake in the process, especially as the military is not 
used to drawing in the civilian agencies. And the fact of the 
matter is that we have developed enormous civilian expertise 
over the past decade on how to manage these crises. So we have 
got to draw them in.
    Second, how do you avoid the perception that the post-
conflict exercise is a U.S. military operation and occupation. 
General Garner has insisted on not being called General Garner. 
That is not enough. And so we need to work hard to avoid that 
perception.
    And then I think the final question is where is the policy 
being made? Is this new Pentagon office an operational office 
that is implementing plans or is it a policy formulation body? 
And if it is not the latter, where does policy get made below 
the principles and deputies? This is not an irrelevant 
question. It is an important issue. It is an issue that is 
worth asking, not to be a pain in the neck to the 
administration but to get them to confront questions that 
sometimes are easier to push down the road.
    I know, because I was in the same position as the people 
who are operating on these issues right now. These are 
important coordination questions and I thought of them, Senator 
Lugar, when you mentioned that the Pentagon was conducting a 
briefing today at 10:30 that you did not know about.
    If there was some sort of structure at the sub-deputy 
level, below Dr. Steve Hadley, where somebody was sort of in 
charge--that is the person who is sort of running the structure 
on these post-conflict issues. That is where the buck would 
stop, and I do not have a sense that the government is 
organized that way right now. And it probably ought to be.
    And the problem is going to become greater, as I said 
before, when the attention of policymakers turns to other 
crises, and this gets managed below the highest level.
    Senator Dodd. Yes.
    Dr. Adams. To key off the last point that Mr. Schwartz 
made, which is that the key is if the military is going to play 
this role over the long-term, as keeping their attention on it, 
what is unusual about this is that as we have seen for more 
than a decade, it has been a very difficult and painful 
adjustment for the Department of Defense and the uniformed 
services to determine exactly what their role was going to be 
in a much messier situation--series of situations in the post-
cold war world than they faced during the cold war.
    Those messy situations constantly led to what was called 
mission creep for the military and a certain amount of 
resistance to the concept that the military ought to be doing 
policing and arresting and governance tasks, when they were--
wanted to be restricted to a more clearly defined and sharply 
defined military mission.
    This is more than mission creep, what we are talking about. 
This is really mission spread. This is more like a standard 
post-World War II occupation scenario where the occupying force 
itself----
    Senator Dodd. Well, do you think that is what is going on 
here? Do you think that is sort of what we are talking about 
here?
    Dr. Adams. This is essentially how--I think where this 
originated was the sense that the military was going to be an 
occupying force; would have, as Mr. Schwartz suggests, a chain 
of command, the ability to make decisions, to move pieces 
around, to get decisions made, and to have them implemented 
very swiftly.
    I think they probably were also somewhat educated by the 
much more difficult civilian administration scenarios that we 
have encountered in places like the Balkans, where simply 
organizing the pieces and having one civilian who is seen as 
authoritatively in charge was a very, very difficult exercise 
for years.
    So placing it securely in an organized command structure, I 
think, is the preference of the administration. The 
difficulty----
    Senator Dodd. What do you think about it?
    Dr. Adams. Well, the difficulty--I think it is probably 
right for the near term. But I agree with Dr. Marr; I think 
very swiftly it is going to be in our national interest to 
transition this to civilian administration and equally swiftly 
to a civilian administration with heavy participation by the 
Iraqis, and having the United States step back and take an 
indirect role very, very quickly.
    I do not rely on the long-term desire of the military to 
play this role or to sustained attention to having the military 
play this role and need--we need to move, I think, quite 
quickly, in this situation.
    In order to do that, there is one other point I want to 
make, Senator, which is in order to do that on the civilian 
side--one of the points that Mr. Schwartz mentioned I wanted to 
underline--is the supplemental needs to request adequate 
funding. And we need to be prepared to empower the civilian 
side of the executive branch of the Federal Government to move 
out sharply to take on some of this responsibility quite 
quickly.
    Senator Dodd. Yes. Just quickly, Ms. Mitchell, do you sort 
of agree with the doctor, or would you even disagree with even 
the initial point, from the humanitarian relief organization 
point of view? And, again, I want to set outside your views 
about the war itself, but looking at the management question 
what do you--how would you--do you agree with that assessment 
or disagree with it?
    Ms. Mitchell. I would go a little bit stronger on it. The 
Office of Reconstruction, one of their responsibilities is to 
handle the humanitarian activities in the event of any type of 
action. Because this office is located in the Pentagon, it is 
shrouded with confidentiality, classification issues, getting 
access. Getting new information out of there has been extremely 
difficult.
    I have been attending these coordination meetings with 
different government officials now since November. And the 
meetings have not been very coordinating. They have been very 
one-directional. They have been very frustrating for the 
humanitarian aid community. We have been asking repeatedly to 
get the sanctions lifted, to get our licenses, to get access, 
and to have more of a U.N. role.
    So, I think we are very, very concerned about how the 
Pentagon is going to be able to manage and coordinate a 
humanitarian response.
    This is chilling the participation of European NGOs and 
American NGOs, because of this blurring--further blurring of 
the lines with the Pentagon and the civilian control of 
humanitarian assistance.
    So while an office is, indeed, necessary to fulfill the 
nation's four Geneva Convention requirements, to take 
responsibility as an occupying power, certainly the 
humanitarian tasks need to be carved out and put firmly under 
civilian control if we are going to have the type of 
multilateral response that is needed.
    I cannot stress for you enough that the logistical and 
operational framework is not in place to support a humanitarian 
response if there is military action in Iraq at this point in 
time.
    Senator Dodd. OK. Dr. Marr, I think I have heard your 
comments, and I have taken a lot of time, so unless you have 
anything to add--do you have anything to add to that at all.
    Dr. Marr. No, because I have not really been involved in 
the policy, except to say that back in the mid-nineties, when 
this was discussed in the Pentagon, when I was working at the 
National Defense University, civil affairs units were brought 
in. And I remember a recent conference in which this was 
discussed when civil affairs units and the military seemed 
fairly gung-ho about going in and doing the humanitarian job.
    So there may be some of that as well, but I do not have 
much more to add on this.
    Dr. Adams. Senator, could I just add one thought? When we 
get past the point of humanitarian assistance and are talking 
about the installation of governance, democratic institutions, 
running state civil servants, doing construction in oil fields, 
things of that kind. It really goes well to the edge of the 
competence of the military to administer such an operation.
    Having the civilians in is going to be critical very soon.
    Senator Dodd. Well, it is a cultural thing too, in a way. I 
mean, there is--our military, for a good reason, are used to 
doing things their way. And when you start expanding the number 
of people that have a shared decisionmaking role, it gets very 
difficult if your culture is basically to say it is, you know, 
my way or the highway, and you are trying to bring people to 
the table; so it gets complicated, to put it mildly. Anyway, 
thank you, Mr. Chairman. I apologize for the length.
    The Chairman. Thank you very much, Senator Dodd.
    In recognizing my colleague, Senator Hagel, let me just 
pick up on a point you made, Dr. Adams, that the dog does not 
bark in the same way in the Balkans; and in part it is because 
a lot of constructive things have occurred.
    However, in this committee and in the Senate as a whole, we 
debated motions regarding Bosnia and then Kosovo made by 
distinguished leaders on both sides of the aisle to take the 
troops out as of x date, or right away, or what have you.
    And I remember one such instance about this point 2 years 
ago. My colleague rushed into the room--we were having our 
Tuesday luncheons, which we will have today with Republicans 
and Democrats--and we were all considering once again the 
desire of two distinguished members of both of our parties to 
get the troops out. It seemed they had the votes.
    Senator Hagel comes in, and brings word that then-candidate 
George Bush has indicated that that is not a good idea, thus 
confirming what President Clinton was telling the luncheon on 
the other side. And, in fact, their words turned around some 
votes. By the vote of a fairly small majority our troops 
remained.
    The success that is evidenced in this anecdote came about 
because of a degree of constancy, and it is an important area 
of the world that is not out of the woods, but in which some 
degree of competency in both the political, military and 
humanitarian communities, albeit ad hoc, have been reconciled.
    Now, our hope in a larger area today is to be able to do 
the same thing, and I call now upon that introduction, Senator 
Hagel.
    Senator Hagel. I am unworthy of such an introduction, Mr. 
Chairman.
    The Chairman. Not at all.
    Senator Hagel. Thank you. But I would take note that I am 
often the bearer of good news and the administration is very 
appreciative of that, starting back in the summer of 2000, 
before there was a Bush administration, so thank you.
    Mr. Chairman, I, like all our colleagues here today, very 
much appreciate not just this hearing but the quality of the 
witnesses that you have asked to come share their experience 
and thoughts. It has, once again over the last hour--more than 
an hour--an hour and--almost 2 hours--become clearer if there 
was any need for it to be any clearer of the imperfections and 
the complications of what we are dealing with here, as you 
noted a few minutes ago.
    This is an imperfect business. And I want to say something 
about that, because it is my experience--and I have not been 
around here near as long as my two esteemed colleagues, 
Senators Dodd and Lugar--but this is not an issue about who is 
for or against the President. This should not be, nor do I 
detect it has been on either side, a political issue.
    The President is not the only individual who takes the oath 
of office to protect the Constitution in the interest of this 
country. The security interests of this country are all of our 
responsibilities.
    First, the safety of the state. And I think that is 
important, at least in my mind, to bring out to all who might 
be listening and watching, because this is a very, very 
important issue for all the reasons the four of you have laid 
out. And we do not have answers. We will never have all the 
surety that we need, if we go to war, if we intend to do the 
things the President has talked about.
    So we are not in disagreement about the security of this 
country, and we are not here to hurt the President. But we have 
responsibility in the Congress to actually help the President, 
and to do what we can do to frame this, to pull out the tough 
questions and to ask the tough questions, and then try to find 
some solutions.
    And I start there, because we tend to drift into these 
areas of political litmus tests and get ourselves bogged down 
in the underbrush of the superficial and the superfluous and 
lose sight of the real focus. And I think one of the things 
that the chairman said a few minutes ago about--and you all 
have stated it in your own way, in your own focus, the other 
combustible parts of the world that will not stop or will not 
be put on hold or we cannot defer until we fix Iraq. And the 
chairman mentioned some of those areas. You are all well aware 
of them.
    The cost of what we, it appears, are about to engage in 
here are unknown, as you have said. But it is important to put 
some framework around this, and that is, again what we are 
trying to do today.
    Mr. Adams, one of the things that you said--and I happen to 
agree with it--and I think the quote was, ``The full burden 
cannot rest on the U.S.''--the full burden of fixing Iraq from 
start to finish with all the unknowns.
    I believe that; I have said that. But I have even taken it 
further to say, ``Why should the United States take that burden 
on by itself?'' Which gets me to this question that I would 
like very much to have the four of you respond to. You all have 
referenced the United Nations. You all have referenced allies 
in your own ways.
    I would be interested in knowing, specifically from each of 
you, how important is it to each of you in the areas that you 
have focused on in your testimony, that the United States--if 
we engage in this military conflict, how important is it to 
have the United Nations? To have allies, the consequences of 
not having that with us who, in fact, will be called upon as 
some of you have stated in your testimony already to actually 
do the work or a good part of that work; the infrastructure of 
that work; the public diplomacy of that work; aside from the 
dollars that you are talking about.
    So take that anyway you would like, and I would very much 
appreciate each of you responding to it. And, once again, thank 
you for a really very, very important and insightful sharing of 
your experience and wisdom.
    Dr. Adams, thank you.
    Dr. Adams. Let me start on that, Senator. Thank you. I 
think it is a very critical question, not only who will do 
this, but how do we entice them, induce them, encourage them, 
negotiate them, deal them in. Because it is my judgment that 
without that cooperation, trying to do this on our own is 
almost doomed to failure.
    We have to have that cooperation, if only for the reason 
that an international community is going to be much better 
received in-country than a sheer U.S. military occupation 
trying to accomplish these tasks.
    More than that, we do not have the resources to do this. We 
could not find those resources--Senator Lugar has already 
mentioned some of the budgetary considerations that will enter 
in, in trying simply to corral the resources that we think we 
can ask for. So the numbers I offered to you are, I think, 
beyond our capacity to do all alone.
    More than that, we are going to need the expertise to do 
these things in the humanitarian arena just to start there. We 
are going to need the expertise of organizations like Ms. 
Mitchell has been talking about.
    We do not have in-house, in the government, the capacity to 
deliver this assistance. And there are a lot of international 
organizations and non-governmental organizations, which I would 
add to your question, who have now years of tradition and 
practice in delivering the humanitarian assistance and have 
been helping with the Oil for Food Program, have been doing the 
job. And we are going to need their full wholehearted 
collaboration to do it.
    In the area of governance, we are going to need other 
countries to participate in trying to work with the civil 
service, to work with democratization, to work with local 
groups. We will not have the resources to do it alone and, 
frankly, we will not have the full confidence, as Dr. Marr has 
suggested, of parts of the country to do it alone.
    You are much better off with a community, a blanket that 
cushions the U.S. presence and any reaction to its presence in 
achieving that goal.
    In economic reconstruction, we are far from having the 
investment capability to deal with principal task No. 1, the 
oil resources, the reconstruction if war has damaged it, of the 
oil fields, the upgrading of the electricity grid, the 
upgrading of the export possibilities of that oil field, the 
potential exploitation of the probable reserves. I mean, they 
have only exploited 15 percent--15 out of 74 potential and 
probable reserve fields in Iraq. We will not do that as a 
government. We are going to rely on substantial private sector 
and international financial institution cooperation to 
accomplish this goal.
    Debt--well, it is not debt even owed to us for the most 
part. It is going to have to be handled, however; or the 
Iraqis, who already face a debt-to-GDP ratio that is one of the 
highest in the world, will find that they are burdened by that 
debt and cannot do the economic reconstruction.
    That is going to require Paris Club reschedulings, London 
Club reschedulings, negotiations that involve the international 
community in trying to relieve the burden of debt on the Iraqi 
people.
    So my judgment is we cannot do it alone. We will not be 
trusted to do it alone by the international community or the 
Iraqis. We will need those organizations because of their 
competence and their resources. So it simply is of urgent 
necessity to create that coalition of support.
    Senator Hagel. Mr. Chairman, may I ask the indulgence of 
the chairman to ask the others to respond?
    The Chairman. Yes. Please proceed.
    Mr. Schwartz. Thank you, Senator Hagel. I think your 
question is about one of the most important ones that needs to 
be looked at. And I should also say that there is a vigorous 
debate and discussion on this issue within the administration, 
so I think it is critical that Members of the Senate be part of 
that discussion. This is because decisions are, in fact, being 
made on the very question that you raised.
    I am also a little less pessimistic than most that the 
difficulty that we are having in New York now, at the United 
Nations, will preclude post-conflict cooperation. I think we 
have a tremendous capacity to persuade other governments, to 
encourage other governments to come on board. And of course, 
the more successful the U.S. action in Iraq, the greater that 
possibility will be. So I certainly would not rule it out based 
on the discord in New York now.
    I can just echo Gordon's statements. There are so many 
areas where international involvement will be essential and 
also will be required. We have no alternative.
    I will highlight a few areas. First, to reiterate Gordon's 
point and to anticipate my humanitarian colleague's point, the 
WFP or another international humanitarian organization should 
clearly be playing the lead over time on humanitarian 
assistance. You know, they coordinate the tens of thousands of 
food agents in Iraq who deliver food under the Oil for Food 
Program.
    We do not want U.S. soldiers to be doing that. It is a bad 
use of our resources and it is probably not a very effective 
way to do the job.
    We have a very strong interest in the involvement of 
others. Even if the United States maintains responsibility for 
civilian administration, we have a strong interest in 
indicating that the United Nations or an international body 
will take responsibility in organizing the consultative process 
that leads toward a political transition.
    If we do not do that, if we are not prepared to do that, we 
will really have very significant legitimacy problems about a 
hand-picked--a future government hand-picked by the United 
States. And I would say a model--not a perfect model--but a 
model for this is the Bonn process where the United States had 
enormous influence, but it was a U.N. process. So that is a 
second area.
    A third is the issue of oil. Some suggest that the United 
States could go in and take over the oil fields. First of all, 
that is not true. The United States has no intention of doing 
that. But as a matter of law, we could not.
    Right now, the Iraqi oil industry is governed by a U.N. 
resolution, essentially; and any changes would have to go 
through the Security Council, as well.
    So there is not really a unilateral option on oil for us, 
unless we wanted to break out of the U.N. Security Council 
resolution, which don't believe the administration has any 
intention of doing.
    The continuation of the Oil for Food Program, modified in 
some way, will have to take place through an international 
effort. And to echo Gordon's points, the establishment of a 
consortium of donors, with the World Bank and the IMF, to deal 
with assistance and debt relief will also be an international 
effort.
    So I think there are so many clear areas that we should not 
let the heat of ideological debate on this question prevent us 
from shedding light--practical light--on the issue. 
International involvement is inevitable, so we ought to engage 
and get on with it.
    Ms. Mitchell. I think in looking at the role of the United 
Nations, there is time to discuss what role the U.N. can be 
playing, actually, in a reconstruction period. There is not a 
whole lot of time left for the role of the U.N. in the 
humanitarian activities, because that crisis is upon us.
    If we have military interventions in the weeks to come, the 
operational framework to get the assistance out simply is not 
there. There is not enough non-governmental organizations and 
U.N. operational capacity in the region at right--at this point 
in time. So, again, I would stress there is a need to de-link 
the humanitarian activities and there a very clear mandate 
needs to be given to the United Nations, authority to lead the 
humanitarian response for the reasons that Eric said.
    The U.N. Oil for Food Program is the largest humanitarian 
operation anywhere in the world. It is huge. We have to have 
the U.N. involved in this. They can assure greater access for 
non-governmental organizations; not only inside Iraq, which may 
be under U.S. military control at the time, but also in the 
border countries.
    The U.N. will have more independence, more impartiality to 
meet the humanitarian needs that we are simply not able to meet 
right now for a variety of reasons. The U.N. will also provide 
a critical interface with military forces, both the Iraqi side 
and the coalition's side, to deliver assistance and to include 
more donors.
    We are getting--donors are chilling. There is a perception 
that the United States is going to go it alone and that there 
is a unilateral flavor to this, and it is chilling our 
traditional--humanitarian communities' traditional donors, not 
just in the United States, but around the world.
    And we need European humanitarian NGOs to respond to a 
crisis in Iraq. It is a very difficult situation. If weapons of 
mass destruction are used, we have never experienced this 
before as a community. We will need everybody's help.
    The United Nations gives us a better chance of securing 
that participation on humanitarian issues, so if we can de-link 
those from the political processes, that day has arrived.
    Dr. Marr. Let me just say that I have no idea what the size 
of the humanitarian crisis is going to be after the war, no one 
does. It is not clear how much damage, how much repair and 
reconstruction is going to be needed, so it seems very clear to 
me we need international support on the humanitarian crisis and 
rebuilding from the destruction of the war.
    I take that as a given, to share the burden, to make it 
more legitimate. I am looking ahead past this humanitarian 
period and reconstruction of war damage to politically 
reconstructing Iraq. I keep hearing all this, and it rings a 
little bit wrong in my ear as I think how Iraqis would respond 
to this. We say: ``we are going to help,'' ``we are going to do 
this,'' ``we are going to do that.'' We are imposing this on a 
people who frankly consider themselves quite competent to do 
this. That is going to be the real political problem that we 
have when we start in the nation-building and the political 
process.
    In my view, they are not competent to build a democracy 
overnight. I understand that, but they think they are. So there 
is going to have to be a tradeoff here.
    Iraq is now pretty close to 26 million. It is a very large 
country. I do not have exact figures for the exiles. It could 
be as high as 3 million but there are at least 2 million 
exiles. They include the best engineers, the best architects, 
the best writers; they are very, very competent people.
    I do not think they are going to be looking for all sorts 
of people from the rest of the world to come in and do 
reconstruction for them. They are going to be looking to 
themselves and to this exile community before they look 
elsewhere.
    We do need to keep in mind that this is a big country with 
a lot of qualified people, some of them inside, some of them 
out. It is their oil, and oil has been a very important 
flashpoint. We must not get ourselves into the mind-set that we 
are going to have to keep doing things for the Iraqi people. We 
are going to have to put the Iraqi people back in charge. They 
are going to tell us this very shortly.
    Senator Hagel. Thank you.
    The Chairman. Yes.
    Senator Hagel. Thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. First, this has 
just been an excellent panel. I thank the chairman and the 
committee for having the hearing.
    I would like to make a couple of remarks and then ask some 
questions. I would like to first note how strongly I agree with 
the chairman when he points out the security of the American 
people really depends upon fostering what you described in 
effect as functioning successful states rather than chaotic and 
failing ones. And some members of the committee know that I 
spent a good part of the last couple of years trying to make 
this point with regard to Africa. We held four different 
hearings about countries that are in that posture.
    And it is especially important to keep this in mind now as 
we are on the cusp of disordering a state, in effect, and then 
committing to the awesome task of trying to reorder it. And I 
think this committee is really--these witnesses have really 
helped us think about some of those issues.
    Let me also say that, judging from the administration's 
statements and Iraq's behavior with each passing day, it 
obviously becomes more and more likely that the United States 
will engage in a major military operation in Iraq. And while I 
have no doubt in my mind that our admirable men and women in 
uniform will be successful in any military engagement, I do 
have doubts about whether or not the American people truly 
understand or have been given the chance to understand the 
magnitude of the tasks that the country is setting for itself, 
not only with regard to the military engagement itself but with 
regard to occupation and reconstruction.
    I do not believe Americans have been told much about what 
the future holds beyond the most optimistic of scenarios. And 
frankly, I do not believe that Congress has heard much about 
the full range of potential scenarios either.
    We really started trying to think about these things way 
back in late July and early August when, under Chairman Biden, 
a couple of hearings were held and some of these questions were 
raised then and have not been adequately answered over these 
many months.
    I think that we were wrong to authorize the use of force 
without demanding this information and weighing it carefully, 
to assess the costs of this endeavor in economic terms, 
diplomatic terms, and, of course, in terms of human life, and 
to assess whether or not this will make America more secure in 
the end. The fundamental issue is whether this really will make 
America more secure in the end.
    Unfortunately, and I will just reiterate what I appreciate 
the chairman and, I believe, Senator Dodd saying at the 
beginning, there is no one here from the administration to 
clarify these points or to reassure us that plans have 
progressed beyond where they stood a month ago, when it seemed 
that very capable representatives from the State and Defense 
Departments were simply unable to answer questions for this 
committee. So, again, I thank the witnesses for trying and I 
would like to ask a question.
    At a staff briefing last week, administration officials 
indicated that they hoped our troops and reconstruction teams 
would be able to get out of Iraq within one year of a military 
intervention, leaving behind a country with a democratic 
political system and a transformed economy.
    Can any of you think of any examples from recent history to 
give us confidence that such a timetable is feasible?
    Dr. Adams. A clear and direct answer to that, no. I find 
it, frankly, implausible that the United States could leave 
within 12 months and leave a standing democracy and a healthy 
economy behind in Iraq. It is simply not plausible.
    And I cannot give you another example where it has 
happened. The chairman mentioned earlier--I believe it was the 
chairman or maybe it was Senator Dodd mentioned South Korea, 
where a healthy democracy has emerged.
    But I hasten to point out that the healthy democracy began 
to emerge, I think, some 30 or 40 years after the initial 
Korean war. Now, that is a very long time. And the United 
States has maintained a troop presence in that country 
throughout that entire period, not governing the country, to be 
sure. But the country was clearly under a very authoritarian 
government.
    It took a long time to come around. It will be a long time 
before a fully healthy, functioning democracy exists in the 
Balkans in Serbia, for example, where we have been engaged now 
for a period of more than 10 years. These do not happen 
overnight.
    And while Iraq--and I certainly share Dr. Marr's view of 
this, Iraq is not Afghanistan. It has substantial resources, 
which Afghanistan does not have and more greater coherence in 
terms of bureaucracy and governance than Afghanistan has ever 
had. It is also not Germany or Japan, in terms of its ability 
to establish a functioning regime and generate the resources 
that would support it.
    Unless there were a very clear and well funded hand-off to 
some international administration of the Iraqi governance 
process and the reconstruction process at the end of one year, 
I just cannot foresee leaving in that timeframe.
    Senator Feingold. I appreciate that answer, and the 
reference to Bosnia, and certainly good things can be said 
about what has happened in Bosnia. But I was at this table, I 
believe, in 1995, and we were strongly assured that within one 
year before the next Christmas, our troops would be out of 
Bosnia, and the cost of the whole operation would be less than 
$2 billion.
    So there is this unfortunately tendency to tell the 
American people that something cannot happen within one year 
will happen, and I just wonder why such statements are made 
with such confidence. And it really does undercut people's 
confidence in what their government is telling them.
    Yes; would you like to answer?
    Mr. Schwartz. Well, first of all, I certainly agree with 
Gordon's point. It would be great if the United States could 
get out--if the military could withdraw completely from Iraq in 
a year. I do not see it happening and certainly we should not 
plan to leave in a year--you have to plan for what you think is 
going to be necessary or might plausibly be necessary rather 
than for what you are hoping for.
    But I want to raise another issue in terms of the extent of 
the U.S. presence. We have to realize that downsizing the Iraqi 
military, which will be an objective presumably of the American 
intervention, will create a security issue, because any future 
army that is powerful enough to defend Iraq against Iran, for 
example, will also be strong enough to threaten Saudi Arabia 
and Kuwait.
    And so there are going to be regional security issues. And 
this will raise the question of regional security guarantees, 
with implications for issues like the nature and duration of 
our presence. So, it is not simply the case that when we fix 
everything up domestically in Iraq, the job is done.
    There is the broader regional context. We go in, we occupy 
a place. We downsize the military. That has implications for 
the rest of the region, and it may have implications for the 
nature and duration of our presence.
    Senator Feingold. Ms. Mitchell.
    Ms. Mitchell. I see no way how the United States can be out 
of Iraq in one year, and I say that because we have seen no 
plans for how they are going to secure Iraq within the first 
year.
    Population movements will occur after the regime falls. 
There are populations at risk. There has been 30 years of a 
brutal regime, 30 years of populations being moved around and 
manipulated and engineered--Marsh Arabs from the south, Kurds 
from the north, et cetera.
    We know the stories. I just do not see how it can happen. 
And there is no plan in place for policing, for filling 
security vacuums for arresting hardliners, spoilers, radicals, 
others that will fill security vacuums once the regime falls.
    It will be the responsibility of the allied forces to do 
that. Who else is there?
    And unless we are able to fill those voids in the first 100 
days after the regime, that will determine how long the United 
States will stay inside Iraq--is how quickly security and 
protection can be provided to the Iraqi people.
    And right now I see no plans from the administration on 
that.
    Senator Feingold. Dr. Marr.
    Dr. Marr. There is one other thing that is going to 
determine how long we stay and that is the attitude of the 
region toward a continued occupation of Iraq.
    I keep raising this unfortunate public opinion issue, 
because it is there. We have two sides of the sword to 
consider. Of course, you cannot leave in a year and have a 
functioning democracy, maybe even a functioning economy--that 
is out of the question.
    But the tradeoff here is going to be how visible is the 
presence, how large is the presence, and how well we are moving 
to accomplish some of the goals that we want.
    And I quite agree that an outside presence, particularly 
with respect to security and getting help in reconstruction is 
good for Iraq. But it is going to cause a backlash, not only in 
some areas of Iraq itself but in the region.
    I do not need to tell you all what the atmosphere in the 
region is today. The impetus for terrorism--Bin Laden's main 
focus in 9/11--was the presence of our forces in the gulf. 
Other issues like the Arab/Israel issue, really did not play 
much of a role, in my view, in getting him started on 
terrorism.
    So there are going to be a lot of pressures focused on how 
long the presence is there and how visible the presence is. I 
can well imagine political pressures of forcing us to draw 
down, move out, turn over to others. This is exactly what the 
rest of the region is afraid of.
    They fear we are not going to be able to stay long enough 
to really create a fairly functional state. We are going to 
leave too early and leave a mess. So I just remind everyone 
that there are going to be political pressures. It is not just 
how long we have to stay to do a good job. There are going to 
be political pressures, which I can well imagine will make us 
think about drawing down--moving out well before the job is 
done.
    Senator Feingold. Mr. Chairman, my time is up. I just want 
to comment that the comments of Mr. Schwartz and Dr. Marr 
really do highlight this interesting point. I have been on this 
committee and watched our involvement in Haiti and Bosnia and 
Kosovo and East Timor. And although everyone of those 
situations obviously has regional implications, it just does 
not compare in magnitude to what this entails in terms of the 
region and in terms of the implications. There really is a 
difference in substance, not just a matter of degree.
    Senator Dodd. If my colleague would allow me--I think the 
political pressures are not going to just be regional. They are 
going to occur here at home as well.
    The chairman has pointed out the tremendous budget issues 
that are going to be confronting us very quickly; and I can 
see, despite all of the intentions today, even with the 
situation going well militarily, the pressures domestically to 
sustain the budgetary requirements, to maintain the kind of 
level of participation we are going to require are going to be 
profound here at home.
    Dr. Adams. Senator, in my judgment, that is precisely why 
it is useful to have a much more broad discussion of this today 
than we have had to date. It is precisely because it has those 
implications.
    The Chairman. Well, we thank each one of you for the 
historical perspective. I am going to introduce Senator Chafee, 
but I interject one more minute of editorial comment, because 
mention has been made of South Korea, and of how long it took 
to move toward democratic institutions--a little more than 
three decades.
    One reason, however, we were not resented in that case was 
that the Koreans felt we were a security for them. That is a 
point about Iraq we have not gotten into today. Namely, there 
may be predators from outside that do not have the same respect 
for the boundaries of Iraq as we do.
    So there may be some interesting by-play there; but 
nevertheless, it was the Philippines election, at least in my 
judgment, that bumped along democracy in the South Korea case. 
And I would just say, historically, that Mr. Armitage and Mr. 
Wolfowitz were around in those days. They played a very 
important part in testimony for this committee in 1985 and 
1986, along with Secretary Schultz and-then President Reagan, 
who became involved in this.
    So optimistically, these things do work out historically if 
you have patience and if, in fact, the chemistry between the 
countries in question, in this case the United States and those 
who are our friends in South Korea, works for a long period of 
time.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman. Senator 
Feingold mentioned a number of countries where we have been 
active but we have not mentioned Afghanistan yet, and President 
Karzai, was here last week saying, ``If you do not strengthen 
your commitment to us--or lose your commitment to us, we will 
fall like a house of cards.'' And so as we look at 
reconstruction of Iraq and the question of who might help us, 
in looking at the dynamics that are happening every hour, what 
countries, might after the dust settles, really be there for us 
to help us in this reconstruction?
    I guess I will start with the other end, Dr. Marr. Why do 
you think after everything is said and done----
    Dr. Marr. As I am sitting here trying to----
    Senator Chafee. Because we have the help in Afghanistan. 
Are they also--many of these countries--going to ante up and 
come help us in Iraq? And which ones in particular can you see?
    Dr. Marr. Well, first of all, I would have to think on 
that. However, oil comes to mind. How is the oil industry going 
to develop? There are a lot of people, a lot of companies, and 
a lot of countries who are interested in getting some profit 
from the oil industry. So there is a carrot on the stick out 
there, to entice people into getting involved in Iraq. Some 
will want to go in and acquire a stake in this society.
    The answer is whoever is interested in oil and markets. 
That would be a lot of people--certainly, I think the 
Europeans.
    The Russians and the French have, as you know, long-
standing interests there. It is interesting to see how this 
issue is playing in the United Nations. If there is a new 
regime, they certainly must be asking themselves whether their 
stake in oil will remain. So certainly, I think European 
countries would be interested. Possibly east Asia--oil flows to 
east Asia these days.
    So my answer would be to just keep the oil in mind and 
countries that would be interested in getting a stake in it. I 
do not know whether it is going to be difficult to find people 
to help eventually.
    Senator Chafee. So when you refer to regions, European, 
East Asia, does that mean what countries in Europe--can you see 
the Germans, the French, the Spaniards, all these countries 
helping us--the Dutch, the--and then to go to East Asia, coming 
in and helping us? Is that what you are saying?
    Specifically what countries, I guess, is what I am asking.
    Dr. Marr. The other people on the panel may be able to 
address that. If you mean financial help, I really cannot 
answer that question, because I do not have the expertise.
    I am thinking not so much in terms of the early 
reconstruction and sort of ponying-up on the budget--but 
countries interested in long-term involvement in Iraq, 
particularly the political involvement--of countries willing to 
come in and make some kind of an investment in time and energy. 
Certainly the people who are going to want to get involved in 
this are people who see a stake in oil.
    Iraq has reserves second only to Saudi Arabia. The 
potential for oil production and exploitation is incredible. 
And people are interested in that and would like to get into 
Iraq and have a stake there for that reason. That will be a 
help.
    Senator Chafee. Yes, a very good point.
    Ms. Mitchell. I think about 30 to 40 percent of the U.N.'s 
plea for humanitarian contingency funding has been met at this 
point. That is all. And I think that the donors that have 
contributed to that--and I am going by memory, certainly the 
United States has contributed, has made pledges, the United 
Kingdom.
    There are no more than five or six countries; I think 
Canada, Switzerland. We are seeing no funding being released at 
this time to the humanitarian NGOs from the British Governor, 
from the European Union, or from other traditional donors in 
Europe. That may change in the event that an action begins, but 
we are very far behind right now in preparations.
    The way to speed this up is, again, is to give the clear 
authority and clear mandate to the United Nations. Several 
embassies here in town have told me that they would consider 
contributing to the humanitarian activities if they were de-
linked from the process that is going on in the Security 
Council right now. So I think we could get much broader funding 
with the U.N. handling the humanitarian situation.
    And that is going to be, you know, the big costs aside from 
the military in any type of campaign that is going on, 
depending on how it unfolds. We simply do not know.
    And certainly if there are population movements during a 
campaign, they may spontaneously return very quickly, as we saw 
in Kosovo, once you have ground forces going in, and the costs 
can be very, very high. If this Oil for Food Program collapses, 
there are 16 million people that the United States will have to 
somehow coordinate funding and feeding of, which again is 
another reason to get the U.N. involved, get them involved 
today, give them clear authority, let them lead the 
humanitarian response.
    Senator Chafee. Thank you very much. I assume you are 
saying that despite all their opposition to the direction we 
are going, when the dust settles, they will be there for 
humanitarian assistance to help the needy people in Iraq to get 
on their feet?
    Ms. Mitchell. If they have a clear authority. The U.N. only 
operates on clear mandates and clear authority, and right now 
they do not have it. So something does have to be done in New 
York to give them that authority, and I do think that they can 
be de-linked from the political process.
    It is not inconsistent for the United Nations to be 
preparing for a humanitarian response while still advocating 
and working toward a peaceful resolution.
    Senator Chafee. Mr. Schwartz, you said that--earlier that 
despite what is happening in New York--and I think were your 
words--you expect to have a broad international help here.
    Do you think that the popular opposition will affect the 
decisions of these leaders to send help, or is it back to Dr. 
Marr's--the oil is there, and that is what is going to be 
important once the war is over? And we are assuming that in 
this questioning.
    Mr. Schwartz. Right. I do not want to appear too 
optimistic, but I am not quite as pessimistic as others on this 
question.
    First let me address Phebe's point. I think she is right. I 
think any post-conflict regime, legal regime, a modified Oil 
for Food Program is probably going to have some sort of 
provision that gives a future Iraqi government a great deal of 
freedom to make judgments about how it is going to develop its 
own oil industry, and maybe free it of some of these executory 
contracts and other shackles that really might otherwise 
restrict its ability to make independent decisions.
    And that independence will be potential leverage--or if not 
leverage, will create incentives on the part of other 
governments to get involved in Iraq. So I think Phebe's point 
is correct.
    I also think that in a post-war environment, the 
governments will be more inclined to come on board. But I have 
to caveat that by saying I think the big players on big 
reconstruction in Iraq are probably going to be the 
international development institutions more than individual 
governments.
    Senator Chafee. Let me just--my clock rang, but----
    The Chairman. A quick couple of points, yes.
    Senator Chafee. On the last comment, can you refer also 
back to Afghanistan, and how do you think our resources are 
going to handle all of what we are getting on our plate now?
    Dr. Adams. Afghanistan is a good point of comparison. The 
first point I wanted to make is that unlike the--on the war end 
of this, unlike the first gulf war, we are not going to be 
reimbursed substantially by the Germans, the Japanese, the 
Saudis, or the Kuwaitis for the military exercise; so there is 
a big difference that we will incur up front.
    That point is really relevant, though, with respect to the 
occupation issue that I raised in my testimony. I think it is 
the expectation of the administration that at some point rather 
like the Balkans, where the Europeans provide 80 percent of the 
forces occupying the theater, or in Afghanistan where a 
substantial augmentation of European participation has happened 
in the force presence in the theater, it is not my impression 
that the European countries who are in the position to provide 
such forces for these purposes are likely to step in and fill 
the void militarily after the war is over.
    And if you count on a substantial occupation being 
required, building a set of expectations that say the Germans 
and the French and the British, in particular, will step in and 
pick up the American military occupation role, I think is a 
totally unreliable expectation. And that is for two reasons. I 
do think, there, New York makes a difference. There is going to 
be an uneasiness about that.
    A second reason, those countries have, in some cases, 
colonial history in this country, which makes them reluctant to 
engage forces in that theater.
    And third, all of those countries, but especially the 
British, are going to be stretched. Their conventional force--
Army capability to become an occupying force over a long time 
is already significantly stretched by the Balkans and 
Afghanistan. So expecting them to then provide a very large 
force to occupy Iraq is, I think, an expectation well beyond 
what we can actually see happen in the region.
    The other question that I wanted to raise has to do with 
international organizations; and I endorse what Eric Schwartz 
was saying about the large water-bearing will be done here by 
the World Bank and the Asian Development Bank, not by bilateral 
donors to the reconstruction piece of the task in Iraq.
    We will have a harder time with governance support. That 
may be on our hook, most of it, if not all of it. And the 
other--in reconstruction, the other point just to make is that 
I do expect something, though, I do not know how much out of 
the European Union. The European Union has been a participant 
in other exercises in Gaza and the West Bank, for example. They 
have been willing to come in and provide substantial resources.
    And the Europeans, because of the colonial history, will 
probably find it preferable to divert their activity through 
the EU than to come in on a bilateral basis.
    So the oil fields, I think Dr. Marr is correct, there is 
substantial, already defined, and probable reserves in this 
country. However, the $30 billion or $40 billion that the Baker 
Institute estimates it would take to actually go in, explore 
and develop those fields, build the infrastructure to pump it, 
build the infrastructure to move it down pipelines, build the 
infrastructure to refine it and prepare it for export, all of 
that is going to take 5 to 10 years minimal. So, it is not a 
source of revenue that is going to come on stream quickly.
    Senator Chafee. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman, and I 
thank the panel members for being here and their presentation.
    I want to make two notes, if I could. One is that I agree 
with a couple of the panel members and their comments about 
that we need to move toward civilian control as quickly as 
possible, and I think we have--the chairman has held hearings 
about this point previously. We have had a number of hearings 
in the past Congress about various opposition groups, the Iraqi 
National Congress and others that are working--as a matter of 
fact are in northern Iraq today--have convened meetings in 
northern Iraq.
    The northern Iraq is operated now by a civilian authority. 
The Kurds are operating in northern Iraq. And so I think there 
is a good basis to build off of that I would hope we would 
build and gauge quickly in the process of moving to Iraqi 
control that Dr. Marr was talking about, that you have a 
mixture some of military and civilian for a period of time, but 
you quickly move to that civilian Iraqi control.
    There are very, very qualified people and this is going to 
be able to make a move that I think will be very well received, 
and I do not think a military oversight will be particularly 
well-received over a long period of time or we have a capacity 
to do that. I would hope that the State Department would help 
in the funding of these opposition groups and get those funds 
out now, in building them up to be able to get that done.
    The second point is, is that I want to take us a little bit 
back to the big picture that President Bush addressed at the 
AEI speech that he gave about 10 days ago. And I appreciate 
your thoughts--I do not agree with all of them. I appreciate 
the thoughts and spirit it is put forward with and your 
analysis that you have created with it, but when he gave that 
speech, he was talking about the big picture that he actually 
had addressed not this State of the Union, but the State of the 
Union before, when he talked about the ``axis of evil,'' which 
was the statement everybody latched on to.
    He also talked about pushing for democracy, human rights, 
religious freedom everywhere in the world, and that would 
include within this region of the world where Iraq is located. 
You have a number of countries in that region who are not 
democracies, do not respect human rights, do not respect 
religious freedom or tolerance. Indeed, they all go the exact 
opposite of that.
    And we have been supporting a number of countries in this 
region that have not, and their populations have generally been 
very restive underneath them. I think there are a fair number 
of experts that believe that--that is a big part of the problem 
in the region is we have not stood by our basic principles. We 
stand for liberty. We stand for human rights. We stand for 
these principles and we have not pushed them in this region as 
we have in other regions before.
    And I think what President Bush was saying in that AEI 
speech was, ``Let us look at the big principles of what we 
stand for and what could happen down the road if this effort is 
successful in Iraq.'' And that Iraq is a very likely place for 
this to succeed.
    Undoubtedly, it takes a long period of time. Undoubtedly, 
it is also costing us a great deal that in this region there is 
a dearth of democracy and human rights and religious freedom. 
And undoubtedly, that is also contributing to our costs of 
beefing up our interior defenses against terrorism, because 
that is not the rule of order within that region.
    So while I think there are clear costs associated with 
this, and they are clearly going to be expensive costs, I would 
hope that a fair amount of resources there, locally, could pay 
for this--and there may be a question about over a period of 
time whether that can take place or not, but I think there--we 
are paying a huge cost for the destabilizing nature of what is 
taking place in this region today.
    And I hope as you appraise these issues, you would also 
look at the current costs that we are going--and not just the 
operation, the ``no-fly zones,'' the areas that we are 
currently going, but also what all we are doing to fight.
    I have had experts that I have hosted that have said the 
way you are going to have to deal with this is this way, to 
work within the region and to sow those seeds of this type of 
opportunity--democracy, human rights, religious freedom--into 
the future.
    I would hope you would use that in your appraisals as well, 
as you look at the costs of this operation--that it is already 
costing us a great deal of what is being done in some regions, 
or this region of the world.
    Would anyone care to respond?
    Dr. Adams. I would be happy to respond to the Senator. I 
think you make an excellent point.
    Let me just touch on two aspects of it. One, I am not sure 
that you were in the room when I talked about the cost of not 
going in, of the costs of not dealing with Saddam Hussein, and 
they are costs obviously of not dealing with Saddam Hussein 
that we would have to think about as well. Whether it is 
maintaining the force in the region or it is the costs of the 
inspection process itself, of enforcing the inspection process 
without going to war, costs of the war on terrorism, costs of 
homeland security defense. All of those are very real.
    And we are going to incur them and they--we may incur them 
in greater amounts if we do not deal with Saddam Hussein and 
his weapons of mass destruction.
    The other question I want to raise, just to springboard off 
what you said, which I think is critical, the touchstone in the 
President's speech--and I think in what has been discussed in 
the State Department is the wider regional issue, and how we 
intend as a government to deal with not just Iraq, but what 
will happen in the rest of the region, while we are there and 
how we deal with that.
    And I--let me just touch on three points. One is whether we 
are well-received or poorly received, I suspect there is room 
for a substantially enhanced program of public diplomacy in the 
region, beyond what we have now committed to the region, either 
to deal with backlash or with frontlash, to actually encourage 
the kinds of changes that you are proposing.
    Second, I gather there is some planning or thinking about a 
region-wide Islamic world democratic initiative. That is an 
additional resource consideration. It will cost more to do that 
but I anticipate that may be the outgrowth of dealing with 
Saddam Hussein and the weapons of mass destruction.
    And the third question that we have generally stayed away 
from, but is considered a touchstone of American policy in the 
region, which is how we deal with the second intifada and the 
issues between Israel and Palestine.
    And if we get into a serious peace-making effort in--
between Israel and Palestine, which the rest of the region is 
going to watch whether we do that or not; that, too, could, 
from my perspective, have downstream resource implications in 
terms of assistance programs, maybe even military presence that 
we need to start thinking about as we look to long-term policy 
region wide.
    Mr. Schwartz. I want to talk first about the cost issue. I 
have tried to be very, very clear that if there is a post-war 
Iraq, our interests are vital, and we should spend whatever it 
takes. And my only plea is that the administration start to 
speak in greater detail and make the case so that we can get 
the buy-in of the American people in what is going to be an 
enormous commitment.
    But it is a commitment we have to make. And my discription 
of the numbers is not designed to scare. It is designed to make 
clear that they are very high, which is all the more reason why 
the American people need to be a part of the exercise at the 
outset; so 4 or 5 years from now, we are still spending, as we 
should be spending, large amounts of money, so we still have 
support to do that.
    Second, in terms of promoting democracy in the region, as 
the former head of the White House office that dealt with 
democracy and human rights, Senator, I am very well aware of 
your efforts on these issues, which I think are exemplary. For 
the advocates for human rights and democracy within the former 
administration, you were very helpful in ways that you probably 
do not even know, in terms of internal administration debates. 
Promoting democracy and human rights has to be an important 
objective of U.S. foreign policy, not only in the Middle East, 
but everywhere in the world. Good governance helps us--we deal 
better with governments that are democratic and the threats 
that we face are far less severe.
    I would just make three caveats. Without making any 
judgments, the first thing I would say is that concerns have 
been expressed by those who support our position at the U.N. 
that making the democratic argument, the argument that we need 
to go in because we need to change this regime, has hurt our 
diplomacy at the U.N. Because at the U.N., we are arguing 
international law, that Saddam is not complying with U.N. 
resolutions on weapons of mass destruction, and that is the 
reason why we need to go to war.
    And other governments question whether upholding U.N. 
resolutions is the reason we are planning for war. They say 
that is not really what we are about. They claim that is a 
pretext for other objectives. So I am just raising the point 
that this has created a complication in our diplomacy. And it 
raises a question with which our diplomats have been grappling.
    Second, I think there is the basic question of when do you 
use force to impose democracy. And I am one who believes there 
are times when you have to use force to promote human rights, 
even in circumstances where your legal authority is uncertain. 
But I think one has to have a clear idea of when the use of 
force for that purpose is and is not appropriate, because it is 
certainly not appropriate everywhere, but there are places 
where it is. And I think Iraq raises that question.
    And the third question, I think Phebe can talk much more 
smartly about this, is just--to use the President's words--how 
humble we need to be when we are trying to impose these sorts 
of reforms elsewhere. That is not an argument for not trying, 
but it is an argument for being careful about how one directs 
one's efforts.
    And I think those are factors which are important to 
consider. And before I give up the mike, if I can just say one 
word on the Afghanistan point, because I did not address it, 
that I think it is important. I do think there is an issue of 
declining U.S. interest in Afghanistan. It is clear--and I 
think we need to be very careful about it--that there is 
sentiment in the administration that Afghanistan does not 
matter the way Iraq matters. And as a result, we may see 
implications for future funding.
    And I think that is something that should be of great 
concern to members of this committee and to the Senate.
    Ms. Mitchell. I would just echo that last point by Eric. It 
is very difficult these days for humanitarian organizations to 
get the attention of the administration on Afghanistan, where 
there continues to be serious security concerns in the 
distribution of aid--so more attention for sure.
    On the issue of human rights, I mean, clearly there are few 
regimes in the world most unworthy of ruling than Saddam 
Hussein. The 30 years of brutal, brutal human rights and 
humanitarian law violations that have been bestowed on the 
population over time have left tremendous effects.
    And these human rights violations will not stop the day the 
regime falls. We have to deal with the past crimes. Again, 
where is the plan for that? Where is the plan for dealing with 
these past violations?
    And we also need to work very hard in order to promote the 
human rights of the Iraqi civilians. The American Government if 
it goes into Iraq again will be bound by the fourth Geneva 
Convention, which sets forth those responsibilities. They are 
to protect the civilians and include the protection of their 
rights.
    We have not seen a lot about how that is going to be done. 
It is going to have to be a very proactive strategy. You have 
to buildup confidence very quickly as an incoming force to 
protect the civilians.
    Presumably, hopefully, they will all embrace American 
soldiers. We do not want any casualties, for sure. But that 
means getting out of the Humvees and talking to the local 
leaders and engaging them and having a proactive strategy. This 
is not something the American military is traditionally great 
at doing.
    They are trained in a different manner. This is why the 
humanitarian community has such an important role in these 
areas. We work with these local communities. We can assist in 
rebuilding those bridges and rebuilding their confidence, but 
we have to do so that is seen as being independent and 
impartial from military forces.
    On the issue of protecting human rights, and I think it is 
something that is important for you all to know, which is that 
if the United States intervenes in Iraq, there will be areas of 
Iraq that will be more stable than others. In areas where it is 
a very destable environment--unstable, where the risks of 
civilians are at greatest risk, there may be a need for strong 
military control in those areas.
    We should not be shy of that. Sometimes the only way to 
protect civilians is with some sort of military rule for a very 
short defined transparent period of time. And here I am 
thinking of Kirkuk in particular, which could be a very 
volatile situation.
    Again, we have been asking the administration for months 
now what are the plans for these volatile areas? How are you 
going to protect communities, individuals, specific groupings 
of people that today are in power that tomorrow will be victims 
and will be very vulnerable? They will be perceived to have 
been collaborators and perpetrators of 30 years of abuses.
    They need special protection plans. This is not--general 
incarceration is not an option. I am talking about general 
protection plans, working with the local community, instilling 
trust.
    USAID, the DART teams--the Disaster Assistance Response 
Teams--the Office for Transition Initiatives, these parts of 
the government should be coming up with ideas and plans for 
this. This cannot fall on the military. It really is not fully 
their role on some of these things.
    They should be providing security, but reaching out and 
building the confidence of the population will require much 
more than what a military commander is going to be able to do, 
given all of the other demands that will be put on that 
person's shoulder, most particularly finding weapons of mass 
destruction, which again I must reaffirm to you, we have no 
plan.
    There is no plan for what to do if weapons of mass 
destruction are used in Iraq against the Iraqi population. 
Thank you.
    Senator Dodd. Can I just----
    The Chairman. Yes.
    Senator Dodd. I wanted to ask you quickly about something. 
What about protecting humanitarian workers, really? Has that 
been thought about at all?
    Ms. Mitchell. Well, the military has--you know, they have 
this embedded procedure going on with journalists. It was 
discussed many months ago with the humanitarian community, but 
it is just not acceptable. I mean, we cannot go in and work 
hand-in-glove with the military. We are not perceived as being 
impartial and our security is too greatly at risk.
    Presumably, the U.S. military, if it provides security to 
areas, then we can operate. We do not need any additional 
security measures, as long as we have ambient security in the 
area.
    Senator Dodd. But if you did not have that, you would not 
be able to perform your functions?
    Ms. Mitchell. It would be very much--Senator, it would be 
very much a day-to-day type of calling. We work in some parts 
of the world where there is no military and we are in a 
conflict situation. It really is a call that is made on the 
ground day-to-day.
    Dr. Marr. Just a quick response on the democracy issue, I 
do not remember whether you were here earlier when I said that 
I, too, have a concern about leaving the current situation the 
way it is, I consider Iraq a failing state. We all know about 
Saddam and what he has done on the humanitarian side, but the 
state itself is failing.
    And, therefore, I, too, see that it is necessary to go in 
and do something about this. There are costs also to letting 
the current situation drag on.
    I certainly agree with you on democracy and restructuring 
and better governance in Iraq. I guess my fear here is that 
this is going to require staying the course, but I am not sure 
this requires years of a military presence, especially an 
American military presence. What staying the course really 
means is personnel and political involvement and pushing and 
shoving this process when necessary.
    I am concerned about two things on this. I am concerned 
about the governance issue. I am also concerned about human 
rights, but my colleague has already addressed that. The 
retribution issue is numero uno on the day after. We have got 
to be very careful about that.
    It seems to me that before we select or favor any Iraqi 
leaders, whether it is the INC or the outsiders or the insiders 
or whatever, we really ought to be directed to creating a 
process. The most important thing in Iraq is to a 
constitutional process and the rule of law started.
    Second, let us not forget that an important part of this 
democracy process is political culture. It is not going to be 
simply a matter of a vote and putting people in office, but 
until you have tolerance and an ability to conduct yourself in 
a democratic way, democracy is not going to come. That will 
take a very long-term effort.
    Incidentally, I feel very strongly about this in the rest 
of the area as well. I want to come back to the textbooks and 
education, with which I have a lot of familiarity. This area 
needs improvement all over the region.
    What you really need to work on is more openness, and a 
change in the political culture. That simply is going to take a 
long period of time. And I hope we will have the persistence to 
stick with it.
    Senator Brownback. I appreciate your comments and, Mr. 
Chairman, your indulgence. What I have seen, though, is that we 
have paid for a lack of being bold--humble, but bold in this 
region for some period of time. And I think we are paying for 
that, and no attention to textbooks may be within the region 
that we are seeing in several places that are teaching in some 
cases very hateful items.
    I mean, people have to be taught peace as they are taught 
war--or not necessarily taught, but they need to be encouraged 
toward peace, as they are encouraged toward war. And I think we 
have paid, and we continue to pay a huge price. And now the 
President is trying to put upon a tack to actually solve the 
problem, rather than some form of containment or continued 
expansion of it. And it is going to be difficult, and it is 
going to be expensive, but I think we are much better off to 
solve it rather than to continue on with Band-Aids that do not 
particularly work.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Brownback. I thank you 
likewise for your patience as we have proceeded to ask our 
witnesses ad seriatim to answer these questions. And they have 
responded.
    I just want to pick up one point, Dr. Marr. In describing 
the geography of Iraq earlier on and the different types of 
governance situations you might anticipate, you mentioned a 
degree of self-government now going on by the Kurds.
    This committee had a behind-closed-doors briefing on Turkey 
last week, following the decision of the Turkish Parliament but 
preceding the elections of this weekend. And first of all, I 
just make the point that, despite all of our planning and our 
timetables and what have you, other people in the world make 
decisions in different ways.
    Political parties, movements are formed, that are totally 
beyond our control--sometimes beyond our comprehension. Because 
the committee is trying to comprehend this better, we went to 
school on Turkey last week. And that was helpful, because we 
were not totally surprised by the events, nor I suspect were 
you, of the three bielections over the weekend that came about 
because of a flawed democratic system, one that is perceived by 
the Turks as flawed. So they had re-runs in three situations, 
which gave the presumptive leader, Mr. Erdogan, an opportunity 
to enter the parliament, which he is going to do apparently, 
and likewise, maybe to regroup the parliament but not 
immediately. And he has indicated to a congressional visitor 
and now to others, some of the thoughts that he has with regard 
to the relationship.
    Whatever they may be, they certainly impact upon the 
northern part of the country. And that is why we are all 
planning for Iraq; as you pointed out, as and each one of you 
have reiterated, Iraq is a complex country. It is a big 
country, with different kinds of governance situations, and 
very different in the case of the north.
    So I do not ask you for a comment today upon what is 
speculative, because we all are watching that. But it is 
something that we do need in our own planning, whether it be 
over at the Pentagon or here or in our conversations back and 
forth to consider. Because Turkey is a special situation, I 
believe, given the north, the history of the Kurds, and the 
interest of Turks perhaps in being in northern Iraq during this 
reconstruction process, and whether we will be there along with 
them, with a combination of Kurds, Turks, Americans, plus 
whoever else comes in from the United Nations and the NGOs.
    Does anyone have any thought that they want to express on 
that issue? I am not really wanting to interrogate you, but 
having raised it, you may be stimulated to answer. Dr. Marr.
    Dr. Marr. Well, I do think it is extremely important and 
very sensitive. There are two places where I think we really 
might get flash points aside from removing Saddam in the 
center, of course. One of them is the shi'a holy cities; the 
other one is the Kurdish area.
    My own proclivity is, to the greatest extent possible, to 
keep the Turks and the neighbors out of Iraq. That may not be 
possible because Turkey has such an intense interest there, but 
we all know what the reaction will be with the Kurds; Turkey 
exploiting the Turkomen minority is not very good.
    The Turkomen minority is very well integrated in Iraq. They 
do not have any particular separatist tendencies. They are 
usually an educated class.
    And as soon as the Turks come in, the Iranians and the Badr 
Brigade, composed of exiled Iraqis are going to want to come 
in. And frankly this is going to be very tough for us to 
handle, because we are going to have to talk to the Turks. We 
are going to have to talk to the Kurds--our friends the Kurds 
as well. And maybe they will not get everything they want 
either. But it is a very sensitive issue and we really do need 
to address that.
    If Turks go into Iraq, it is just going to set a very bad 
precedent for keeping the territorial integrity of Iraq and 
keeping other neighbors out, keeping them from interfering. 
That has been one of the historic problems in Iraq. Every 
neighbor has a group inside of Iraq that it can use to 
manipulate its interests, and to the extent that we can exclude 
that, it would be better.
    The Chairman. Yes, Ms. Mitchell.
    Ms. Mitchell. The Kurdish authorities since 1991--or the 
Kurdish authorities in the north, have done a pretty good job 
of rebuilding villages and putting administrative systems in 
place. Certainly from a humanitarian perspective, there is more 
capacity in the north to absorb population movements now than 
there was then.
    Our concern continues to be, though, that adequate security 
measures be put in place for Kirkuk, which is potentially the 
second largest oil reserves inside Iraq. Years and years of 
forced population movements--Arabs living in there now that had 
been put there by Saddam. They all left in 1991. They may leave 
again. There may be a race then on Kirkuk, and how that 
security situation can unfold can quickly start moving 
populations around.
    But I think that the Kurdish authorities, at least in our 
meetings with them, have indicated that because they have more 
of a system now in place, that they would be looking forward to 
a role in a new national government and not an independent one.
    The Chairman. Well, I thank you very much, and I 
appreciate, again, the detail in which you have addressed these 
problems. Senator Dodd may have had a similar experience, but 
in Indiana this weekend on Saturday and Sunday, I addressed 
almost continuously meetings of several thousands of people. 
They were not there either to applaud or to protest; they 
wanted information.
    There is a yearning for information. That is what this 
committee is trying to go to provide. What is Iraq? Who are the 
people that are there? We are considering the impact of the 
history of this situation, even as we now become tremendously 
involved, and are likely to be for some time.
    So all of the things that you are saying illuminate for my 
constituents--for all of our constituents--the facts that they 
want to have. And they are going to be a part of the argument 
for a long time.
    And this is what I have tried to stress today. This is not 
the first time we will ever take up a supplemental 
appropriation bill, if we take up one with regard to Iraq. It 
is likely to go on and on, as those of you have been in the 
budget business understand.
    Senator Dodd.
    Senator Dodd. Well, Mr. Chairman, I thank you and I thank 
our witnesses. I will sort of end where we began. This has been 
tremendously instructive.
    I thank you immensely for your preparation and for the work 
that many of you have done for so many years in the related 
areas that we talked about here today.
    And I cannot help but express my sincere disappointment 
that the administration saw fit not to participate this 
morning. I do not know what the motivations may be, even from 
people who are part of this committee who may have been against 
the resolution the last fall. I was not one. I voted for it, 
and I believe they made the right decision at the time.
    But even for those who have been critics of the decision on 
that resolution, I think there is a strong desire that once 
this occurs, that we do it right in terms of the follow-on, 
winning the peace as has been described the situation.
    And to miss an opportunity here today to start to build the 
kind of level of support and understanding of what this 
involves, is a tremendously missed opportunity--we will have 
more hearings but I do not know how many more we are going to 
have once the actions starts in a sense. And then we are sort 
of playing catch-up.
    And I am just terribly disappointed that they decided not 
to be--there may have been tough questions, maybe some awkward 
questions, but that is the nature of democracy. At times, we 
are going to be trying to instruct a part of the world that has 
very little of it. And it seems to me on the very issue of 
whether or not there is going to be support here under 
democratic institutions for the level of backing and support 
necessary to give Iraq a chance in the post-Saddam period to 
survive is not terribly instructive of how democracy may work.
    So I thank the chairman for these very, very helpful 
hearings. I learned a lot here this morning. And I thank all of 
you. And I suspect we are going to be calling on you, again, to 
give us your insights and observations as we move forward here.
    I just hope that maybe there are some people within the 
administration who listened carefully to what you had to say 
today. Certainly, it has been helpful to us here on this side 
of the dais. It could have been tremendously helpful as well 
for people inside the administration to hear your pleas to get 
going. We are losing time here. You have got to start now. You 
have got to get involved in this. You need to involve the 
international community.
    Whatever differences may have existed over wordings or 
resolution at the United Nations, there ought to be a second 
track ongoing to know how we are going to work together, to see 
to it that the people of Iraq deserve far better than they have 
had for the last 30 years.
    So, I thank you very much.
    The Chairman. Thank you, likewise. I hope our colleague, 
Senator Biden, has an opportunity to listen to all of this too, 
because he will have enjoyed it.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:30 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statements Submitted for the Record


              Prepared Statement of Senator Jon S. Corzine

    Mr. Chairman, I would like to thank the distinguished panelists for 
sharing their wisdom with us on a topic that promises to be one of the 
most important that this committee will face this year.
    Victory in Iraq, we all acknowledge, cannot be defined as simply 
overthrowing Saddam Hussein. We will not have won the war in Iraq until 
we successfully put the pieces of the country back together when the 
fighting is over.
    And by some measures, beating Saddam will be the easy part. It 
would be a colossal mistake to underestimate the far-reaching national 
security implications of an ineffective, haphazard, or poorly 
considered reconstruction effort.
    I regret that the administration is not here today to discuss some 
of the many concerns that this committee has relating to the 
reconstruction of Iraq. Up until now, for example, the administration 
has been unwilling to suggest how much post-conflict reconstruction 
might cost. Clearly, many difficult to predict variables factor into 
the ultimate costs, but getting a range of estimates should not be 
nearly as much trouble as it has been to date.
    Providing cost estimates is not a trifling matter. The Congress 
must assure that sufficient resources are being earmarked for 
reconstruction activities because the risks of failure in post-conflict 
Iraq are tremendous. And unless the American people are cognizant of 
the costs we expect to encounter, it will be much more difficult to 
maintain support for this important, but expensive effort in the 
future.
    Substantial sums will need to be provided to support peacekeeping 
efforts and attempts to restore civil society. Without these 
initiatives, Iraq could splinter into warring factions and plunge the 
region into further turmoil. This in turn could lead to military 
intervention by neighboring countries, including Turkey and Iran, and 
upset the regional balance of power. To avoid an ad hoc or ill-
conceived approach to reconstruction later, it's important now--before 
the fighting starts--to consider the costs that we are likely to face.
    Ultimately, America's success in reconstructing Iraqi society will 
be directly related to the quality of life enjoyed by the Iraqi people, 
economically and politically.
    Ideally, by creating a strong, democratic Iraq, we will help 
overcome one of the main difficulties the United States faces in the 
Middle East: its image problem. A Gallup poll conducted between 
December 2001 and January 2002 in Indonesia, Iran, Jordan, Kuwait, 
Lebanon, Morocco, Pakistan, Saudi Arabia and Turkey, found that 53% of 
people polled had an unfavorable opinion of the United States.
    America's future in the Middle East presents a forked road. If we 
are unwilling or unable to provide the level of humanitarian assistance 
and other support that Iraq desperately needs, the United States could 
undermine its credibility in the region for generations to come, 
bolstering efforts by foreign terrorist organizations to gain further 
strength and making meaningful relations in that part of the world 
unattainable. However, if a prosperous, democratic Iraq flourishes, it 
will pay dividends to American security for our children and beyond.

                                 ______
                                 

  Prepared Statement of Bernice Romero, Deputy Director of Policy and 
                    External Affairs, Oxfam America

Following please find analysis in response to recent Administration 
        announcements around its humanitarian planning for Iraq.

    Oxfam continues to believe that war in Iraq should be avoided due 
to the humanitarian consequences that may result. The best way to avoid 
humanitarian consequences is to find a diplomatic alternative to the 
current crisis.
    However, if military action does take place, the international 
community must be prepared to meet humanitarian needs and protect the 
rights of civilians. Any warring party in conflict has obligations to 
protect civilians under international humanitarian law and the Geneva 
Conventions. This obligation will apply to the U.S. and coalition 
forces in the event of military action against Iraq.
    The White House has outlined 6 principles that will frame its 
relief efforts in Iraq: minimizing civilian displacement and damage to 
civilian infrastructure; relying on civilian relief agencies; 
committing to effective civil-military coordination; facilitating the 
operations of international organizations and NGOs; pre-positioning 
relief supplies, and supporting the resumption of the ration 
distribution system.
    Drawing on recent analysis by Refugees International (``U.S. 
Announces Intention to Rely on Civilian Relief Agencies for 
Humanitarian Response in Iraq,'' February 27, 2003) and our own 
experience, Oxfam America raises the following concerns about the 
ability to live up to these principles:
    Minimizing civilian displacement and damage to civilian 
infrastructure: Because Iraq is an urbanized country with concentrated 
population centers an effective military strike is likely to produce 
significant damage to civilians. For example, Iraq's electrical grid 
supports water treatment and sewage facilities for the majority of the 
population. Any disruption of power could leave half of Iraq's 
population without access to clean water, making them vulnerable to 
diseases such as diarrhea, cholera and respiratory infections. In fact, 
this was the cause of the greatest number of deaths in the last Gulf 
War. Millions of Iraqi civilians already lack access to safe water and 
sanitation. Oxfam has called on the U.S. to avoid targeting civilian 
infrastructure and using indiscriminate weapons such as landmines and 
cluster bombs.
    Reliance on civilian relief agencies: U.S. policy in the run-up to 
the war will make this commitment difficult to realize. The fact is: 
the U.S. government has not facilitated the conditions that would allow 
U.S. humanitarian agencies to prepare an adequate response to a 
humanitarian crisis in Iraq.
    U.S. sanctions law requires humanitarian agencies to have U.S. 
government licenses that permit them to operate in Iraq and some 
surrounding areas. Although many U.S. humanitarian groups have been 
trying to obtain licenses since last year, significant delays in the 
licensing process have prevented them from conducting the humanitarian 
assessments and pre-positioning that would allow them to prepare for a 
significant humanitarian response. Even those humanitarian agencies 
that received grants from the U.S. government to work in Iraq were 
delayed for months by the licensing process. In response to NGO 
pressure, new expedited processes were announced recently. They are 
welcome but it is still too early to tell whether they will be 
effective or whether they have come in time to allow adequate 
preparedness before military action.
    The U.S. has also weakened the possibility of a civilian-led relief 
effort by placing the office for the reconstruction of Iraq within the 
Department of Defense. While the Administration argues that this is 
simply to facilitate civil-military planning and communications, doing 
so sends the message to NGOs and others that the Pentagon--not 
civilians--will be in control of post-conflict Iraq.
    The U.S. is staffing the largest Disaster Assistance Response Team 
(DART) in U.S. history for deployment to Iraq. DARTS work closely with 
NGOs and UN agencies to implement humanitarian assistance programs. In 
the case of Iraq, few international NGOs are present and UN personnel 
are largely limited to overseeing the oil for food program. Given this 
vacuum and the licensing problems described above, it is difficult to 
imagine how a relief effort will be civilian led.
    Under these conditions, the military may have the only real 
capacity to meet humanitarian needs. Problems may emerge around the 
effectiveness and appropriateness of the aid provided, and the blurred 
lines between military actors and civilian humanitarian actors may 
affect humanitarian principles of impartiality, endangering NGO staff. 
Oxfam continues to insist that as soon as security allows, relief and 
reconstruction efforts must fall under U.N. leadership that is not 
subordinate to U.S. government or military bodies.
    Effective civil-military coordination: The U.S. is supporting 
offices and positions in the region that will serve to facilitate 
information exchange and planning between civilian and military 
institutions. U.S. officials have pointed to USAID as an appropriate 
interface between the military and U.S. NGOs. However, the fact that 
AID is part of the U.S. government--a belligerent force in the 
potential conflict--is unacceptable to some NGOs concerned that their 
efforts be perceived as impartial. Oxfam and other humanitarian 
agencies have been calling for the U.N. to serve as the interface to 
ensure impartiality and needs-based relief efforts.
    While Pentagon officials have met with the U.S. NGO community, they 
have failed to share details of U.S. humanitarian planning. In fact, 
promises to declassify plans and share them with U.S. NGOs have not 
been met. Meetings with both the USAID and military apparatus have 
provided forums for limited information exchange and have not met 
planning or coordination purposes.
    Facilitating the operations of international organizations and 
NGOs: Due to their opposition to the war, U.S. allies have failed to 
fund U.N. agencies' humanitarian preparedness. As of February, the U.N. 
had received only $40 million of the $123 million it said was needed to 
run a three-month relief operation in Iraq. In addition, few U.S. NGOs 
have received U.S. government grants at present for humanitarian 
preparedness and relief in Iraq. Until only recently, U.S. NGOs were 
told that funds were unavailable.
    Pre-positioning supplies: The U.S. has stockpiled emergency 
supplies for one million people. The pre-positioning pales in 
comparison to the level of need. To put the number in perspective: 
nearly 16 million people rely on the oil for food distribution system. 
The U.S. is also stockpiling nearly 3 million Humanitarian Daily 
Rations, meal packets like those dropped by air in Afghanistan. In the 
case of Afghanistan, the U.S. spent $40 million on food airdrops that 
weighed 6,000 tons--equivalent to $7.50 per kilo. The parcels were the 
same color as cluster bombs, and their contents were not tailored to an 
Afghan diet. Not surprisingly, they met the needs of only a fraction of 
the civilian population. By comparison, the average cost per kilo of 
food provided by the World Food Program was 20 cents, and its provision 
of wheat, oil, and sugar was designed to meet the long-term, everyday 
cooking needs of the local population. Humanitarian Daily Rations are 
not the most appropriate or effective way to ensure relief.
    Supporting the resumption of the food ration system: Because of the 
significant dependence on this system, its preservation is essential. 
The U.N. reports that household reserves in Iraq are expected to last 
no more than six weeks and that 460,000 tons of food will be needed per 
month--4 times the amount that was delivered during the crisis in 
Afghanistan. Oxfam notes the U.S. commitment to supporting its quick 
resumption of the program should it be disrupted by military action. 
However, doing so will be a challenge; as outlined above, Iraq's 
infrastructure is vulnerable and the system is run by local officials 
who may flee during a military attack. Failure to resume the program 
may put lives at risk.
    Oxfam is encouraged that the U.S. government recognizes is 
obligations to protect and assist civilians caught in any conflict in 
Iraq. It is important that the discussion of the humanitarian costs of 
war, and how to avoid them, is finally taking place. We remain 
concerned, however, about the potential human costs of military action. 
It is unclear that the necessary preparation and conditions are in 
place to mitigate the worst effects on Iraqi civilians.


</pre></body></html>
